<html>
<title> - ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
 ENERGY AND WATER, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        THURSDAY, APRIL 14, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:07 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Allard, and Feinstein.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF AMBASSADOR LINTON F. BROOKS, UNDER 
            SECRETARY AND ADMINISTRATOR, NUCLEAR 
            SECURITY
ACCOMPANIED BY:
        ADMIRAL KIRKLAND DONALD, DEPUTY ADMINISTRATOR, NAVAL REACTORS
        DR. EVERET BECKNER, DEPUTY ADMINISTRATOR, DEFENSE PROGRAMS
        KENNETH BAKER, PRINCIPAL DEPUTY ADMINISTRATOR, DEFENSE NUCLEAR 
            NONPROLIFERATION

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. The hearing will please come to order. 
The subcommittee is going to take testimony on the fiscal year 
2006 budget request from the National Nuclear Security 
Administration. I changed the process from the previous hearing 
so we'll be able to have more opportunity to ask questions.
    For this hearing, we'll take testimony from the 
Administrator, Ambassador Linton Brooks. Ambassador Brooks is 
joined by his deputies, who can respond to questions, and they 
are Deputy Administrator for Naval Reactors, Admiral Kirkland 
Donald--thank you very much----
    Admiral Donald. Yes, sir.
    Senator Domenici [continuing]. Deputy Administrator for 
Defense Programs, Dr. Everet Beckner; and Ken Baker--good to 
see you here--Principal Deputy Administrator for Defense 
Nuclear Nonproliferation. Thank you very much.
    Admiral Donald, this is your first visit to the 
subcommittee. I want you to know that we appreciate your 
willingness to participate, and it's always a pleasure to have 
you here.
    Dr. Beckner, I understand that you have announced your 
retirement, effective at the end of the month. Obviously, that 
day had to come, but, for everybody that knows what you've 
done, it's a good day for you and your wife, but not a good day 
for us. Between 1962 and 1990, you served in a variety of 
senior leadership positions at Sandia Laboratories; and, since 
leaving the lab, you've worked at Lockheed Martin, served at 
two positions in the Department of Energy; and, between 1991 
and 1995, you served as Principal Deputy Assistant Secretary 
for Defense Programs. And since 2002 you've served as Deputy 
Administrator for Defense Programs at NNSA. So, I understand 
that it's time for you to leave, and certainly I understand 
that, if I have it right, that you probably are going to return 
to New Mexico for your retirement.
    Dr. Beckner. That's correct.
    Senator Domenici. And then I would think it's fair to say 
that, at that point, I will be representing you.
    Dr. Beckner. That's correct.
    Senator Domenici. I don't know, maybe you voted, absentee 
before.
    In any event, you may be having a chance to vote for me in 
person. Who knows? But I want to thank you for that 40 years of 
service, which I think has been exemplary.

                    FISCAL YEAR 2006 BUDGET REQUEST

    Now, the fiscal year 2006 budget, the President has 
requested $9.4 billion, for an increase of 2.5 percent from the 
current-year funding level of $9.1 billion. So, while that's 
not a lot as a percentage, this is a considerable increase 
above the 2 percent cut in discretionary funding for the 
Department of Energy, as a whole.
    The President's budget reflects an increase of 15 percent, 
or $215 million, for the Office of Nuclear Nonproliferation, 
which offsets a slight decrease, Admiral, in the Naval Reactor 
Program----
    Admiral Donald. Yes, sir.
    Senator Domenici [continuing]. Of 1.9 percent, as I 
understand it.
    Admiral Donald. Yes, sir.
    Senator Domenici. And the Office of the Administrator, 3.7 
percent, negative--no, that's the Administrator's weapons--your 
weapons activity. And, let's see, the weapons activity has 
received a 0.7 percent increase, I'm sorry; and the Office of 
the Administrator is -3.7.
    The administration has made a number of policy decisions in 
this bill that I would like to address, just quickly, but 
individually. I have spoken to you, Mr. Ambassador, about some 
of them.

                     FUTURE OF THE WEAPONS PROGRAM

    First, this budget proposes a significant cut to NNSA over 
the next 5 years, as compared with the 2005 request. The 
majority of the cuts seem to come from the weapons program--
they're mostly in the out years, so I say ``seem to''; they're 
not binding at this point--which is a $3 billion reduction. 
This is the third annual Defense program budget, and the budget 
also cuts facilities, the recapitalization, for $750 million. I 
should have said the $3 billion reduction is a third of the 
annual Defense budget. The $3 billion reduction in the NNSA 
program is unsustainable, in my opinion, with the current NNSA 
complex. Now, that doesn't mean that my assumption is a 
necessity, but it's unclear as to where the cuts will be 
applied, and I am deeply concerned that scientific capability 
of the laboratories, which is sometimes overlooked, will be 
significantly affected, on the negative side.
    Ambassador Brooks, I read a number of press articles about 
your testimony before the Armed Services Committee regarding 
your vision of the weapons program out into the future. I think 
your comments before the committee are more informative about 
NNSA's budget priorities than the testimony that you've 
submitted here today, but I would be glad for you to explain 
that, later on. I would ask that your statement of April 4 be 
made a part of the record, so everybody will have it.
    This vision that you've laid out is going to require a 
substantial investment in NNSA's capability and infrastructure. 
Simply put, your vision is not supported by the future budgets. 
Seems like they run into each other, and one goes up and the 
other comes down.
    The long-term impacts of the proposed budget will leave 
your complex with a very shallow scientific capability, housed 
in old facilities, which we've just gone to some great lengths 
to try to make current. And you've been part of helping with 
that. I would agree they haven't been done in a overall plan, 
but clearly the most uninhabitable buildings have been 
replaced, and that's because we insisted, up here, and you all 
were willing to do that.
    So, I don't see how we can maintain the existing capability 
and reinvent the weapons program to design, build, and deploy 
weapons in--by 2012 and 2015--that are described in your 
testimony, that you can elaborate upon here today.

                     RELIABLE REPLACEMENT WARHEADS

    The testimony you gave before the Committee of Armed 
Services laid out a plan. In my opinion, it exceeds the 
political support here on Capitol Hill, unless the reports of 
what you said are not what you mean. Your comments that I've 
identified indicate that DOD has identified, and I quote, ``no 
requirements for such weapons.'' Your testimony made broad 
assumptions about the Reliable Replacement Warheads. That's 
called RRW. That initiative is--at least there's an indication 
that it is there to develop new weapons. And I hope you will 
dispel that today. And I see your testimony does that; I just 
want to go over that more than one time.
    The RRW--and I say to my friend, the new member from 
Colorado, this Reliable Replacement Warhead actually came from 
this committee. It was not a request from the administration. 
We were asked by those who were involved in science-based 
stockpile stewardship, as it pertains to ingredients that make 
up the nuclear weapons--they asked us to put in something that 
would give them authority to do research on replacement parts, 
and--in many respects; so they might be lighter, so they'd be 
safer, so they'd be more durable. So we--that was put in here 
to achieve stockpile transformation. Strike that. It wasn't for 
transformation; it was for stewardship maintenance. So, we need 
to make sure that that's clearly understood and that there's no 
misunderstanding on the part of Senators as to what it meant 
and what you intend to use it for.
    Incidentally, it's not a whole bunch of money, so it surely 
is not to build a--it's $9 million, so, as you know, Mr. 
Ambassador, that's got to be a very small amount if we're 
talking about a very significant change.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Now, the weapon research, the policy decisions that is 
likely to attract attention will be the Department's commitment 
to a study of so-called Robust Nuclear Earth Penetrators. The 
budget provides for $4 million in 2006, and $14 million in 
2007. This is, from what I can tell, not part of a planned 
funding, beyond the completion of the study. So when we get 
approached on this, we're going to have to have your assurance 
that you aren't doing this with the idea that a plan to use it 
for building a new weapon is part of this. That's a separate 
issue for the Department and the Congress, later on.

                       NATIONAL IGNITION FACILITY

    Now, there's one monster program, in terms of dollars, that 
we might as well talk about, and that's NIF, the National 
Ignition Facility, that you operate out in California at the 
nuclear laboratory there. I notice that you have refocused 
efforts on NIF, with the goal of achieving final results by 
2010. Is that correct?
    Dr. Beckner. Yes, sir.
    Senator Domenici. This budget cuts a lot of relevant 
stewardship research, while NASA wages what I consider almost a 
crusade to move on with NIF. Now, we've eliminated, entirely, 
the funding for inertial fusion technology; that's $33 million. 
That supports the development of lasers and Z pinches that 
could be used in stewardship programs that I have great 
confidence in, and I think many other scientists do. It just 
happened to come a year or 2 too late, and we had already 
committed to the plan for NIF. I was shocked to learn that the 
budget doesn't even support a full single shift at the Z 
machine. And if I don't get a chance to ask you about it, I 
hope you will answer that.
    [The information follows:]

                       National Ignition Facility

    Senator Domenici, I appreciate the opportunity to respond to your 
remarks. You have raised a number of issues that I will address in 
turn.
    First, we have maintained a focus on the goal of ignition at NIF 
despite reductions to the Inertial Confinement Fusion Ignition and High 
Yield Campaign. The budget submission supports the execution of the 
first ignition experiments at NIF in fiscal year 2010. This is an 
important goal for the stewardship program and the Nation. Ignition is 
a unique capability that will allow the stewardship program to address 
weapon performance issues related to thermonuclear burn. You and your 
committee have supported that important goal, and we appreciate your 
support.
    As you may recall, the fiscal year 2005 appropriation reduced the 
funding for the NIF Demonstration Program, an essential piece of the 
NIF Project. In response to the fiscal year 2005 appropriation and the 
modified NNSA 5-year budget, a new plan to complete the NIF Project has 
been developed. This plan supports the Ignition 2010 goal. We have 
recently concluded a major external review of this new NIF Project plan 
that found the Project was proceeding well and performing in accordance 
with its baseline prior to the fiscal year 2005 reduction. The review 
team also found that the proposed plan for completing the Project is 
executable and recommended NNSA accept a change proposal reflecting 
this plan. However, they caution that the NIF Project is tightly 
constrained with respect to budget and should be protected against 
further reductions. NNSA will submit revised plans for the NIF Project 
and the ignition program to the Congress by June 30, 2005. The 
achievement of the ignition goal will require continued strong 
commitment from both the Congress and the NNSA.
    Second, you raised a concern regarding the funding for inertial 
fusion technology. (By ``inertial fusion technology,'' we mean 
development of high repetition rate laser and pulsed-power drivers and 
other activities primarily directed at the development of inertial 
fusion as an electrical power source; this is distinct from stockpile 
stewardship activities conducted at NNSA inertial fusion facilities.) 
The Congress has funded this via ``add-ons'' in the past, and it is 
true that such activities are not funded in the current budget. As you 
point out, this work is of high quality, but the energy-related 
inertial fusion technology activities have never appeared in the NNSA 
submission, as they are lower priority than other stewardship needs and 
largely motivated by the inertial fusion energy mission, which does not 
reside in NNSA. I would also point out that NNSA does support a number 
of important technology development activities relevant to weapons 
applications of inertial fusion, including high-energy petawatt lasers 
and advanced ignition concepts. As a final point, from both the defense 
and energy perspectives, the demonstration of ignition is the highest 
priority inertial fusion activity NNSA and the Nation can undertake.
    Third, you raised a concern regarding funding for the Z machine. 
The Z machine has returned outstanding results and continues to be an 
important resource for NNSA. In fact, in the face of a difficult budget 
we have maintained a reasonable program at Z in fiscal year 2006, 
including full funding for the Z-refurbishment project. Because of 
constrained budgets, we are planning to operate the Z Facility at 90 
percent of the full single shift rate through April 2006. At the end of 
April 2006, the Z-facility will be shut down for refurbishment and 
installation of hardware, per the Z-refurbishment project plan. Thus, 
overall we will reduce the number of shots on Z by a modest amount 
while keeping the Z-refurbishment project on schedule.
    NIF is important to the NNSA, stockpile stewardship, and the 
Nation. It will provide critical information for the stewardship 
program and open major new scientific frontiers. The demonstration of 
ignition will be a major scientific achievement for stockpile 
stewardship; in particular, it is critical to the validation of the 
advanced simulation codes produced by the Advanced Simulation and 
Computing Program. NIF is now 80 percent complete, and we believe the 
most effective path financially and technically is to complete the NIF 
Project and commence ignition experiments as expeditiously as possible.
    Thank you again for your interest and the opportunity to respond.

    Senator Domenici. Another policy change contained in this 
budget is a provision to shift the cleanup responsibilities 
from the Office of Environmental Management to the NNSA. I 
understand that the Department would like the NNSA to take 
ownership of its waste streams and include cleanup cost in the 
lifecycle of future projects.
    In theory, I agree with this concept. However, applying 
environmental cleanup responsibilities to the weapons 
stewardship program might be a greater challenge than the 
administration expects. I hope to learn more about this 
proposal from your testimony, especially the legal basis for 
such actions.

                        NUCLEAR NONPROLIFERATION

    We all know that a better job is being done on--overall, on 
cleanup than ever before. Some will disagree. I compliment you 
on it.
    On nonproliferation, huge issue, we appreciate the 
President's mentioning it in his State of the Union, and then 
for you to follow through with a significant increase of 15 
percent on nonproliferation.
    I failed to mention, when we talked about cleanup, with the 
presence of the Senator from Colorado, that one of the real 
examples of achievement, setting timetables and getting them 
done, is in your State. Rocky Flats. We've had other ones say 
we can't have a timetable, we never can get finished. Here you 
came up with one that was terrifically difficult, in terms of 
pollution, and you got it done.
    Nonproliferation research is up. That's good. You include 
funding for the MOX program. Very exciting. Terrific idea.
    The MPCA with Russia has an increase. Eliminating the 
Russian plutonium production has an increase. That one's all in 
jeopardy if we don't get the agreement with the Russians, which 
doesn't have much longer time, because that's got a lot of 
money tied up in the appropriations that the House may decide 
to spend if we don't get that agreement. And I'm working very 
hard with the State Department and your Secretary to see if 
they can't expedite that.

                             NAVAL REACTORS

    Naval reactors, we don't have to say much. They always 
excel. We use you as an example, and especially with all your 
boats at sea----
    Admiral Donald. Yes, sir.
    Senator Domenici [continuing]. With reactors floating 
around with spent fuel rods onboard----
    Admiral Donald. Yes, sir.
    Senator Domenici [continuing]. As examples of why we 
shouldn't be so frightened about nuclear power and nuclear 
waste.
    Admiral Donald. Thank you, sir.
    Senator Domenici. So, in conclusion, there is no doubt 
about it, the budget will require some tough choices to balance 
the needs of the Department, but what we must do this year 
pales in comparison to the challenge we will face if we're 
expected to cut $3 billion over the next 5 years from the 
weapons program. I don't think anyone's given much thought--
maybe they have, but they certainly hasn't come up with any 
conclusions that we've accepted in Congress as to how we will 
achieve those.
    So, Mr. Ambassador, sorry for going through all of this, 
but I think it's important that you know that we know what's 
going on and that we are very interested in what you have to 
say.
    The Senator from Colorado.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Mr. Chairman, I have a full statement I'd 
like to put in the record.
    Just briefly, this is a new experience for me.
    Senator Domenici. Yes.
    Senator Allard. I was on the authorizing side, as Chairman 
of the Strategic Subcommittee, and viewed many of these issues 
from the authorizers' point of view, which I don't think is 
that different from where you come from, Mr. Chairman. I plan 
on being very supportive of your efforts here on this 
subcommittee.
    You know, I've had an opportunity to work with Ambassador 
Brooks and Dr. Beckner, both, and I think they do a great job, 
and I think we will miss them. And, in fact, I took a personal 
tour with both of them, visited Lawrence Livermore Lab, Los 
Alamos Lab, Sandia Lab, as well as went over to the Pantex 
facility there in Texas, and have had an opportunity, also, 
Admiral, from being--looking at a nuclear reactor on a ship. 
So, I do feel that we're doing a good job in many of these 
areas, and I'm a little bit taken aback by the size of 
reduction in funding that the administration has suggested on 
this.
    And, Mr. Chairman, you've always taken a special interest 
in all these programs, in the health and well-being of these 
laboratories, and I've appreciated that effort. And when I 
visited those labs, the employees in those labs--and the 
administration, frankly, looked up to your leadership, and you 
were spoken of favorably in many instances.
    You know, I've been supportive of the study on RNEP, and 
it's always taken me aback why the other House couldn't at 
least settle on just studying it, look what our options are and 
what--the programs happening out there. And I hope that we can 
continue to push that on this side. And it's somewhat of a 
problem, I think, in conference committee, and hopefully we can 
be more successful this year than we have in the past.
    And so, I look forward to your testimony, Mr. Brooks. And, 
Mr. Chairman, I look forward to working with you on many of 
these very important issues. And thank you for mentioning Rocky 
Flats, Mr. Chairman. We're 1 year ahead of schedule, and we're 
under budget. And so, I'm proud of that. And, again, thank you 
for giving me an opportunity to say a few words.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you Mr. Chairman for the opportunity to attend this hearing 
today. It is a little unusual to be approaching this issue from the 
appropriations side of the house. As you know, Mr. Chairman, last year 
I chaired the Senate Armed Services Strategic Forces Subcommittee, 
which was responsible for authorizing funding and overseeing the 
Department of Energy National Nuclear Security Agency.
    Ambassador Brooks, it is a pleasure to see you again. Your 
leadership at the National Nuclear Security Agency has been critical 
over these last couple of years. I want you to know that I support you 
and that I look forward to working with you this year.
    Mr. Chairman, I have been concerned for many years that the United 
States was not doing enough to ensure the effectiveness and reliability 
of our nuclear weapons deterrent. Two years ago, I visited all three 
nuclear weapons labs: Livermore National Laboratory, Sandia National 
Laboratory, and Los Alamos. I also visited the refurbishment facility 
at Pantex, Texas.
    Mr. Chairman, I know you take a special interest in the health and 
well-being of these laboratories. Your support for their work has 
helped diversify and invigorate the activities of the labs. Most if not 
all of the workers, technicians, and researchers at the labs look up to 
you and deeply appreciate everything you have done for them.
    Given your interest, I believe it is important for you to know that 
during my visit, I sensed an unusual degree of hesitancy. It seemed to 
me that though the scientists at the labs were proud of their work, 
many were apprehensive about discussing it. As I probed, I became aware 
of the detrimental impact decisions made here in Washington were having 
on our scientists and researchers. We have put so many laws on the 
books and have had so many public, highly controversial debates that 
those at the labs are often left wondering if whether the work that 
they are doing for our Nation was appropriate, or worse, even legal.
    This apprehension introduces an element of uncertainty. As I'm sure 
you know, uncertainty can be very destabilizing for a scientist and can 
hinder the scientist's ability to focus on the question at hand. It 
introduces limiting factors that cloud the scientific process and make 
it very difficult to approach a problem in a logical, straightforward 
manner.
    Mr. Chairman, I believe the Congress has been sending mixed 
messages. One moment, the Congress repeals the prohibition on the low 
yield nuclear weapons. Then, Congress turns around and cuts the funding 
for the study of the feasibility of a robust nuclear earth penetrator.
    The Congress tells our scientists to be responsive to the 
requirements of the military commanders and begin to think about how 
nuclear weapons fit within the Nuclear Posture Review's new triad. Then 
Congress changes its mind and cuts funding for advanced concepts 
initiatives, which would have tried to match our military's 
requirements with potential nuclear capabilities.
    Mr. Chairman, I recognize that the problem is not in the Senate. 
Under your leadership, we have successfully defeated several floor 
amendments to cut nuclear weapons funding or limit our weapons 
activities. I know that some in the House have been willing to make 
significant sacrifices in order to prohibit funding for certain nuclear 
weapons activities. I want you to know that I will strongly support you 
both on the floor and in conference on these issues. In my mind, few 
programs are as important to our country's national security as our 
nuclear weapons programs.
    Thank you Mr. Chairman for the opportunity to speak today. I look 
forward to the Ambassador Brooke's testimony.

    Senator Domenici. You're welcome. We welcome you on the 
committee. You're going to be a terrific asset.
    The round will proceed. Mr. Ambassador, your full remarks 
will be made a part of the record.
    Oh, I didn't see you, Senator Feinstein. You walked in--I 
shouldn't say ``snuck in''--you just walked in, and I wasn't 
looking. So, would you like to have some opening remarks? If 
you do, please proceed.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Well, I'd be happy to make a couple of 
opening remarks.
    As you know, I have great respect for you and great respect 
for Ambassador Brooks. I am very opposed to reopening the 
nuclear door and developing a new generation of nuclear 
weapons. And this budget contains money to do just that.
    Specifically, $4 million in the Energy budget, and $4.5 
million for the Department of Defense for the study of the 
Robust Earth Nuclear Penetrator, $25 million to increase the 
Nevada Test Site's time to test readiness from the current 24 
to 36 months, to 18 months; and $7.7 million for a modern pit 
facility. And that's a facility then to build 450 new pits, 
which are the nuclear triggers for nuclear weapons; 450 per 
year, some of which could be designed for new weapons. You 
don't really need that much production--we went into this 
before--unless you're intent on reopening the nuclear door.
    I'm pleased that this budget contains no funding for the 
advanced weapons concept and the development of low-yield 
tactical nuclear weapons under 5 kilotons, but it does contain 
$9 million for the Reliable Replacement Warhead program. And I 
would like to, at the appropriate time, question Ambassador 
Brooks about his testimony before the Senate--the House Armed 
Services Committee, because there is concern that this program 
may be used as another way to develop new nuclear weapons.
    I think we made a strong statement last year. I know, Mr. 
Chairman, respectfully, you don't share my belief here. But the 
House and some of us on this committee were able to get this 
money in last year's budget struck entirely for this program. 
And, as you know, the proposal is for--and also not in this 
program is the 5-year budget; there's no 5-year budget in this 
budget. I think it was $486 million in the last budget we 
looked at. So, I have a number of questions on this subject.
    Thank you very much.
    Senator Domenici. Thank you, Senator. And I am aware of all 
those issues; and, from just guessing, I think we might agree 
on one.
    Senator Feinstein. Good. Which one?
    Senator Domenici. That one will--one of those will be easy 
to pass--I mean easy to get concurrence on.
    Senator Feinstein. Good.
    Senator Domenici. Mr. Ambassador.
    That was what the intent of the RRW program--we can agree 
on that.
    Mr. Ambassador.

                STATEMENT OF AMBASSADOR LINTON F. BROOKS

    Ambassador Brooks. Thank you very much, Mr. Chairman.
    Because I have submitted a detailed statement for the 
record, what I'd like to do is not try to summarize that, but 
simply address a series of very specific issues that the 
opening statements have made fairly clear are of interest to 
the committee.
    Let me start with nonproliferation. The President, in the 
State of the Union, made the point about the need to restrain 
spending. And you see that reflected both in this year's budget 
and in our projection over 5 years. Therefore, the 
nonproliferation increase of 15 percent, which also tracks out 
through the 5-year plan, is an indication of the 
administration's priorities and, even more so, the fact that it 
is targeted for those things that are directly relevant to the 
defense of the homeland: improving the detection of nuclear 
technologies to deter nuclear proliferation, security upgrades 
in the MegaPorts program, shutting down the production of 
plutonium in the former Soviet Union. And all of these things, 
we believe, are important and we urge the committee to support.
    I want to talk, a couple of minutes, about the MOX program. 
Most of our nonproliferation programs are very similar to last 
year, and I appreciate the historic support this committee has 
given. I'd like to update you on our efforts to dispose of 
surplus weapons-grade plutonium.
    We have had, for 2 years now, an ongoing disagreement with 
Russia regarding liability protection that has delayed the 
beginning of construction in both the United States and the 
Russian Federation. I am hopeful that we are about to resolve 
this. It has the personal attention of the Secretary of State. 
It has the personal attention of the Secretary of Energy. We 
have made some new proposals. And I am hoping that within a few 
weeks we will be able to finally tell you that this is behind 
us.
    I want to be very careful, because we aren't the only ones 
who have to act; the Russian Federation has to act, and it's 
sometimes difficult to predict the Russian Federation. Because 
of the ongoing delay, and because of the funding constraints I 
referred to in the President's projection, we can no longer 
complete construction of our facility on the schedule we had 
earlier provided Congress, which was to be in production by 
January 1, 2009. We notified the Congress of that formally in 
February, and we will, as required by law, have an alternate 
plan by August.
    But I do want to make a point right now. It is easy to 
assume that because of these delays the money in this budget is 
not necessary. That is incorrect. This money is necessary. 
We're going to solve liability, and we need to get on with 
construction.
    Let me turn to the areas on which there's likely to be some 
greater controversy in the weapons programs, and let me start 
with the Robust Nuclear Earth Penetrator.
    As was noted, overall our weapons program is actually a 
decrease of about 3.5 percent if you take into account a 
transfer of money from Defense in last year's budget. The 
Nuclear Earth Penetrator study, we project $4 million in this 
year, $14 million in 2007, slightly smaller amounts in the 
Department of Defense, and nothing else.
    After last year's action by the Congress, we asked the 
Department of Defense to review the continuing need. The 
Secretary of Defense personally reviewed that, and, at his 
direct personal request, we have included the money in the 
budget for this year. He did this, not because he's 
particularly interested in developing a new weapon, but because 
there are adversaries who are building deeply-buried 
facilities, and it is unwise for there to be anything that's 
beyond the reach of U.S. power. And until we know that we can 
deal with those conventionally, we need to at least find out 
what we can do in the nuclear area.
    The press reports on this have not always been completely 
accurate. Nobody believes that you can drive a weapon thousands 
of feet into the ground and contain the fallout. Nobody 
believes that you can make a weapon that wouldn't have 
substantial devastation if it was used. If I may be inelegant, 
in testimony before another committee I said, ``Anybody who 
thinks you can use a nuclear weapon and not notice is just 
nuts.'' But----
    Senator Feinstein. Could you----
    Senator Domenici [continuing]. Mr. Ambassador, I'm very 
sorry. I was interrupted. Could you go back, just, like, turn 
the clock back?
    Ambassador Brooks. Yes, sir.
    Senator Feinstein. Well, I want him to hear that part, 
about the fallout.
    Ambassador Brooks. Yes, ma'am.
    There have been press reports which have suggested that we 
believe that the Nuclear Earth Penetrator can bury itself into 
the ground to the point where the fallout would all be 
contained. That, I believe, is almost certainly impossible, and 
it is, in any event, not what we are thinking of doing. We're 
thinking of putting something that will survive a few meters in 
the ground, so that the energy will penetrate deeply into the 
ground in order to destroy, collapse hardened facilities.
    Now, I want to make a couple of points, and they go to 
Senator Feinstein's point. Last year's budget allowed the quite 
fair, but erroneous, belief that the administration had decided 
to go ahead and build this thing. And that was because, in the 
belief that we should show what the implications would be, we 
had put an out-year wedge for what it would cost to field it. 
The administration has not made any such decision. It can't 
make such a decision without at least two other congressional 
votes. And so, to ensure that you knew that we understood that, 
we show nothing beyond the 2007 money. I have no idea, until we 
complete the study, whether this will prove interesting, 
whether this will be something we will want to do further 
research on.
    But I do want to stress two points: that we've made no 
decision to proceed beyond the current phase, there's no 
funding programmed, except for the current phase, and we've 
tried to, by focusing only on one of the two candidates we were 
originally looking at, make the study as limited as possible.
    The other area which I'd like to spend a little time on in 
the weapons program is the Reliable Replacement Warhead. And I 
want to start out by making two statements, in just the 
strongest possible terms. The first is, stockpile stewardship 
is working. The only reason that we are able to consider this 
kind of research is because stockpile stewardship is working. 
And, secondly, the implication that this is some backdoor way 
to build new weapons is wrong. That's not what we intend. I 
believe the Secretary has sent a letter to that effect to some 
of the members of this committee.
    Now, if we're not going to do new weapons, what are we 
going to do? In the cold war, we had very tight design to 
minimize the weight and space of warheads so we could put the 
maximum number on a missile. We don't do that anymore, because 
we're reducing. So the question is, if we relax those, could we 
upgrade and modify our existing warheads by, for example, using 
components that are less difficult to handle, so that when we 
take these apart for periodic surveillance, we have fewer 
problems? Could we modify these by, for example, changing some 
of the explosive components so that they are insensitive high 
explosives, so that as we do our surveillance, we reduce both 
the risk, but also the difficulty? Could we modify these by 
changing components in a way that we would be less sensitive to 
aging, and, thus, never need to get to the point where we might 
think about nuclear testing? And so, the RRW approach will 
allow us to investigate what the options are.
    In the testimony I provided to the Armed Services 
Committee, I suggested some things that the country might want 
to do if this approach proves to be as beneficial as we hope. 
The country might want to say, because these warheads are so 
reliable, we don't need to keep as many spares as the 
President's plan now has, and we can further reduce the total 
stockpile. The country would certainly be able to say it's far 
less likely that we will be faced with the question of whether 
or not a nuclear test is needed for a problem if we strengthen 
and ruggedize these warheads in a way that we're less sensitive 
to aging. Which of those options will prove to be workable, we 
don't know, but the idea is to develop new components, which 
will go in existing warheads that are delivered by existing 
missiles and aimed at existing targets. There's no new weapons, 
new targets, new military capabilities being sought here.
    Two other areas I want to talk about in the weapons area. 
One is the National Ignition Facility. And actually, Mr. 
Chairman, your opening statement pretty much parallels my 
opening statement. We have, in fact, refocused this program to 
focus on achieving ignition in 2010. That's not the only 
important use of this. There are important stockpile 
stewardship uses for NIF. In order to do this with the 
budgetary pressures I referred to, we have reduced inertial 
confinement for fusion work at other facilities; at Omega 
Laser, for example. We will be sending a report to the 
appropriate committees by June 30 on our revised NIF activation 
plan as we work out the detailed implications. And Dr. Beckner 
can address this a little more in the questioning, if you want.
    Finally, I do want to make a comment about the modern pit 
facility. We are required by law to hold open all the options 
that are analyzed in the environmental impact statement, but I 
think that the odds of us concluding we need 450 pits a year 
are very small. The farther I can drive down the overall 
stockpile, the smaller the modern pit facility has to be made. 
But sooner or later, unless everything we know about the aging 
of plutonium is wrong, we are going to need to melt down and 
rework the existing pits for the existing warheads, and we need 
to build a facility to do that. The Congress, the law, 
currently prohibits us from selecting a site for that facility, 
and I urge the committee to lift that prohibition in the coming 
year so that we can continue an orderly progress.
    You mentioned, and I would just note, that Naval Reactors 
Program supports the 103 operating reactors, 40 percent of the 
Navy's combat ships. This has been a legend in both technical 
and managerial excellence for pretty much all of my 
professional lifetime, and I have no reason to doubt that it'll 
continue to be.
    The final area I want to talk about is safeguards and 
security. The reason I said that our weapons program had gone 
down by 8 percent--I mean, by 3.5 percent--and you, Mr. 
Chairman, mentioned a slight increase--is that we lumped 
together, in the budget submission, safeguards and security and 
actual weapons work. What's going up is safeguards and 
security. We asked for $708 million in this fiscal year, and 
the projections for the future show growth. And I actually am 
worried about that. Nonetheless, the situation is that we now 
know there are people who are willing to die in order to 
inflict massive damage on the United States, that we have 
looked carefully at a very elaborate design-basis threat, and 
that right now while we hope that technology will let us guard 
against this threat in a less expensive fashion, protecting and 
preserving the security of nuclear materials is just one of our 
highest priorities.
    I think that we will have a great deal of difficulty in--
this time next year, in continuing this progress. I think that 
we clearly are going to need more money in future years. The 
budget we've presented to you this year is accurate.

                          PREPARED STATEMENTS

    But no matter how low the probability of an attack, I think 
that you have to deter our enemies, and that means you have to 
be visibly able to repel attacks. So I urge the committee to 
continue its historic strong support for physical security.
    Mr. Chairman, that concludes my summary statement, and my 
colleagues and I are ready for your questions.
    [The statements follow:]

           Prepared Statement of Ambassador Linton F. Brooks

    Thank you for the opportunity to discuss the fiscal year 2006 
Budget Request for the National Nuclear Security Administration (NNSA). 
This is my third appearance before this Committee as the Under 
Secretary for Nuclear Security, and I want to thank all of the Members 
for their strong support for our important national security 
responsibilities.

                                OVERVIEW

    In the fifth year of this administration, with the strong support 
of Congress, NNSA has achieved a level of stability that is required 
for accomplishing our long-term missions. Our fundamental 
responsibilities for U.S. national security include:
  --Stewardship of the Nation's nuclear weapons stockpile;
  --Reducing the threat posed by the proliferation of weapons of mass 
        destruction;
  --Providing reliable and safe propulsion for the U.S. Navy; and,
  --Managing the national nuclear security complex, which includes both 
        security for our facilities and materials to protect our 
        employees and our neighbors, and sustaining the weapons complex 
        infrastructure.
    This budget request supports the NNSA's mission.
    In his State of the Union Address in February, the President 
underscored the need to restrain spending in order to sustain our 
economic prosperity. As part of this restraint, it is important that 
total discretionary and non-security spending be held to levels 
proposed in the fiscal year 2006 budget. The budget savings and reforms 
in the budget are important components of achieving the President's 
goal of cutting the budget deficit in half by 2009 and we urge the 
Congress to support these reforms. To support the President's goal, 
most programs in NNSA's budget of $9.4 billion are funded at levels 
less than we projected last year.
    The major exceptions are those nonproliferation programs that 
directly affect homeland security. Consistent with the President's 
priorities, we have increased funding for activities associated with 
nonproliferation by 15 percent on top of the already significant 
budgets of last year, for a total request of $1.6 billion. That 
increase has been targeted for research on proliferation detection 
technologies, for programs to improve the security of weapons material 
outside the United States, and to detect such material in transit.
    The international community faces a variety of new and emerging 
threats. As the events of September 11, 2001 made clear, new sub-
national threats are emerging that involve hostile groups willing to 
use or support the use of low-tech weapons of great destructive 
capability. If these groups come to possess nuclear weapons or other 
weapons of mass destruction (WMD), they would pose an even greater 
threat to the United States. Thus, diplomatic, political, and other 
efforts to prevent the acquisition of nuclear weapons, weapons-usable 
materials, or chemical or biological weapons, in conjunction with a 
robust counter-terrorism effort and defenses, are the best means 
available to address this threat.
    The fiscal year 2006 request in our Stockpile Stewardship Program 
also makes adjustments to ensure that we continue to meet our 
commitments to the Department of Defense (DOD). In the post-Cold War 
world, nuclear weapons play a critical but reduced role in the Nation's 
overall security posture. Nuclear forces--linked with an advanced 
conventional strike capability and integrated with a responsive 
infrastructure--continue to be an essential element of national 
security by strengthening our overall ability to reassure allies of 
U.S. commitments, dissuade arms competition from potential adversaries, 
and deter threats to the United States, its overseas forces, allies, 
and friends.
    Key elements of our nuclear posture involve strategies that enable 
the United States to quickly adapt and respond to unanticipated changes 
in the international security environment or to unexpected problems or 
``surprises'' in the status of our nuclear forces. As our Nation's 
nuclear stockpile draws down to levels established in the Treaty of 
Moscow--between 1,700-2,200 operationally deployed strategic nuclear 
warheads--the United States will also reduce dramatically the total 
number of warheads in the stockpile. The June 2004 Report to Congress, 
``A Revised Nuclear Weapons Stockpile Plan for 2012'', lays out our 
plans to meet this goal by 2012.
    A critical strategy to support these reductions is to establish a 
flexible and responsive nuclear weapons infrastructure to support 
future defense requirements. A responsive NNSA infrastructure--people 
and facilities--includes innovative science and technology research and 
development at the National laboratories and agile production 
facilities that are able to meet identified needs and are capable of 
responding to unanticipated problems in the stockpile.
    The initiative for NNSA to develop a more responsive infrastructure 
was first developed in the Nuclear Posture Review submitted to Congress 
in January 2002. That Review couples the plan for stockpile reductions, 
agreed to in the Treaty of Moscow, with the ability to respond quickly 
to any surprise events in the future, such as an unexpected degradation 
in certified performance of a U.S. stockpile weapon or, on the world 
scene, an unanticipated military threat. On that basis, NNSA is now 
developing its capabilities to employ its weapons infrastructure in the 
required ``responsive'' way. This plan is now under development and 
will begin to be evident when we provide the fiscal year 2007 budget to 
the Congress, since it is tied directly to the 2012 commitment for 
1,700-2,200 operationally deployed strategic warheads.
    The NNSA is also evaluating what the weapons complex should look 
like in the future. A Nuclear Weapons Complex Infrastructure Study, 
directed by the House Report accompanying the fiscal year 2005 Energy 
and Water Development Appropriations Act, is underway and is scheduled 
to be complete by the end of April 2005. The Study is being run as a 
task force under the Secretary of Energy's Advisory Board.
    NNSA's principal mission is to assure that the Nation's nuclear 
stockpile remains safe, secure, and reliable. A rigorous program 
enables the Secretaries of Energy and Defense to report each year to 
the President on the safety, security, and reliability of our nuclear 
weapons stockpile. Stockpile Stewardship activities are carried out 
without the use of underground nuclear testing, continuing the U.S. 
moratorium on testing initiated in the early 1990's. This is made 
possible by using science-based judgments informed by cutting edge 
scientific and engineering tools as well as extensive laboratory and 
flight tests. We are gaining a more complete understanding of the 
stockpile each year. Computer codes and platforms developed by our 
Advanced Simulation and Computing (ASC) campaign are now used to 
address three-dimensional issues in weapons performance.
    NNSA also is working, through weapon refurbishment, to ensure that 
an aging stockpile is ready to meet Department of Defense requirements. 
The W87 Life Extension Program was completed in September 2004 and the 
remaining Life Extension Programs are progressing well. A significantly 
lower number of refurbishments are expected as a result of a reduced 
stockpile, with savings being realized in the next decade. We are also 
producing new tritium for the first time since 1988 and the new Tritium 
Extraction Facility at Savannah River is ahead of schedule and under 
budget. Los Alamos National Laboratory remains on track to certify a 
war reserve W88 pit by 2007. As articulated in our January 2005 Report 
to Congress, we are refining plans for a Modern Pit Facility.
    The Nation continues to benefit from advances in science, 
technology and engineering fostered by the national security program 
activities, including cutting edge research and development carried out 
in partnership with many of the Nation's colleges, universities, small 
businesses and minority educational institutions. The NNSA programs, 
including three national laboratories, the Nevada Test Site, and the 
production facilities across the United States employ nearly 2,300 
Federal employees and approximately 35,000 contractor employees to 
carry out this work.
    We are also continuing to advance our nonproliferation objectives 
worldwide. In June 2002, the United States championed a new, 
comprehensive nonproliferation effort known as the Global Partnership. 
World leaders committed to provide up to $20 billion over 10 years to 
fund nonproliferation programs in the former Soviet Union. The NNSA 
contributes directly to this effort by carrying out programs with the 
international community to reduce and prevent the proliferation of 
nuclear weapons, materials and expertise. The security of our Nation 
and the world are enhanced by NNSA's ongoing work to provide security 
upgrades for military and civilian nuclear sites and enhanced border 
security in Russia and the Former Soviet Union. In the past year, we 
have completed comprehensive materials protection control and 
accountability upgrades at six Russian Navy and Strategic Rocket Forces 
nuclear weapon facilities, and we are now beginning efforts to install 
security upgrades at vulnerable Russian 12th Main Directorate sites.
    We are planning a significant increase to the Megaports initiative, 
an effort to install radiation detection equipment at the world's 
largest seaports to screen large volumes of container traffic headed 
for the United States well before it gets to our shores. This is a 
relatively new program and we already have agreements in place with 
several countries and are looking for more. With the support of the 
Congress, we hope to complete installation of detection equipment at 24 
ports by 2010. We are reducing the world's stocks of dangerous 
materials such as plutonium through NNSA-sponsored Fissile Materials 
Disposition programs in the United States and Russia as well as through 
elimination of Russian plutonium production. We have also initiated the 
Global Threat Reduction Initiative (GTRI) to identify, secure, remove, 
and/or facilitate the disposition of high-risk vulnerable nuclear and 
radiological materials and equipment around the world that pose a 
threat to the United States and to the international community.
    The Nation benefits from NNSA's work in partnership with the 
Department of Homeland Security to develop and demonstrate new 
detection technologies to improve security of our cities and ports. 
Perhaps the most tangible benefits to the Nation following the 9/11 
terrorist attacks are the ``first responder teams'' of highly 
specialized scientists and technical personnel from the NNSA sites who 
are deployed across the Nation to address threats of weapons of mass 
destruction. These teams work under the direction of the NNSA Office of 
Emergency Operations, Department of Homeland Security and the Federal 
Bureau of Investigation to respond to nuclear emergencies in the United 
States and around the world. In the past year, these teams have 
provided support to such diverse groups and locations as . . . The 
teams adapt to changing technologies and evolving challenges associated 
with combating terrorism and accident/incident scenarios in today's 
world. Outstanding performance in training, exercises, and real world 
events continues to justify NNSA's reputation for having one of the 
world's premier nuclear and radiological technical emergency response 
capabilities.
    The NNSA also works in partnership with the DOD to meet their needs 
for reliable and militarily effective nuclear propulsion for the U.S. 
Navy. In the past year, the Naval Reactors Program has completed the 
reactor plant design for the VIRGINIA-class submarine, and supported 
``safe steaming'' of another 2 million miles by our nuclear-powered 
ships. They have continued their unsurpassed record of ``clean up as 
you go'', including remediating to ``green grass'' the former S1C 
prototype Site at Windsor, Connecticut, and completing a successful 
demonstration of the interim naval spent fuel dry storage capability in 
Idaho.

                    FISCAL YEAR 2006 BUDGET REQUEST

    The fiscal year 2006 budget request totals $9.4 billion, an 
increase of $233.3 million or 2.5 percent. We are managing our program 
activities within a disciplined 5-year budget and planning envelope. We 
are doing it successfully enough to be able to address emerging new 
priorities and provide for needed funding increases in some of our 
programs--notably in Defense Nuclear Nonproliferation--within an 
overall modest growth rate by reallocating from other activities and 
projects that are concluded or being rescoped.

                                               NNSA BUDGET SUMMARY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year                 Fiscal Year
                                                2004      2005 Original  Fiscal Year       2005      Fiscal Year
                                             Comparable                      2005       Comparable       2006
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator..............           353            356            +1           357           344
Weapons Activities.......................         6,447          6,226          +357         6,583         6,630
Defense Nuclear Nonproliferation.........         1,368          1,420            +2         1,422         1,637
Naval Reactors...........................           762            808            -6           801           786
                                          ----------------------------------------------------------------------
      Total, NNSA........................         8,930          8,811          +353         9,164         9,397
----------------------------------------------------------------------------------------------------------------

    The NNSA budget justification contains outyear budget and 
performance information as part of a fully integrated budget submission 
as required by Sec. 3253 of the NNSA Act, as amended (Public Law 106-
65). This section, entitled Future-Years Nuclear Security Program, 
requires NNSA to provide to Congress with each budget request the 
estimated expenditures necessary to support the programs, projects and 
activities of the NNSA for a 5-fiscal-year period.

                                  FUTURE YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                Year 2006  Year 2007  Year 2008  Year 2009  Year 2010    Total
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...................        344        358        372        387        402      1,863
Weapons Activities............................      6,630      6,780      6,921      7,077      7,262     34,671
Defense Nuclear Nonproliferation..............      1,637      1,674      1,711      1,748      1,787      8,556
Naval Reactors................................        786        803        821        839        857      4,106
                                               -----------------------------------------------------------------
      Total, NNSA.............................      9,397      9,615      9,825     10,051     10,308     49,196
----------------------------------------------------------------------------------------------------------------

    This year's 5-year projections show a decrease of $496 million over 
the FYNSP approved for the fiscal year 2005 President's Request. Within 
this total, there is an increase associated with the transfer of the 
Environmental Management scope for projects at NNSA sites ($696 
million). This increase is offset within the Department's overall 
budget by a corresponding reduction in the budget of the Environmental 
Management program. We have also programmed enhanced efforts in several 
NNSA programs during the 5-year period: Defense Nuclear 
Nonproliferation increases $1.4 billion; Safeguards and Security 
increases $979 million; Emergency Response activities increase $154 
million; and Office of Administration increases $98 million. These 
increases are partially offset by reductions in Defense Programs (-$3.0 
billion), the Facilities Recapitalization efforts (-$752 million), and 
Naval Reactors (-$64 million). NNSA plans to rebalance outyear funding 
during the fiscal year 2007-2011 PPBE process.

                    DEFENSE NUCLEAR NONPROLIFERATION

    The Defense Nuclear Nonproliferation program is one area of the 
NNSA budget where mission priorities require us to request significant 
increases in funding for fiscal year 2006. The convergence of 
heightened terrorist activities and the associated revelations 
regarding the ease of moving materials, technology and information 
across borders has made the potential of terrorism involving weapons of 
mass destruction (WMD) the most serious threat facing the Nation. 
Preventing WMD from falling into the hands of terrorists is the top 
national security priority of this administration. The fiscal year 2006 
budget request of $1.64 billion for Defense Nuclear Nonproliferation 
represents an unprecedented effort to protect the homeland and U.S. 
allies from this threat.
    The Defense Nuclear Nonproliferation program goal is to detect, 
prevent, and reverse the proliferation of Weapons of Mass Destruction 
(WMD) while mitigating nuclear risk worldwide. Our programs address the 
danger that hostile nations or terrorist groups may acquire weapons of 
mass destruction or weapons-usable material, dual-use production or 
technology, or WMD capabilities, by securing or eliminating vulnerable 
stockpiles of weapon-usable materials, technology, and expertise in 
Russia and other countries of concern.
    Over the last 4 years the United States, in collaboration with the 
international community through joint nonproliferation programs, has 
had much success in preventing the spread of weapons of mass 
destruction. Some of these successes supported by NNSA's Nuclear 
Nonproliferation Program include: a 2-year acceleration in securing 600 
metric tons of weapons-usable material at 51 sites in Russia and the 
Newly Independent States; upgrading 13 nuclear facilities in the Newly 
Independent States in the Baltic region to meet international physical 
protection guidelines; and establishing the Megaports Initiative that I 
mentioned earlier.
    The administration is requesting $1.64 billion to support 
activities to reduce the global weapons of mass destruction 
proliferation threat, about $214 million or a 15 percent increase over 
comparable fiscal year 2005 activities. The administration has targeted 
both the demand and supply side of the nuclear terrorism challenge with 
aggressive nonproliferation programs that have achieved a number of 
major successes in recent years. Through the Global Partnership with 
the G-8 nations, the United States is dedicating the necessary 
resources to combat this complex threat, committing to provide half of 
the $20 billion for this effort, including $1 billion in fiscal year 
2006 in programs through NNSA, DOD and the Department of State.
    For fiscal year 2006, $343.4 million is included to support the 
International Nuclear Materials Protection and Cooperation program to 
secure nuclear materials in the Former Soviet Union, a 16.6 percent 
increase over the fiscal year 2005 enacted appropriation. For over a 
decade, the United States has been working cooperatively with the 
Russian Federation to enhance the security of facilities containing 
fissile material and nuclear weapons. The scope of these efforts has 
been expanded to protect weapons-usable material in countries outside 
the Former Soviet Union as well. These programs fund critical 
activities such as installation of intrusion detection and alarm 
systems, and construction of fences around nuclear sites. Efforts to 
complete this work and to secure facilities against the possibility of 
theft or diversion have been accelerated.
    A number of major milestones for this cooperative program are on 
the near horizon and the fiscal year 2006 budget ensures that 
sufficient funding will be available to meet these milestones. Security 
upgrades will be completed for Russian Navy nuclear fuel and weapons 
storage by the end of fiscal year 2006 and for Rosatom facilities by 
the end of fiscal year 2008--both 2 years ahead of the original 
schedule. Russian Strategic Rocket Forces sites will be completed in 
2007, 1 year ahead of schedule. Additionally, cooperation will begin 
with the nuclear warhead storage sites of the Russian Ministry of 
Defense's 12th Main Directorate. By the end of 2006, NNSA will have 
supported completion of security upgrades at nearly 80 percent of the 
sites covered by the current bilateral agreement to secure nuclear 
materials and nuclear warheads in Russia and the Newly Independent 
States.
    Fiscal year 2006 funding for the Megaports initiative, another part 
of the International Nuclear Materials Protection and Cooperation 
program, is requested at $74 million, a $59 million increase, to 
continue to deploy radiation detection equipment at key overseas ports 
to pre-screen U.S. bound cargo containers for nuclear or radioactive 
materials. These materials could be concealed in any of the millions of 
cargo containers in various stages of transit throughout the world's 
shipping network.
    However, the busiest seaports also provide an opportunity for law 
enforcement officials to pre-screen the bulk of the cargo in the world 
trade system. Under the Megaports Initiative, DOE cooperates with 
international partners to deploy and equip key ports with the technical 
means to detect and deter illicit trafficking in nuclear and other 
radioactive materials. This effort supports the U.S. Department of 
Homeland Security's Container Security Initiative. The fiscal year 2006 
budget supports the completion of five ports, which will increase to 10 
the number of ports equipped through the Megaports Initiative.
    Increased resources are being requested for the Nonproliferation 
and Verification Research and Development program in fiscal year 2006. 
The budget of $272.2 million supports proliferation detection and 
nuclear explosion monitoring efforts. The additional $48.3 million 
above the enacted fiscal year 2005 appropriations will be used to 
leverage the technical expertise and experience of the National 
Laboratories and universities to provide a crucial boost to our basic 
and applied radiation detection and radiochemistry science efforts. 
This research will develop improved basic radiation detector materials 
and radiochemistry analytical capabilities, as well as the applied 
technologies that will enable fielding our advanced technology in 
support of global nonproliferation missions. We need detectors and 
capabilities that are more sensitive, smaller, durable, and 
economical--the increase in basic and applied research will help us to 
achieve that goal.
    Funding for the Elimination of Weapons Grade Plutonium Production 
(EWGPP) in Russia is requested at $132 million in fiscal year 2006. 
This program will result in the permanent shutdown of three Russian 
nuclear reactors, which currently produce weapons-grade plutonium. 
These reactors, which are the last three reactors in Russia that 
produce plutonium for military purposes, also provide necessary heat 
and electricity to two Russian ``closed cities'' in the Russian nuclear 
weapons complex. This budget provides the funding needed to shutdown 
the three reactors through (1) refurbishment of an existing fossil fuel 
(coal) power plant in Seversk by 2008; and (2) construction of a new 
fossil-fuel plant at Zheleznogorsk by 2011. This will eliminate the 
production of 1.2 metric tons annually of weapons-grade plutonium. The 
program is of critical importance because plutonium that is never 
created does not have to be accounted for, does not need to be secured, 
and will not be available to be targeted by terrorists. The EWGPP 
program has been working with the Army Corps of Engineers (COE) to 
perform an independent cost review of both projects. The Seversk review 
has been completed and the COE found the project cost to be valid and 
reasonable. The Zheleznogorsk study will be completed later in fiscal 
year 2005.
    At $98 million, the Global Threat Reduction Initiative (GTRI) 
program, a newly created initiative announced in 2004, brings together 
key activities that support the goal to identify, secure, remove and 
facilitate the disposition of high-risk, vulnerable nuclear and 
radiological materials and equipment around the world. Our Nation has 
begun to reap the benefits of this initiative with the successful 
completion of two shipments of Russian-origin fresh high-enriched 
uranium nuclear fuel to Russia from foreign research reactors. These 
shipments fall under one of several programs geared toward implementing 
the U.S. highly enriched uranium minimization policy.
    The NNSA is requesting $653 million in fiscal year 2006 to continue 
to support the Fissile Materials Disposition program to dispose of 
surplus weapons-grade fissile materials under an agreement between the 
United States and Russia. Both countries have agreed to dispose of 34 
metric tons of plutonium by converting it to a mixed oxide fuel and 
burning it in electricity-generating nuclear reactors.
    We are working to design and build facilities to dispose of these 
inventories in the United States and are supporting concurrent efforts 
in Russia to obtain reciprocal disposition of similar materials. One of 
the key obstacles is an ongoing disagreement with Russia regarding 
liability protection for plutonium disposition work performed in that 
country.
    This has resulted in a significant delay in the planned start of 
construction of the MOX Fuel Fabrication facilities and the Pit 
Disassembly and Conversion Facility. I am cautiously optimistic that we 
are over the hurdle on this issue but details still need to be 
negotiated and finalized. Please be assured that we remain committed to 
building these facilities and to the long-term objectives of the 
program. We will keep you posted as progress is made. The fiscal year 
2006 net increase is primarily for the Off-specification HEU Blend-Down 
Project with TVA and increased oversight to support major construction 
of the MOX Fuel Fabrication facility in fiscal year 2006.

                           WEAPONS ACTIVITIES

    The fiscal year 2006 budget request for the programs funded within 
the Weapons Activities appropriation is $6.63 billion, less than a 1 
percent increase over fiscal year 2005. This request emphasizes 
programs supported by the Nuclear Posture Review, which directed that 
NNSA maintain a research, development, and manufacturing base that 
ensures the long-term effectiveness of the Nation's stockpile. This 
request also supports the facilities and infrastructure that must be 
responsive to new or emerging threats.
    Directed Stockpile Work (DSW) is one of our areas of special 
emphasis this year with a fiscal year 2006 request of $1.4 billion, an 
11 percent increase over fiscal year 2005. The increase is needed to 
ensure that we continue to meet DOD requirements. Without question, our 
focus remains on the stockpile, but we are looking ahead. The United 
States is continuing work to refurbish and extend the life of the 
warheads in the stockpile though the life extension program. Work on 
the life extensions are progressing well, with the W87 LEP being 
completed in September 2004. First Production Units are scheduled for 
three other systems, the B61, W76 and W80, in the fiscal year 2006-2009 
timeframe.
    In fiscal year 2006, DSW funding will support resumption of the 
Robust Nuclear Earth Penetrator (RNEP) feasibility and cost study with 
$4.0 million requested. Resumption of the RNEP study was requested by 
the Secretary of Defense after his personal review. I would like to 
point out that we are only asking for funds to complete a truncated 
study that began May 1, 2003--one system only, not two as originally 
proposed, so the costs will be lower. I would also like to emphasize 
that absolutely no decisions have been reached, there is no engineering 
development work planned which would require Congressional approval and 
there is no funding being requested past fiscal year 2007. We have also 
eliminated the contingency funding for follow-on work shown in last 
year's FYNSP. I believe the administration and the Congress need to 
have an important discussion about the need for this capability but it 
would be best to complete the feasibility and cost study so we can all 
make an informed decision.
    Congress appropriated $9.0 million in fiscal year 2005 for the 
Reliable Replacement Warhead. We think this is an excellent way to 
reduce costs and maintain the stockpile and we have requested $9.4 
million in fiscal year 2006, about a 4.7 percent increase, to continue 
this initiative.
    Progress in other parts of the Stockpile Stewardship Program 
continues. The fiscal year 2006 request for Campaigns is $2.1 billion. 
This request funds a variety of Campaigns, experimental facilities and 
activities that continue to enhance NNSA's confidence in ``science-
based'' judgments for stockpile stewardship, and provide cutting edge 
technologies for stockpile certification and maintenance. Without 
question, our Campaigns are providing immediate and tangible benefits 
to the stockpile.
    While there is no reason to doubt the ability of the Stockpile 
Stewardship Program to continue to ensure the safety, security, and 
reliability of the nuclear deterrent, the Nation must maintain the 
ability to carry out an underground nuclear weapons test in the event 
of some currently unforeseen problems that cannot be resolved by other 
means. Consistent with the law, we are improving our readiness posture 
from the current ability to test within 24 to 36 months to an ability 
to test within 18 months. The fiscal year 2006 budget request of $25.0 
million supports achieving an 18-month readiness posture by September 
2006. We will achieve a 24-month readiness posture in fiscal year 2005. 
But let me be clear, there are no plans to test.
    The National Ignition Facility (NIF) at Lawrence Livermore National 
Laboratory (LLNL) continues to be an essential component of the 
Stockpile Stewardship Program. Consistent with the strong views of the 
Congress, we are continuing towards full commissioning of all 192 beams 
and focus on the 2010 ignition goal. To do this, however, we have had 
to accept additional risks and reduce some other inertial confinement 
fusion work at other sites. The fiscal year 2006 request of $460.4 
million for the Inertial Confinement Fusion and High Yield Campaign, a 
14 percent reduction from fiscal year 2005, reflects those reductions. 
Inertial fusion ignition is the greatest technical challenge ever 
pursued by the Department. Ignition has never been achieved in the 
laboratory and this scientific advance will benefit several national 
endeavors.
    The Dual-Axis Radiographic Hydrodynamic Test Facility (DARHT) at 
Los Alamos National Laboratory (LANL) is already producing the highest 
quality images of simulated primary implosions ever obtained. As you 
can imagine, this was an area of very high interest during the LANL 
suspension. The first hydro test in many months is expected in March 
2005 to support the W76 LEP. The fiscal year 2006 request of $27.0 
million will support repair and commissioning of the second axis to 
provide time sequence information required for future weapon primary 
certification.
    The Advanced Simulation and Computing (ASC) request for fiscal year 
2006 is $660.8 million, a decrease of 4.7 percent from fiscal year 
2005. This will fund the current and planned operating platforms and 
the codes employed by designers and scientists in Stockpile Stewardship 
Program. In fiscal year 2006, the ASC program will improve physics and 
materials models to more accurately represent the complex physical 
phenomena in our weapons systems. For example, incremental improvements 
in Plutonium Equation of State and materials models will be 
incorporated into our modern codes. Efforts in Verification and 
Validation of the simulation tools will lead to improved confidence in 
simulation as a key component of stockpile assessment. Fiscal year 2006 
formal code releases will be provided to the design community for the 
W76-1 LEP.
    The NPR recognized a long-term need for a Modern Pit Facility (MPF) 
to support the pit manufacturing requirements of the entire stockpile. 
NNSA's fiscal year 2006 request for MPF is $7.7 million, which is 
included in the $248.8 million request for the Pit Manufacturing and 
Certification Campaign. As articulated in our January 2005 Report to 
Congress, we are refining plans for a Modern Pit Facility. LANL remains 
on track to certify a war reserve W88 pit by 2007 and we are 
reestablishing the technology base to manufacture all pit types in the 
stockpile.
    The Readiness Campaign request is $218.8 million in fiscal year 
2006, a decrease of about 16 percent. The decrease is attributable 
mainly to the postponement of lower priority activities such as risk 
mitigation projects for the Life Extension Programs that are the least 
likely to impact life extension needs and also major items of 
equipment.
    NNSA's Readiness in Technical Base and Facilities activities 
operate and maintain current facilities and ensure the long-term 
vitality of the NNSA complex through a multi-year program of 
infrastructure construction. About $1.6 billion is requested for these 
efforts, a decrease of 8.7 percent from fiscal year 2005. Funding for 
three new construction starts is requested and five candidate projects 
are in engineering design.
    In fiscal year 2006, the budget request is $212.1 million for 
Secure Transportation Asset, a 6.2 percent increase over fiscal year 
2005 levels, for meeting the Department's transportation requirements 
for nuclear weapons, components, and special nuclear materials 
shipments. Hiring of additional Federal agents and production of 
additional SafeGuards Transporters to meet the increased workload and 
new Design Basis Threat security requirements accounts for the 
increase.
    The remainder of the Weapons Activities appropriation funding is 
for Nuclear Weapons Incident Response, Facilities and Infrastructure 
Recapitalization, and Safeguards and Security.

             FACILITIES AND INFRASTRUCTURE RECAPITALIZATION

    The Facilities and Infrastructure Recapitalization Program (FIRP) 
is essential to NNSA's ability to continue revitalization of the 
complex consistent with the Nuclear Posture Review. The program is 
delivering on its mission to reduce deferred maintenance and restore 
the condition of facilities and infrastructure across the complex. I 
consider FIRP to be a true NNSA ``success story'', and am pleased to 
note that the National Research Council has commended NNSA's progress 
and execution of real property asset management as the most advanced 
within DOE. The fiscal year 2006 FIRP request of $283.5 million is a 
decrease of 9.6 percent over fiscal year 2005. For the outyears, we 
intend to rebalance the FIRP budget profile presented in this 
President's Budget, within the overall NNSA budget allocation, to 
ensure the program's ability to accomplish its mission and fulfill its 
commitment to Congress.

                        ENVIRONMENTAL MANAGEMENT

    Environmental compliance is the focus of another management 
challenge to us. Let me begin by saying that the NNSA of the Future 
accepts responsibility for our environmental work at NNSA sites. The 
fiscal year 2006 budget reflects the functional transfer of scope, 
funding and the associated Federal staff from the Office of 
Environmental Management (EM) to the NNSA. These functional transfers 
align responsibility with accountability, ensure clear accounting of 
the total cost of ownership, and improve overall effectiveness and 
efficiency. The transfers resolve existing inefficiencies caused by the 
duplicate EM/NNSA chain of command that has existed since the inception 
of the NNSA Act. The NNSA Act precludes EM from providing direction to 
NNSA employees or contractors--yet EM has direct control of budgeting 
and funding authority, and is accountable for environmental activities 
at NNSA sites. The current EM/NNSA management structure results in 
confused lines of authority that impede cost-effective and timely 
implementation of the cleanup program at NNSA sites. I would like to 
highlight that this is a zero sum budget transfer, which results in no 
increases to the Department's overall funding or staffing. I believe 
the transfer is essential to the effective and efficient operations of 
environmental activities at NNSA sites and the only viable alternative 
for the NNSA.
    The transferred mission from EM is included in NNSA's fiscal year 
2006 Request of $174.4 million in Environmental Projects and 
Operations. The environmental transfer activities include environmental 
restoration, legacy waste management and disposition, and 
decontamination and decommissioning at sites where NNSA has continuing 
missions. Specifically, the transfers include: Kansas City Plant; 
Lawrence Livermore National Laboratory (Main Site and Site 300); Nevada 
Test Site (including the waste disposal facilities); Pantex Plant; 
Sandia National Laboratories; and the Separations Process Research 
Unit. Environmental activities at the Los Alamos National Laboratory 
and Y-12 National Security Complex are expected to transfer in fiscal 
year 2007. Additionally, the request in the Readiness in Technical Base 
and Facilities under operations of facilities includes a total of $47.0 
million for newly generated waste at the Lawrence Livermore National 
Laboratory and the Y-12 National Security Complex (responsibility for 
newly generated waste at other NNSA sites was previously transferred by 
prior agreements).
    We will manage all environmental activities that transfer within 
the newly established Environmental Projects and Operations Program, 
with the exception of newly generated waste, which will be managed by 
Defense Programs. We plan to use NNSA's successful Facilities and 
Infrastructure Recapitalization Program (FIRP) as the business model 
for managing our new environmental responsibilities. This includes 
strong central management and accountability for results; best-in-class 
business practices; and transparency in budget and program performance.
    During this year of transition, NNSA, both in tandem with EM staff 
and ``on our own'', have been meeting with various outside 
organizations to not only discuss the proposed transfer, but also to 
gain insight into the ongoing issues and be able to represent NNSA's 
perspectives as well. We have routinely scheduled meetings with EPA 
Headquarters and Regions to discuss emerging regulatory issues, 
proposed rulemaking, and region-specific issues. NNSA staff, with EM, 
has engaged with regulators, Tribal entities, Citizen's Advisory Boards 
on cleanup end state definition and other topics pertinent to clean up 
and environmental compliance at all of the NNSA sites that will be 
transferring. NNSA staff has met with Tribal entities to entertain 
dialog on Tribal issues regarding this transfer. I personally addressed 
the combined intergovernmental meeting in December of the National 
Governor's Association, Energy Communities Alliance, National 
Governor's Association, National Association of Attorneys General, and 
State and Tribal Government Working Group.

                   NUCLEAR WEAPONS INCIDENT RESPONSE

    The Nuclear Weapons Incident Response request of $118.8 million is 
9.6 percent above the fiscal year 2005 level. This represents a 7.6 
percent program growth to bring first responder capability more into 
line with their increased responsibilities and operations tempo. It 
replaces outdated and inoperable equipment, provides qualification 
training, and develops and fields a communications kit that resolves 
incompatibility issues. It further provides for development and 
implementation of a first responder outreach program and provides a 
modest increase to the Technology Integration program, thus making the 
equipment purchase program more effective.

                        SAFEGUARDS AND SECURITY

    Protecting the Nation's assets is one of our highest priorities. 
The growth of our requests for the Safeguards and Security budget over 
the last 5 years clearly reflects our commitment to security. In fiscal 
year 2001, our request for safeguards and security was $406.4 million. 
In fiscal year 2003, the request grew to $510.0 million--the first 
fiscal reflection of the more dangerous security environment recognized 
after 9/11. That funding and the increased amounts received in 
successive years has been used to further enhance our already strong 
security posture.
    The fiscal year 2006 request for Safeguards and Security is $740.5 
million. NNSA sites are on track to implement the requirements 
contained in the May 2003 Design Basis Threat Policy by the end of 
fiscal year 2006. Assessment and planning to meet the higher threat 
delineated in the October 2004 revision to the Design Basis Threat 
Policy will be completed in the third quarter of this year. The budget 
request adequately funds our efforts to meet this refinement in fiscal 
year 2006, but we are facing some shortfalls in subsequent years that 
we are going to have to deal with.
    We have made significant improvements in the readiness of our 
protective forces and the physical plants they defend at the Los Alamos 
and Lawrence Livermore National Laboratories, the Y-12 National 
Security Complex, the Pantex Plant and the Nevada Test Site. Where we 
have found weaknesses based upon our own reviews or reviews conducted 
by others, these weaknesses have been fixed. We are moving ahead 
smartly to ensure the special nuclear materials entrusted to the NNSA 
are stored in modern secure facilities. To this end, we have begun 
moving material from the TA-18 site at Los Alamos to the Device 
Assembly Facility on the Nevada Test Site--one of our most modern 
facilities designed specifically for security. We have also accelerated 
the construction of the Highly Enriched Uranium Materials Facility at 
Y-12 for storage of materials currently located in some of our oldest 
facilities. We have worked through our difficulties with the security 
of classified removable electronic media at Los Alamos and have 
implemented strict policies and procedures to control such data and 
ensure accountability in the future.

                             NAVAL REACTORS

    The Naval Reactors fiscal year 2006 budget request of $786 million 
is a decrease of $15.4 million from fiscal year 2005. The majority of 
funding supports sustaining the Navy's 103 operational nuclear 
reactors. This work involves continual testing, analysis, and 
monitoring of plant and core performance which becomes more critical as 
the reactor plants age. The nature of this business demands a careful, 
measured approach to developing and verifying nuclear technology; 
designing needed components, systems, and processes; and implementing 
them in existing and future plant designs. Most of this work is 
accomplished at Naval Reactors' DOE laboratories. These laboratories 
have made significant advancements in extending core lifetime, 
developing robust materials and components, and creating an array of 
predictive capabilities.
    Naval Reactors' operations and maintenance budget request is 
categorized into four areas of technology: Reactor Technology and 
Analysis; Plant Technology; Materials Development and Verification; and 
Evaluation and Servicing.
    The $213.9 million requested for Reactor Technology and Analysis 
will support continued work on the design for the new reactor plant for 
the next generation of aircraft carriers, CVN-21. These efforts also 
support the design of the Transformational Technology Core (TTC), a new 
high-energy core that is a direct outgrowth of the Program's advanced 
reactor technology and materials development and verification work.
    Reactor Technology and Analysis also develops and improves the 
analysis tools which can be used to safely extend service life beyond 
our previous experience base. The increasing average age of our Navy's 
existing reactor plants, along with future extended service lives, a 
higher pace of operation and reduced maintenance periods, place a 
greater emphasis on our work in thermal-hydraulics, structural 
mechanics, fluid mechanics, and vibration analysis. These factors, 
along with longer-life cores, mean that for years to come, these 
reactors will be operating beyond our previously proven experience 
base.
    The $143.8 million requested for Plant Technology provides funding 
to develop, test, and analyze components and systems that transfer, 
convert, control, and measure reactor power in a ship's power plant. 
Reactor plant performance, reliability, and safety are maintained 
through a full understanding of component performance and system 
condition over the life of each ship. Naval Reactors is developing 
components to address known limitations and to improve reliability of 
instrumentation and power distribution equipment to replace aging, 
technologically obsolete equipment. Additional technology development 
in the areas of chemistry, energy conversion, instrumentation and 
control, plant arrangement, and component design will continue to 
support the Navy's operational requirements.
    The $145.1 million requested for Materials Development and 
Verification funds material analyses and testing to provide the high-
performance materials necessary to ensure that naval nuclear propulsion 
plants meet Navy goals for extended warship operation and greater power 
capability. More explicitly, materials in the reactor core and reactor 
plant must perform safely and reliably for the extended life of the 
ship. Funds in this category also support Naval Reactors' share of work 
at the Advanced Test Reactor (ATR), a specialized reactor plant 
materials testing facility operated by the DOE Office of Nuclear 
Energy, Science, and Technology.
    The $183.4 million requested for Evaluation and Servicing sustains 
the operation, maintenance, and servicing of Naval Reactors' operating 
prototype reactor plants and the remaining share of Naval Reactors' ATR 
operations. Reactor core and reactor plant materials, components, and 
systems in these plants provide important research and development data 
and experience under actual operating conditions. These data aid in 
predicting and subsequently preventing problems that could develop in 
Fleet reactors. With proper maintenance, upgrades, and servicing, the 
two prototype plants and the ATR will continue to meet testing needs 
for at least the next decade.
    Evaluation and Servicing funds also support the implementation of a 
dry spent fuel storage production line that will put naval spent fuel 
currently stored in water pits at the Idaho Nuclear Technology and 
Engineering Center and at the Expended Core Facility (ECF) on the Naval 
Reactors facility in Idaho into dry storage. Additionally, these funds 
support ongoing decontamination and decommissioning of inactive nuclear 
facilities at all Naval Reactors sites to address their ``cradle to 
grave'' stewardship responsibility for these legacies, and minimize the 
potential for any environmental releases.
    In addition to the budget request for the important technical work 
discussed above, program direction and facilities funding is required 
for continued support of the Program's operations and infrastructure. 
The $52.6 million requested for facilities operations will maintain and 
modernize the Program's facilities, including the Bettis and Knolls 
laboratories as well as ECF and Kesselring Site Operations (KSO), 
through capital equipment purchases and general plant projects. The 
$16.9 million requested for construction funds will be used to build a 
materials development facility and a new office building. This will 
allow consolidation of work now occurring in several locations across 
the laboratories. Finally, the $30.3 million requested for program 
direction will support Naval Reactors' DOE personnel at Headquarters 
and the Program's field offices, including salaries, benefits, travel, 
and other expenses.

                      OFFICE OF THE ADMINISTRATOR

    The fiscal year 2006 budget request of $343.9 million is about 3.7 
percent below the fiscal year 2005 appropriation. The request reflects 
the completion the NNSA re-engineering initiative that streamlined 
support for corporate management and oversight of the nuclear weapons 
and nonproliferation programs.
    Re-engineering resulted in an annual cost avoidance of over $40 
million realized by the reduction of NNSA Federal staffing levels. In 
addition, the funding request is sufficient to support the new program 
for Historically Black Colleges and Universities, initiated by Congress 
in fiscal year 2005, through fiscal year 2006.

                           MANAGEMENT ISSUES

    I would like to conclude by discussing some of NNSA's management 
challenges and successes. This committee is well aware of the problems 
that beset the Los Alamos National Laboratory during the past year. In 
July 2004 the Laboratory Director imposed a stand down on essentially 
all activities at the laboratory because of a series of security and 
safety problems, especially an inability to locate two classified 
computer disks. While a thorough investigation revealed that the 
``missing'' disks never existed, it also revealed that there were 
serious problems with the management of safety and security at Los 
Alamos. Operations have now resumed and the laboratory is in the 
process of putting into place long-term corrective actions. I have 
provided the committee with a copy of the report prepared jointly by 
the former Deputy Secretary of Energy and myself that outlines the 
problems in detail. As a result of this action, I imposed a significant 
reduction in the management fee awarded to the University of California 
for the operation of Los Alamos.
    Of particular concern to me was that the Federal oversight system 
had recognized the safety-related problems at Los Alamos in advance, 
but not the security problems. The committee has received an 
independent assessment of this weakness in oversight. I believe it was 
caused by leadership failures, inadequate numbers of trained Federal 
security experts, a local oversight approach that did not provide 
enough hands-on involvement, and a failure to provide sufficient 
headquarters supervision of the local Site Office. We are in the 
process of implementing corrective action in each area. I will keep the 
committee informed of our progress.
    On the ``success'' side, the NNSA has fully embraced the 
President's Management Agenda through the completion of the NNSA re-
engineering initiative by creating a more robust and effective NNSA 
organization. Additionally, NNSA's success has been recognized with 
consistently ``Green'' ratings, including Budget and Performance 
Integration. NNSA integrates financial data with its budget and 
performance information through implementation of its Planning, 
Programming, Budgeting and Evaluation (PPBE) process that was 
implemented simultaneously with the standup of the new NNSA 
organization established by the NNSA Act.
    The PPBE process is in its third year of implementation, and seeks 
to provide a fully integrated cascade of program and resource 
information throughout the management processes, consistent with 
expectations in the NNSA Act. The cascade and linkages within NNSA 
mirror the Headquarters and field organization structures, and are 
supported by management processes, contracting, funds control and 
accounting documentation. The cascade and linkages are quite evident in 
our updated NNSA Strategic Plan, issued last November.
    We at NNSA take very seriously the responsibility to manage the 
resources of the American people effectively and I am glad that our 
management efforts are achieving such results.
    Finally, to provide more effective supervision of high-hazard 
nuclear operations, I have established a Chief, Defense Nuclear Safety 
and appointed an experienced safety professional to the position. I 
believe this will help us balance the need for consistent standards 
with my stress on the authority and responsibility of the local Site 
Managers.

                               CONCLUSION

    In conclusion, I am confident that we are headed in the right 
direction. Our budget request will support continuing our progress in 
protecting and certifying our nuclear deterrent, reducing the global 
danger from proliferation and weapons of mass destruction, and 
enhancing the force projection capabilities of the U.S. nuclear Navy. 
It will enable us to continue to maintain the safety and security of 
our people, information, materials, and infrastructure. Above all, it 
will meet the national security needs of the United States of the 21st 
century.
    Mr. Chairman, this concludes my statement. A statistical appendix 
follows that contains the budget figures supporting our request. My 
colleagues and I would be pleased to answer any questions on the 
justification for the requested budget.

                   NATIONAL NUCLEAR SECURITY ADMINISTRATION APPROPRIATION AND PROGRAM SUMMARY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year                 Fiscal Year
                                                2004      2005 Original  Fiscal Year       2005      Fiscal Year
                                             Comparable                      2005       Comparable       2006
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator..............           353            356            +1           357           344
Weapons Activities.......................         6,447          6,226          +357         6,583         6,630
Defense Nuclear Nonproliferation.........         1,368          1,420            +2         1,422         1,637
Naval Reactors...........................           762            808            -6           801           786
                                          ----------------------------------------------------------------------
      Total, NNSA........................         8,930          8,811          +353         9,164         9,397
----------------------------------------------------------------------------------------------------------------


                                  FUTURE YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                Year 2006  Year 2007  Year 2008  Year 2009  Year 2010    Total
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...................        344        358        372        387        402      1,863
Weapons Activities............................      6,630      6,780      6,921      7,077      7,262     34,671
Defense Nuclear Nonproliferation..............      1,637      1,674      1,711      1,748      1,787      8,556
Naval Reactors................................        786        803        821        839        857      4,106
                                               -----------------------------------------------------------------
      Total, NNSA.............................      9,397      9,615      9,825     10,051     10,308     49,196
----------------------------------------------------------------------------------------------------------------


                                        WEAPONS ACTIVITIES APPROPRIATION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                       Fiscal Year                     Fiscal Year
                                    Fiscal Year 2004  2005 Original    Fiscal Year         2005      Fiscal Year
                                       Comparable                          2005         Comparable       2006
                                   Appropriation \1\  Appropriation  Adjustments \2\  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Weapons Activities:
    Directed Stockpile Work......       1,290,525        1,316,936         -39,782       1,277,154     1,421,031
    Science Campaign.............         258,856          279,462          -3,469         275,993       261,925
    Engineering Campaign.........         265,206          260,830             555         261,385       229,756
    Inertial Confinement Fusion           511,767          541,034          -5,130         535,904       460,418
     and High Yield Campaign.....
    Advanced Simulation and               715,315          703,760          -7,013         696,747       660,830
     Computing Campaign..........
    Pit Manufacturing and                 262,544          265,671          -2,651         263,020       248,760
     Certification Campaign......
    Readiness Campaign...........         294,490          272,627         -11,181         261,446       218,755
    Readiness in Technical Base         1,649,959        1,670,420         116,033       1,786,453     1,631,386
     and Facilities..............
    Secure Transportation Asset..         186,452          201,300          -1,591         199,709       212,100
    Nuclear Weapons Incident               96,197           99,209           9,167         108,376       118,796
     Response....................
    Facilities and Infrastructure         238,755          273,544          40,178         313,722       283,509
     Recapitalization Program....
    Environmental Projects and            181,652     .............        192,200         192,200       174,389
     Operations..................
    Safeguards and Security......         628,861          757,678          -5,749         751,929       740,478
                                  ------------------------------------------------------------------------------
      Subtotal, Weapons                 6,580,579        6,642,471         281,567       6,924,038     6,662,133
       Activities................
    Use of Prior Year Balances...        -104,435          -86,000          72,912         -13,088   ...........
    Security Charge for                   -28,985          -30,000   ...............       -30,000       -32,000
     Reimbursable Work...........
    Transfer from DOD              .................      -300,000   ...............      -300,000   ...........
     Approprations...............
    Undistributed Adjustment.....  .................  .............          2,400           2,400   ...........
                                  ------------------------------------------------------------------------------
      Total, Weapons Activities..       6,447,159        6,226,471         356,879       6,583,350     6,630,133
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2004 reflects distribution of the rescission of $37,007,815 from the Energy and Water
  Development Appropriations Act for fiscal year 2004, approved reprogrammings, and comparability adjustments.
  Reference the ``Fiscal Year 2004 Execution'' table for additional details on these adjustments.
\2\ The fiscal year 2005 adjustments column reflects distribution of the rescission of $49,811,768 from the
  Consolidated Appropriations Act, 2005 (Public Law 108-447), transfer of funds pursuant to a letter dated
  December 9, 2004, from the Chairmen of the Senate and House Appropriation Committees to the Secretary of
  Energy, and comparability adjustments. Reference the ``Fiscal Year 2005 Execution'' table for additional
  details on these adjustments.


                                 DEFENSE NUCLEAR NONPROLIFERATION APPROPRIATION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                        Fiscal Year
                                 Fiscal Year 2004   Fiscal Year 2005    Fiscal Year         2005        Fiscal
                                    Comparable          Original            2005         Comparable    Year 2006
                                Appropriation \1\  Appropriation \2\  Adjustments \2\  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Defense Nuclear
 Nonproliferation:
    Nonproliferation and               228,197            225,750            -1,787         223,963      272,218
     Verification Research and
     Development..............
    Nonproliferation and                86,219            154,000           -62,682          91,318       80,173
     International  Security..
    International Nuclear              228,734            322,000           -27,349         294,651      343,435
     Materials Protection and
     Cooperation..............
    Global Initiatives for              39,764             41,000              -325          40,675       37,890
     Proliferation Preven-
     tion.....................
    HEU Transparency                    17,894             20,950              -166          20,784       20,483
     Implementation...........
    International Nuclear               19,850     .................  ...............  .............  ..........
     Safety and Coopera- tion.
    Elimination of Weapons-             81,835             40,097             3,872          43,969      132,000
     Grade Plutonium
     Production...............
    Fissile Materials                  644,693            624,000           -10,940         613,060      653,065
     Disposition..............
    Offsite Source Recovery     .................           7,600            -7,600    .............  ..........
     Project..................
    Global Threat Reduction             69,464     .................         93,803          93,803       97,975
     Initiative...............
                               ---------------------------------------------------------------------------------
      Subtotal, Defense              1,416,650          1,435,397           -13,174       1,422,223    1,637,239
       Nuclear Nonprolifera-
       tion...................
    Use of Prior Year Balances         -48,941            -15,000            14,880            -120   ..........
                               ---------------------------------------------------------------------------------
      Total, Defense Nuclear         1,367,709          1,420,397             1,706       1,422,103    1,637,239
       Nonprolifera- tion.....
----------------------------------------------------------------------------------------------------------------
\1\ Fiscal year 2004 reflects distribution of the rescission of $7,832,911 from the Energy and Water Development
  Appropriations Act for fiscal year 2004, approved reprogrammings, and comparability adjustments. Reference the
  ``fiscal year 2004 Execution'' table for additional details on these adjustments.
\2\ The fiscal year 2005 adjustments column reflects distribution of the rescission of $11,363,176 from the
  Consolidated Appropriations Act, 2005 (Public Law 108-447), transfer of funds pursuant to a letter dated
  December 9, 2004, from the Chairmen of the Senate and House Appropriation Committees to the Secretary of
  Energy, and comparability adjustments. Reference the ``fiscal year 2005 Execution'' table for additional
  details on these adjustments.


                                          NAVAL REACTORS APPROPRIATION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                             Fiscal Year    Fiscal Year                 Fiscal Year
                                                 2004           2005      Fiscal Year       2005        Fiscal
                                              Comparable      Original        2005       Comparable    Year 2006
                                            Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development (NRD):
    Operations and Maintenance............       718,836        771,211        -6,170       765,041      738,800
    Program Direction.....................        26,552         29,500          -236        29,264       30,300
    Construction..........................        18,490          7,189           -57         7,132       16,900
                                           ---------------------------------------------------------------------
      Subtotal, Naval Reactors Development       763,878        807,900        -6,463       801,437      786,000
    Less Use of prior year balances.......        -2,006   .............  ...........  .............  ..........
    Subtotal Adjustments..................  .............  .............  ...........  .............  ..........
                                           ---------------------------------------------------------------------
      Total, Naval Reactors...............       761,872        807,900        -6,463       801,437      786,000
----------------------------------------------------------------------------------------------------------------
Public Law Authorization: Public Law 83-703, ``Atomic Energy Act of 1954''; ``Executive Order 12344 (42 U.S.C.
  7158), ``Naval Nuclear Propulsion Program''; Public Law 107-107, ``National Defense Authorization Act of
  2002'', Title 32, ``National Nuclear Security Administration''; Public Law 108-375, National Defense
  Authorization Act, fiscal year 2005; Public Law 108-447, The Consolidated Appropriations Act, 2005.


                                    OFFICE OF THE ADMINISTRATOR APPROPRIATION
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year                 Fiscal Year
                                                2004      2005 Original  Fiscal Year       2005      Fiscal Year
                                             Comparable                      2005       Comparable       2006
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator Program             352,949        356,200           851       357,051       343,869
 Direction...............................
----------------------------------------------------------------------------------------------------------------


                                                                 FUNDING BY GENERAL GOAL
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         Fiscal     Fiscal     Fiscal     Dollar    Percent     Fiscal     Fiscal     Fiscal     Fiscal
                                                       Year 2004  Year 2005  Year 2006    Change     Change   Year 2007  Year 2008  Year 2009  Year 2010
--------------------------------------------------------------------------------------------------------------------------------------------------------
General Goal 1, Nuclear Weapons Stewardship:
    Directed Stockpile Work..........................     $1,291     $1,277     $1,421      +$144      +11.3     $1,459     $1,487     $1,516     $1,545
    Science Campaign.................................        259        276        262        -14       -5.1        264        264        264        264
    Engineering Campaign.............................        265        261        230        -31      -11.9        172        182        165        165
    ICF and High Yield Campaign......................        512        536        460        -76      -14.2        462        462        462        462
    Advanced Simulation and Computing Campaign.......        715        697        661        -36       -5.2        666        666        666        666
    Pit Manufacturing and Certification Campaign.....        263        263        249        -14       -5.3        251        251        251        251
    Readiness Campaign...............................        294        261        219        -42      -16.1        220        220        220        220
    Readiness in Technical Base and Facilities.......      1,650      1,786      1,631       -155       -8.7      1,746      1,817      1,916      2,000
    Nuclear Weapons Incident Response................         96        108        119        +11       10.2        125        131        138        144
    Secure Transportation Asset......................        186        200        212        +12        6.0        223        234        246        258
    Facilities and Infrastructure Recapitalization           239        314        284        -30       -9.6        289        296        302        308
     Program.........................................
    Safeguards and Security..........................        629        752        740        -12       -1.6        777        815        855        897
    Program Direction................................        297        302        284        -18       -6.0        296        307        320        332
    Offset/PY Balance................................       -133       -341        -32       +309      -90.6        -33        -34        -35        -36
                                                      --------------------------------------------------------------------------------------------------
      Total Goal 1, Nuclear Weapons Stewardship......      6,563      6,693      6,740        +48        0.7      6,916      7,097      7,285      7,477
                                                      ==================================================================================================
General Goal 2, Control of Weapons of Mass
 Destruction:
    Nonproliferation and Verification Research &             228        224        272        +48       21.4        279        288        301        312
     Development.....................................
    Nonproliferation and International Security......         86         91         80        -11      -12.1         82         83         85         87
    International Nuclear Material Protection and            229        295        343        +48       16.3        351        358        366        373
     Cooperation.....................................
    Global Initiatives for Proliferation Prevention..         40         41         38         -3       -7.3         39         39         40         41
    HEU Transparency Implementation..................         18         21         20         -1       -4.8         21         21         22         22
    International Nuclear Safeguard and Cooperation..         20  .........  .........  .........  .........  .........  .........  .........  .........
    Elimination of Weapons-Grade Plutonium Production         82         44        132        +88        200        138        137        140        143
    Fissile Materials Disposition....................        645        613        653        +40        6.5        667        680        693        708
    Global Threat Reduction Initiative...............         69         94         98         +4        4.3         98        102        101        101
    Program Direction................................         56         55         60         +5        9.0         62         65         67         70
    Offset/PY Balances...............................        -49       -120  .........        120       -100  .........  .........  .........  .........
                                                      --------------------------------------------------------------------------------------------------
      Total Goal 2, Control of Weapons of Mass             1,424      1,477      1,697       +220       14.9      1,735      1,775      1,815      1,857
       Destruction...................................
                                                      ==================================================================================================
General Goal 3, Defense Nuclear Power (Naval                 764        801        786        -15       -1.9        803        821        839        857
 Reactors)...........................................
    Use of PY Balances...............................         -2  .........  .........  .........  .........  .........  .........  .........  .........
                                                      --------------------------------------------------------------------------------------------------
      Total Goal 3, Defense Nuclear Power (Naval             762        801        786        -15       -1.9        803        821        839        857
       Reactors).....................................
                                                      ==================================================================================================
General Goal 6, Environmental Management:                    182        192        174        -18       -9.4        160        132        113        117
 Environmental Projects and Operations...............
                                                      --------------------------------------------------------------------------------------------------
      Total Goal 6, Environmental Management.........        182        192        174        -18       -9.4        160        132        113        117
                                                      ==================================================================================================
      Total, NNSA....................................      8,929      9,164      9,397       +233        2.5      9,615      9,825     10,051     10,308
--------------------------------------------------------------------------------------------------------------------------------------------------------
Note.--NNSA Program Direction expenditures funded in the Office of the Administrator appropriation have been allocated in support of Goals 1 and 2. Goal
  1 allocation includes Federal support for programs funded by the Weapons Activities appropriation, as well as NNSA corporate support, including
  Federal staffing at the site offices. Goal 2 allocation includes Federal support for all Nuclear Nonproliferation programs. Program Direction
  expenditures for Naval Reactors, supporting Goal 3, are funded within the Naval Reactors appropriation.


                                                                 FUNDING SUMMARY BY SITE
                                                                [In millions of dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Fiscal Year               Fiscal Year
                                                               Fiscal Year  Fiscal Year  2006 Office  Fiscal Year      2006     Fiscal Year     Total
                                                                   2004         2005        of the    2006 Weapon    Nuclear     2006 Naval  Fiscal Year
                                                                                            Admin      Activities   Nonprolif      React         2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chicago Operations Office:
    Ames Laboratory..........................................          0.3          0.3  ...........  ...........          0.3  ...........          0.3
    Argonne National Laboratory..............................         22.1         28.7  ...........          3.2         33.0  ...........         36.2
    Brookhaven National Laboratory...........................         34.1         61.1  ...........          2.2         58.0  ...........         60.2
    Chicago Operations Office................................        488.4        439.8          1.7         33.7        391.0  ...........        426.4
    New Brunswick Laboratory.................................          1.1          1.1  ...........  ...........          1.1  ...........          1.1
    Lawrence Berkeley National Laboratory....................          3.8          3.0  ...........  ...........          2.7  ...........          2.7
Idaho Operations Office:
    Idaho National Engineering and Environmental Laboratory..         65.8         70.5  ...........          2.3          2.8         56.4         61.5
    Idaho Operations Office..................................          1.7          1.6  ...........          1.9          0.7  ...........          2.6
Kansas City Site Office:
    Kansas City Plant........................................        428.7        363.5  ...........        355.6          1.4  ...........        357.0
    Kansas City Site Office..................................          6.0          6.0          6.3  ...........  ...........  ...........          6.3
Livermore Site Office:
    Lawrence Livermore National Laboratory...................      1,208.2      1,170.6  ...........        997.5         70.2  ...........      1,067.7
    Livermore Site Office....................................         17.9         18.4         16.4          2.7  ...........  ...........         19.1
Los Alamos Site Office:
    Los Alamos National Laboratory...........................      1,487.7      1,555.4  ...........      1,351.8        219.2  ...........      1,571.0
    Los Alamos Site Office...................................         15.6         15.5         15.5          0.9  ...........  ...........         16.4
NNSA Service Center:
    Atomic Energy of Canada, Ltd.............................          0.5  ...........  ...........  ...........  ...........  ...........  ...........
    General Atomics..........................................         14.4         13.2  ...........         14.5  ...........  ...........         14.5
    National Renewable Energy Laboratory.....................          1.8          1.8  ...........  ...........          1.8  ...........          1.8
    Naval Research Laboratory................................         25.3         35.6  ...........  ...........  ...........  ...........  ...........
    University of Rochester/LLE..............................         62.4         72.6  ...........         45.6  ...........  ...........         45.6
    NNSA Service Center (all other sites)....................        502.7        442.3         91.1        264.7        201.8  ...........        557.6
Nevada Site Office:
    Nevada Site Office.......................................        114.9         83.5         18.0         56.4          0.8  ...........         75.2
    Nevada Test Site.........................................        369.3        335.5  ...........        376.0          1.3  ...........        377.3
Oak Ridge Operations Office:
    Oak Ridge Institute for Science and Engineering..........          8.4          7.8  ...........          7.9  ...........  ...........          7.9
    Oak Ridge National Laboratory............................        118.1        171.2  ...........          8.2        173.7  ...........        181.9
    Office of Science and Technical Information..............          0.1          0.1  ...........          0.1  ...........  ...........          0.1
    Y-12 Site Office.........................................         11.7         12.4         13.1  ...........  ...........  ...........         13.1
    Y-12 National Security Complex...........................        761.3        906.0  ...........        741.9         43.7  ...........        785.6
    Pacific Northwest National Laboratory....................        119.0        107.5  ...........          4.0        119.1  ...........        123.1
    Oak Ridge Operations Office..............................         23.7         27.5  ...........          5.9         36.3  ...........         42.2
Pantex Site Office:
    Pantex Plant.............................................        450.7        514.9  ...........        441.8          5.7  ...........        447.5
    Pantex Site Office.......................................         11.5         12.0         12.3          0.1  ...........  ...........         12.4
Pittsburgh Naval Reactors Office:
    Bettis Atomic Power Laboratory...........................        375.5        391.9  ...........  ...........  ...........        388.2        388.2
    Pittsburgh Naval Reactors Office.........................          8.6          9.1  ...........  ...........  ...........          9.4          9.4
Richland Operations Office: Richland Operations Office.......          0.8          1.3  ...........          2.2  ...........  ...........          2.2
Sandia Site Office:
    Sandia National Laboratories.............................      1,462.5      1,360.2  ...........      1,119.5        137.9  ...........      1,257.4
    Sandia Site Office.......................................         14.9         12.9         13.1          0.3  ...........  ...........         13.4
Savannah River Operations Office:
    Savannah River Operations Office.........................         15.2         11.3  ...........  ...........         13.0  ...........         13.0
    Savannah River Site Office...............................          3.0          3.1          3.3  ...........  ...........  ...........          3.3
    Savannah River Site......................................        296.2        305.1  ...........        212.7         69.5  ...........        282.2
Schenectady Naval Reactors Office:
    Knolls Atomic Power Laboratory...........................        301.8        316.8  ...........          6.5  ...........        308.0        314.5
    Schenectady Naval Reactors Office........................          6.7          6.8  ...........  ...........  ...........          7.0          7.0
Washington DC Headquarters...................................        247.7        602.7        159.8        601.8         52.5         13.9        828.0
Other........................................................          3.9          3.1          0.2  ...........  ...........          3.1          3.3
                                                              ------------------------------------------------------------------------------------------
      Subtotal, NNSA.........................................      9,114.0      9,503.7        350.8      6,661.9      1,637.5        786.0      9,436.2
Adjustments..................................................       -184.4       -340.8         -6.9        -32.0  ...........  ...........        -38.9
                                                              ------------------------------------------------------------------------------------------
      Total, NNSA............................................      8,929.7      9,163.9        343.9      6,630.1      1,637.2        786.0      9,397.2
--------------------------------------------------------------------------------------------------------------------------------------------------------

                              Attachment 1
  Statement of Ambassador Linton F. Brooks Before the Subcommittee on 
           Strategic Forces, Senate Armed Services Committee

                              INTRODUCTION

    Mr. Chairman, thank you for the opportunity to appear before you 
today to discuss nuclear weapons programs and policies. I look forward 
to working with you in this new area of responsibility. I also want to 
thank all of the members for their strong support for critical national 
security activities. Before I begin my remarks, I want to say how 
pleased I am to be on this panel today with my colleague, Gen. James E. 
Cartwright, Commander of United States Strategic Command, who will 
present the military perspective on these issues.
    Today, I will discuss with you the administration's emerging vision 
for the nuclear weapons enterprise of the future, and the initial steps 
we will be taking, with your support, to realize that vision. This 
vision derives from the work of the Nuclear Posture Review (NPR), the 
August 2003 Conference at Strategic Command, the follow-on NPR 
Strategic Capabilities Assessment and related work on a responsive 
nuclear infrastructure--key elements of which are addressed in Acting 
Assistant Secretary of Defense Mira Ricardel's written statement 
submitted for the record. The Nuclear Weapons Complex Infrastructure 
study, currently underway and scheduled to be completed this summer, 
will further refine this vision. I should add that Gen. Cartwright and 
the Directors at our three National Laboratories have provided both 
leadership and creative impetus to this entire effort.
    The NPR has resulted in a number of conceptual breakthroughs in our 
thinking about nuclear forces--breakthroughs that have enabled concrete 
first steps in the transformation of our nuclear forces and 
capabilities. The recognition of a more dynamic and uncertain 
geopolitical threat environment but one in which Russia does not pose 
an immediate threat, the broad reassessment of the defense goals that 
we want nuclear forces to serve, and the evolution from a threat-based 
to a capabilities-based nuclear force have enabled substantial 
reductions in operationally-deployed strategic warheads through 2012 as 
reflected in the Moscow Treaty. This has also led to the deep 
reduction, directed by the President last May, in the total nuclear 
weapons stockpile required to support operationally-deployed forces. By 
2012 the stockpile will be reduced by nearly one-half from the level it 
was at the time this administration took office resulting in the 
smallest nuclear stockpile in decades. This represents a factor of 4 
reduction in the stockpile since the end of the Cold War.
    Very importantly, the NPR articulated the critical role of the 
defense R&D and manufacturing base, of which a responsive nuclear 
weapons infrastructure is a key element, in the New Triad of strategic 
capabilities. We have worked closely with the Department of Defense to 
identify initial steps on the path to a responsive nuclear 
infrastructure and are beginning to implement them.
    Building on this progress, I want to address the current state of 
our thinking about the characteristics of the future nuclear weapons 
stockpile and supporting nuclear infrastructure. Specifically, I will 
address three key questions:
  --What are the limitations of today's stockpile and nuclear 
        infrastructure?
  --Where do we want the stockpile and infrastructure to be in 2030?
  --What's the path to get there?
    In laying out these ideas, the administration hopes to foster a 
more comprehensive dialog with Congress on the future nuclear posture. 
I must first emphasize, however, that today stockpile stewardship is 
working, we are confident that the stockpile is safe and reliable, and 
there is no requirement at this time for nuclear tests. Indeed, just 
last month, the Secretary of Energy and Secretary of Defense reaffirmed 
this judgment in reporting to the President their ninth annual 
assessment of the safety and reliability of the U.S. nuclear weapons 
stockpile. Like the eight certifications that preceded it, this year's 
assessment is based on a collective judgment of the Directors of our 
National Laboratories and of the Commander, U.S. Strategic Command, the 
principal steward of our nuclear forces. Our assessment derives from 10 
years of experience with science-based stockpile stewardship, from 
extensive surveillance, from the use of both experiments and 
computation, and from professional judgment.

       WHAT ARE THE LIMITATIONS OF TODAY'S STOCKPILE AND NUCLEAR 
                            INFRASTRUCTURE?

    Although nuclear weapons issues are usually contentious, I believe 
that most would agree that if we were starting to build the stockpile 
from scratch today we would take a much different approach than we took 
during the Cold War. Indeed, today's Cold War legacy stockpile is the 
wrong stockpile from a number of perspectives. Let me explain.
    First, today's stockpile is the wrong stockpile technically. Most 
current warheads were designed to maximize explosive yield with minimum 
size and weight so that many warheads could be carried on a single 
delivery vehicle. During the Cold War, this resulted in the most cost 
effective approach to meet then existing military requirements. As a 
result, our weapons designers, in managing risk during a period when we 
used nuclear tests as part of the tool kit to maintain confidence, 
designed closer to the so-called ``cliffs'' in performance. If we were 
designing the stockpile today under a test moratorium and to support an 
operationally-deployed force in which most delivery systems will carry 
many fewer warheads than the maximum capacity, we would manage 
technical risk differently, for example, by ``trading'' size and weight 
for increased performance margins, system longevity, and ease of 
manufacture.
    Second, the legacy stockpile was not designed for longevity. During 
the Cold War we introduced new weapons into the stockpile routinely and 
``turned over'' most of the stockpile every 15-20 years exploiting an 
enormous production capacity. Today, our weapons are aging and now are 
being rebuilt in life extension programs that are both difficult and 
costly. Rebuilding nuclear weapons will never be cheap, but decisions 
taken during the Cold War forced the use of certain hazardous materials 
that, in today's health and safety culture, cause warheads to be much 
more costly to remanufacture. Maintaining the capability to produce 
these materials causes the supporting infrastructure to be larger and 
more costly than it might otherwise be.
    More broadly, our nuclear warheads were not designed with priority 
to minimize overall demands on the nuclear weapons enterprise; that is, 
to minimize DOE and DOD costs over the entire life cycle of the warhead 
which includes design, development, production, certification, 
surveillance, deployment, life extension, retirement, and 
dismantlement.
    As a result of these collective decisions, it is becoming more 
difficult and costly to certify warhead remanufacture. The evolution 
away from tested designs resulting from the inevitable accumulations of 
small changes over the extended lifetimes of these systems means that 
we can count on increasing uncertainty in the long-term certification 
of warheads in the stockpile. To address this problem, we must evolve 
our strategy from today's ``certify what we build'' to tomorrow's 
``build what we can certify.''
    The Cold War legacy stockpile may also be the wrong stockpile from 
a military perspective. The Nuclear Posture Review identified a number 
of capabilities shortfalls in the existing arsenal that could undermine 
deterrence in the future. Specifically, the NPR suggested that current 
explosive yields are too high, that our systems are not capable against 
hard and deeply buried targets, that they do not lend themselves to 
reduced collateral damage and that they are unsuited for defeat of 
biological and chemical munitions. The designs of the past do not make 
full use of new precision guidance technologies from which our 
conventional systems have fully benefited, nor are they geared for 
small-scale strikes or flexibility in command, control and delivery. We 
do not know when, if ever, we will need to field new capabilities to 
deal with these shortfalls. Nonetheless, it is vital that we maintain 
the capability to respond to potential future requirements.
    The stockpile we plan for in 2012 is the wrong stockpile 
politically because it is probably still too large. The President's 
decision last May to reduce the stockpile significantly was taken in 
the context of continued progress in creating a responsive nuclear 
weapons infrastructure as part of the New Triad of strategic 
capabilities called for in the NPR. But we have a ways to go to get 
there. Until we achieve this responsive infrastructure, we will need to 
retain a substantial number of non-deployed warheads to hedge against a 
technical failure of a critical warhead or delivery system, or against 
unforeseen geopolitical changes. Because operationally-deployed forces 
are dominated by two weapons types--the W76 SLBM warhead and the W80 
cruise missile warhead--we are particularly sensitive to technical 
problems involving these systems. We retain ``hedge'' warheads in large 
part due to the inability of either today's nuclear infrastructure, or 
the infrastructure we expect to have when the stockpile reductions are 
fully implemented in 2012, to manufacture, in a timely way, warheads 
for replacement or for force augmentation, or to act to correct 
unexpected technical problems. Establishing a responsive nuclear 
infrastructure will provide opportunities for additional stockpile 
reductions because we can rely less on the stockpile and more on 
infrastructure (i.e., ability to produce or repair warheads in 
sufficient quantity in a timely way) in responding to technical 
failures or new or emerging threats.
    Finally, today's stockpile is the wrong stockpile from a physical 
security standpoint. During the Cold War the main security threat to 
our nuclear forces was from spies trying to steal our secrets. Today, 
the threat to classified material remains, but to it has been added a 
post-9/11 terrorist threat that is difficult and costly to counter. We 
now must consider the distinct possibility of well-armed and competent 
terrorist suicide teams seeking to gain access to a warhead in order to 
detonate it in place. This has driven our site security posture from 
one of ``containment and recovery'' of stolen warheads to one of 
``denial of any access'' to warheads. This change has dramatically 
increased security costs for ``gates, guns, guards'' at our nuclear 
weapons sites. If we were designing the stockpile today, we would apply 
new technologies and approaches to warhead-level use control as a means 
to reduce physical security costs.
    Let me turn to issues of the nuclear weapons infrastructure. By 
``responsive'' nuclear infrastructure we refer to the resilience of the 
nuclear enterprise to unanticipated events or emerging threats, and the 
ability to anticipate innovations by an adversary and to counter them 
before our deterrent is degraded. The elements of a responsive 
infrastructure include the people, the science and technology base, and 
the facilities and equipment needed to support a right-sized nuclear 
weapons enterprise. But more than that, a responsive infrastructure 
involves practical and streamlined business practices that will enable 
us to respond rapidly and flexibly to emerging Department of Defense 
needs.
    Our current infrastructure is by no means responsive. A nearly 
complete halt in nuclear weapons modernization over the past decade, 
coupled with past under funding of key elements of our manufacturing 
complex has taken a toll on our ability to be responsive. For example, 
we have been unable to produce certain critical parts for nuclear 
weapons (e.g., plutonium parts) for many years. And today's business 
practices--for example, the paperwork and procedures by which we 
authorize potentially hazardous activities at our labs and plants--are 
unwieldy. But progress is being made. We restored tritium production in 
Fall 2003 with the irradiation of special fuel rods in a TVA reactor, 
and anticipate that we will have a tritium extraction facility on-line 
in time to meet the tritium needs of a reduced stockpile. We are 
restoring some lost production capabilities, and modernizing others, so 
that later this decade we can meet the scheduled startups of 
refurbishment programs to extend the life of three warheads in the 
legacy stockpile. We are devoting substantial resources to restoring 
facilities that had suffered from years of deferred maintenance. 
Finally, we have identified quantitative metrics for 
``responsiveness,'' that is, timelines to address stockpile problems or 
deal with new or emerging threats. These will help guide our program by 
turning the concept of responsiveness into a measurable reality.
    That said, much remains to be done. Among other things, we must 
achieve the scientific goals of stockpile stewardship, continue 
facilities and infrastructure recapitalization at NNSA's labs and 
plants, construct a Modern Pit Facility to restore plutonium pit 
production, strengthen test readiness, streamline business practices, 
and transfer knowledge to the next generation of weapons scientists and 
engineers who will populate this responsive infrastructure. Our 
challenge is to find ways to carry this out that reduce duplication of 
effort, support consolidation of facilities and promote more efficient 
operations complex-wide. I want to stress the importance of a Modern 
Pit Facility even if the stockpile continues to shrink--sooner or later 
the effects of plutonium aging will require all our current pits to be 
remanufactured.

    WHERE DO WE WANT THE STOCKPILE AND INFRASTRUCTURE TO BE IN 2030?

    Although the legacy stockpile has served us well, it was designed 
to meet the requirements of the Cold War era, many of which are 
irrelevant or inadequate today. We need to begin now to transform to 
the nuclear weapons enterprise of the future--this means transformation 
to a smaller, less costly, more easily secured, safe and reliable 
stockpile as well as transformation of the supporting nuclear 
infrastructure. The two are, of course, intertwined--we see stockpile 
transformation as ``enabling'' transformation to a responsive nuclear 
infrastructure, and a responsive infrastructure as essential to 
reducing total stockpile numbers and associated costs.
    Part of transformation will be to retain the ability to provide new 
or different military capabilities in response to DOD's emerging needs. 
Gen. Cartwright will discuss this aspect of transformation in more 
detail in his testimony.
    But transformation involves more than retaining the capability to 
respond to new military requirements. My main responsibility is to 
assure the continued safety, security and reliability of the nuclear 
weapons stockpile. In this regard, even if we never received another 
DOD requirement for a new military capability for the nuclear 
stockpile, the concerns raised about our ability to assure the safety, 
security and reliability of the legacy stockpile over the very long 
term would still drive the need to transform the stockpile. And the 
concerns about responsiveness to technical problems or geopolitical 
change would still mandate transformation of the weapons complex.
    More broadly, we must explore whether there is a better way to 
sustain existing military capabilities in our stockpile absent nuclear 
testing. With the support of Congress, we are beginning a program--the 
Reliable Replacement Warhead (RRW) program--to understand whether, if 
we relaxed warhead design constraints imposed on Cold War systems (that 
have typically driven ``tight'' performance margins in nuclear design) 
we could provide replacements for existing stockpile weapons that could 
be more easily manufactured with more readily available and more 
environmentally benign materials, and whose safety and reliability 
could be assured with highest confidence, without nuclear testing, for 
as long as the United States requires nuclear forces. Such warheads 
would be designed specifically to facilitate less costly remanufacture 
and ease of certification of safety and reliability, and thus would 
reduce infrastructure costs needed to support that component of the 
stockpile. Because they would be designed to be less sensitive to 
incremental aging effects, they would dramatically reduce the 
possibility that the United States would ever be faced with a need to 
conduct a nuclear test in order to diagnose or remedy a reliability 
problem.
    There is another reason why it is critical that we begin now to 
transform the stockpile. We have not developed and fielded a new 
warhead in 20 years, nor have we modified a warhead in nearly 10 years. 
We are losing expertise. We must train the next generation of nuclear 
weapons designers and engineers before the last generation, who honed 
its skills on nuclear testing, retires. If such training--and I cannot 
emphasize this strongly enough--is disconnected from real design work 
that leads to engineered systems, we will, as one laboratory director 
put it, ``create not a new generation of weapons designers and 
engineers but a generation of analysts'' who may understand the theory, 
but not the practice, of warhead development. If that happens, it would 
place at risk our capabilities for stockpile stewardship in the future.
    Along these lines, as part of the transformation of the stockpile, 
we must preserve the ability to produce weapons with new or modified 
military capabilities if this is required in the future. Currently the 
DOD has identified no requirements for such weapons, but our experience 
suggests that we are not always able to predict our future 
requirements. The chief implication is that we must maintain design 
capability for efforts like those being carried out in the RRW program 
but also as a hedge against possible future requirements for new 
capabilities.

                     WHAT'S THE PATH TO GET THERE?

    Let me briefly describe the broad conceptual approach for stockpile 
and infrastructure transformation. The ``enabler'' for such 
transformation, we believe, is the RRW program. To establish the 
feasibility of the RRW concept, we will use the funds provided by 
Congress last year and those requested this year to begin concept and 
feasibility studies on replacement warheads or warhead components that 
provide the same or comparable military capabilities as existing 
warheads in the stockpile. If those studies suggest the RRW concept is 
technically feasible, and if, as I expect, the Department of Defense 
establishes a requirement, we should be able to develop and produce by 
the 2012-2015 timeframe a small build of warheads in order to 
demonstrate that an RRW system can be manufactured and certified 
without nuclear testing.
    Once that capability is demonstrated, the United States will have 
the option to:
  --truncate or cease some ongoing life extension programs for the 
        legacy stockpile;
  --apply the savings from the reduced life extension workload to begin 
        to transform to a stockpile with a substantial RRW component 
        that is both easier and less costly to manufacture and certify; 
        and,
  --use stockpile transformation to enable and drive consolidation to a 
        more responsive infrastructure.
    We should not underestimate the very complex challenge of 
transforming the enterprise while it is operating at close to full 
capacity with on-going warhead life extension programs and potential 
evolving requirements. As a result, as we proceed down this path, we 
will look for opportunities to restructure key life extension programs 
to provide more ``head room'' for transformation. This could also 
provide, in the nearer term, opportunities to ensure appropriate 
diversity in the stockpile, making our nuclear deterrent less sensitive 
to single-point failure of a particular warhead or delivery system.
    Once we establish a responsive infrastructure, and demonstrate that 
we can produce new (or replacement) warheads on a timescale in which 
geopolitical threats could emerge, and can respond in a timely way to 
technical problems in the stockpile, then we can go much further in 
reducing non-deployed warheads and meet the President's vision of the 
smallest stockpile consistent with our Nation's security.
    Success in realizing our vision for transformation will enable us 
to achieve over the long term a smaller stockpile, one that is safer 
and more secure, one that offers a reduced likelihood that we will ever 
need to test again, one that reduces NNSA and DOD ownership costs for 
nuclear forces, and one that enables a much more responsive nuclear 
infrastructure. Most importantly, this effort can go far to ensure a 
credible deterrent for the 21st century that will reduce the likelihood 
we will ever have to employ our nuclear capabilities in defense of the 
Nation.

                               CONCLUSION

    The administration is eager to work with the Congress to forge a 
broad consensus on an approach to stockpile and infrastructure 
transformation. The vision of our future nuclear weapons posture I have 
set forth today is based on the collective judgment of the Directors of 
our National Laboratories and of the Commander, U.S. Strategic Command. 
It derives from lessons learned from 10 years of experience with 
science-based stockpile stewardship, from many years of effort in 
planning for and carrying out the life extension programs for our 
legacy stockpile, and from coming to grips with national security needs 
of the 21st century as laid out in the NPR.
    I hope that the committee finds our vision both coherent and 
compelling. But I must emphasize that it is simply that, a long-term 
vision, nothing more and nothing less. Much of it has not yet begun to 
be implemented in program planning, or is at the very early stages of 
development. But we believe it is the right vision to guide our near 
term planning and to ensure the Nation's long-term security. I ask for 
the committee's support and leadership as we embark on the path of 
transformation.
    Thank you Mr. Chairman. I will be pleased to answer any questions.

                     RELIABLE REPLACEMENT WARHEADS

    Senator Domenici. Very good. I thank you. And I think, 
based on what we have said, though Senator Feinstein clearly 
will want to proceed with some further specifics about her 
points of interest, you've covered most things fairly well.
    I want to clarify, once again, so we'll be sure--Senator 
Feinstein alluded to testimony given by you heretofore before 
Armed Services Committee. I don't know if it's a House or the 
Senate----
    Senator Feinstein. It was the House.
    Ambassador Brooks. Senate, sir.
    Senator Feinstein. Was it----
    Senator Domenici. House?
    Ambassador Brooks. The Senate. I believe the testimony----
    Senator Feinstein. I was----
    Ambassador Brooks [continuing]. You've got the Strategic 
Forces Subcommittee.
    Senator Domenici. Okay.
    Senator Feinstein [continuing]. Referring to the House.
    Senator Domenici. You were referring to the House. I'll 
refer to the Senate.
    On, ``What's the path to get there?'', you commented, near 
the end of that paragraph, that if those studies suggest that 
the RRW concept, which we've just explained awhile ago, is 
technically feasible, and if, as I expect, the Department of 
Defense establishes a requirement, we should be able to develop 
and produce, by 2012-2015 time frame, a small build of warheads 
in order to demonstrate that the RRW system can be manufactured 
and certified without nuclear testing.
    Now, I think that whatever the Senator from California is 
going to ask you about the House testimony, that we're probably 
talking about a similar concern, in terms of what is meant. So 
would you please elaborate? This language, ``produce by, date, 
time frame, a small build of warheads,'' we're not talking 
about building a new----
    Ambassador Brooks. No, sir, we are not.
    Senator Domenici [continuing]. Nuclear weapon.
    Ambassador Brooks. Here's what will happen if there were no 
RRW program. We will take the warheads for the W76, the most 
numerous warhead in the stockpile, and we will put it through a 
Life Extension Program.
    Senator Domenici. Right.
    Ambassador Brooks. And, at the end of that Life Extension 
Program, we will have a large number of warheads, which are 
identical--and so, subject to common-point failure; if 
something's wrong, it affects lots of warheads--and are built 
with all the Cold War constraints that I talked about.
    So, what I am suggesting in that testimony is, if the 
research that we propose to conduct under the RRW program 
suggests that we can replace components in that warhead in a 
way that makes it safer to conduct surveillance, that reduces 
the amount of difficult materials in there, then the Department 
of Defense could formally say, ``That's a good idea.'' And so, 
instead of taking the whole W76 force and rebuilding it, as 
built, we would rebuild some of them using these new concepts. 
What we would then have is a fraction of our warheads that were 
less subject to the problems that you inherently get because of 
the way we designed warheads when the single-most important 
thing was to put the maximum yield into the smallest weight. 
And I'm suggesting it might be possible to do that by 2012 or 
2015. That's not a decision we've made; we don't know enough to 
make the decision. We know----
    Senator Domenici. In any event, when the decision is to be 
made, the word--the words ``a small build'' does not mean a 
small build of new warheads.
    Ambassador Brooks. No, it means----
    Senator Domenici. In any----
    Ambassador Brooks [continuing]. It means a small number of 
modified or remanufactured warheads----
    Senator Domenici. Parts.
    Ambassador Brooks [continuing]. Incorporating----
    Senator Domenici. Different parts.
    Ambassador Brooks [continuing]. These concepts, yes, sir.
    Senator Domenici. Because that's being done pursuant to 
language--it's called ``reliable replacement''----
    Ambassador Brooks. Yes, sir.
    Senator Domenici [continuing]. ``Program''----
    Ambassador Brooks. Yes, sir.
    Senator Domenici [continuing]. Not of the missile, but 
Reliable Replacement Warhead program.
    Ambassador Brooks. Yes, sir, that's correct.
    Senator Domenici. And nobody's suggested that we are not 
supposed to do that, because, as a matter of fact, that's what 
the whole effort that science-based stockpile stewardship is 
directed at.
    Ambassador Brooks. Yes, sir.
    Senator Domenici. To find out whether they still have 
durability, whether they're still safe, whether they're still 
reliable. And if they're found not to be, we're not supposed to 
decide, ``That's the end of it, we shut 'em all down''; we're 
supposed to know about that, and something's supposed to 
happen.
    Ambassador Brooks. That's correct, sir.

                          TEST-SITE READINESS

    Senator Domenici. Which comes to the next question. We have 
never said, to my knowledge, that we are going to close down 
the Nevada test range. As a matter of fact, even when we 
decided on the moratorium, my recollection is, we said it will 
have to constantly be maintained so that it will be ready if we 
need it. Is that correct? In, maybe, different words, but----
    Ambassador Brooks. That is correct. And the issue--and I do 
want to make a slight modification to one of those things made 
in the opening statement--the $25 million that is in this 
budget for test-site readiness, much of that is required as 
long as you're going to keep the test site ready at all. That's 
a relatively small fraction--and I'd have to give you the exact 
number for the record that is devoted to shortening that 
readiness. But we----
    Senator Domenici. Well, Mr. Ambassador, we can argue that 
out up here, in due course, but, you know, some of us have 
thought, from--for a long time, 4 or 5 years, that the question 
is--should come up, and the Department would be put in a bad 
position when it was raised, that if we ever needed the range, 
it wasn't ready.
    Ambassador Brooks. Yes, sir, I agree with that.
    [The information follows:]

                   Underground Nuclear Test Readiness

    The fiscal year 2006 President's budget request includes $25 
million to maintain test readiness timelines that are consistent with 
administration policy. The test readiness budget is thus less than 8 
percent of the total funding to Nevada that directly or indirectly 
supports a viable test site. The test readiness budget pays for items 
not exercised by the experiment and infrastructure funds as detailed 
below. Test readiness examples are authorization basis documents and 
safety analyses for underground nuclear tests, updating of test 
procedures and agreements with local governmental authorities, the 
design and manufacture of Field Test Neutron Generators, new 
diagnostics, a study of seismic effects on the Las Vegas valley and 
maintenance of specialized equipment.
    The test readiness budget is actually a small portion of the 
funding required to maintain the Nevada Test Site in a condition that 
would allow the NNSA to conduct an underground nuclear test. The bulk 
of the funding that maintains the Nevada Test Site comes from the 
amounts provided by the NNSA to Bechtel Nevada for maintenance of 
infrastructure and for the conduct of experiments in support of the 
stockpile stewardship program; for example the underground subcritical 
experiments. These funds total approximately $300 million.

    Senator Domenici. And it might take a long, long time to 
get it ready. So what's the use of saying you ought to maintain 
it, if it takes 5, 6 years to get it ready? And you're saying 
it just happens that, at this point in history, we're saying 
it's time to do some improvements; and we conclude, therefore, 
we must be getting ready to test new weapons, which is not the 
case. Is----
    Ambassador Brooks. That is not----
    Senator Domenici [continuing]. That correct?
    Ambassador Brooks [continuing]. The case.
    Senator Domenici. All right. Now, that's not going to be 
believed by everybody, you understand. Some people are going 
to----
    Ambassador Brooks. True, nonetheless, sir.
    Senator Domenici [continuing]. Some are going to say that 
isn't true. Maybe the lady on my right will say that isn't 
true. But I don't know who else to ask. I don't know who--we 
could put you all under oath, maybe we can ask that every 
person that has anything to do with it all swear that it isn't, 
but I'm--you know, I happen to believe that we need to improve 
the range. It's a great asset. And I hope we never use it. But 
I am one that does not believe it is absolutely certain that we 
will never have to use it. I'm not one of those, and I would 
never vote, and would probably do the best I could to see that 
that didn't happen.

              NUCLEAR WEAPONS COMPLEX INFRASTRUCTURE STUDY

    Now, having said that, there's three or four more, and I 
may submit them, but let me talk a little bit with you about 
the--whatever is going on in terms of a nuclear weapons complex 
infrastructure study.
    Ambassador Brooks. Yes, sir.
    Senator Domenici. Now, I understand that there is such a 
study. I understand that it might have been time for such a 
study. And I have no argument with who's on it or that they 
have been--whether or not they've been busy trying to study and 
inventory. I understand they have. What I don't--what I'm very 
worried about--you see, I've been here long enough to know 
about a lot of studies, and there's lots of them been done that 
nothing happened. And I'm not so sure that's all good or bad. 
As far as us having done so many on security, I think that's 
very bad. We had at least five on what's wrong with security, 
and we never did anything. But we've had a lot of them, 
including one by the distinguished son of the founder of 
Motorola, a great doctor, who's now very old. But, anyway, he 
did a study, that carries his name, on how we should do this, 
how we should consolidate them. You might remember the----
    Ambassador Brooks. Yes, sir. The Galvin report, sir.
    Senator Domenici. What's the name of the man?
    Ambassador Brooks. I think it's the Galvin report.
    Senator Domenici. Yeah, Galvin. You know, he was looking 
about privatization and streamlining. Everybody looked at that 
and threw it away, too.
    So, all I'm worried about is, whatever this study is, am I 
correct that, No. 1, it's not done--not finished?
    Ambassador Brooks. It's not done.
    Senator Domenici. No. 2, nobody's signed onto it yet, is 
that right?
    Ambassador Brooks. That's correct.
    Senator Domenici. The Secretary hasn't committed to any 
parts of it. Is----
    Ambassador Brooks. That's correct.
    Senator Domenici [continuing]. That right?
    Ambassador Brooks. Yes, sir, that's correct.
    Senator Domenici. You don't even know whether it's going to 
be the kind of thing that, in toto, you will support. Is that 
right?
    Ambassador Brooks. That's correct.
    Senator Domenici. And there are people passing around ideas 
about what might be in it. You don't vouch for those, even if 
they come from your Department, right?
    Ambassador Brooks. That's correct.
    Senator Domenici. There are some talking about which lab's 
going to grow, which lab's going to lose, which lab's going to 
have what. You have made no such decisions----
    Ambassador Brooks. We have made no such decisions, and it 
would be premature to do so. We've asked for a broad-based, 
open-ended, think-out-of-the-box study. And when we get it, 
we'll look at it, figure out what----
    Senator Domenici. Right.
    Ambassador Brooks [continuing]. Makes sense and what 
doesn't.

               SECURITY AT LOS ALAMOS NATIONAL LABORATORY

    Senator Domenici. Now, I have just one last thing that 
really worries me. You know, it has--for a long time, Los 
Alamos National Laboratory has been synonymous with excellence. 
We all know that there's competition. Sandia is not 
competition, because they're different. Lawrence Livermore was 
built to be competitive. But it's only recently that, in the 
area of design and building and verifying the adequacy of our 
nuclear weapons, that--it's only recently that Lawrence 
Livermore has reached the heights that it has, vis-a-vis Los 
Alamos. Is that not correct? In the last 10 or 15 years. Los 
Alamos was premier, and building more and designing more----
    Ambassador Brooks. That's certainly true.
    Senator Domenici. Right.
    Now, what worries me, Mr. Secretary, is that they've had 
some problems on security, they've had some problems on 
management, but is it fair to say that none of that has 
impeached their competence and distinction as a great 
laboratory that has significant use and need to the defense of 
our country and to nuclear weaponry?
    Ambassador Brooks. Absolutely. The science at Los Alamos, 
as at other labs, is absolutely superb. Our concern with the 
safety and the security and management problems is because 
you've got to get them fixed so they can get back to doing what 
they do well, in science. I think we're making progress. The 
jury's still out on whether we're all the way there in fixing 
those problems.
    Senator Domenici. Thank you very much.
    Now, we'll go--Senator, you were here first, Senator 
Allard, so we're going to go to you, and then Senator 
Feinstein.

                       NUCLEAR WEAPONS STOCKPILE

    Senator Allard. Mr. Ambassador, one of the things that 
seems to be happening, and I want you to verify this, is, 
throughout the world we continue to have countries that seem to 
be making nuclear weapons--Pakistan; India, I think, is of 
note; North Korea is--appears to be going that direction, they 
claim they are; and Iran, big question mark. I haven't heard 
Russia say anything about the fact that they've taken away 
their ability to produce more nuclear weapons, like we have 
done. And a number of other countries, some of them in the 
European community, seem to maintain that capability, and yet 
we no longer are producing nuclear weapons. In fact, this 
President has called for a reduction in the nuclear warheads, 
through the stockpile. We've done more than that; we've even--
actually pulled down some of our readiness, as far as nuclear 
warheads, with the Peacekeeper.
    Ambassador Brooks. Yes, sir.
    Senator Allard. And a question that comes to mind--in 
comparison to what's happening with other countries, have--and 
maybe just from our own historical point of view, we have--I 
think we've had nuclear weapons stockpile down to the lowest 
level it's ever been for some time. Can you give me some idea 
of how we are, comparatively, historically, in the United 
States?
    Ambassador Brooks. When----
    Senator Allard. I suspect we're down to historical levels.
    Ambassador Brooks. When the reductions the President 
approved last May are implemented in 2012, the stockpile will 
be lower than it has been in my professional lifetime. And I've 
been around for quite awhile.
    I can't be more precise than that, because----
    Senator Allard. It's a sensitive----
    Ambassador Brooks [continuing]. By long practice, the exact 
stockpile numbers, we do not discuss publicly, although I'll be 
more than happy to be very specific. And there's a report----
    Senator Allard. In a----
    Ambassador Brooks [continuing]. For the Congress on this.
    Senator Allard [continuing]. Different situation. I 
understand that. But, you know, I think we've made substantial 
gains in that, and I kind of--my view is that we can even do a 
better job if we have an opportunity to study what's happening 
in the stockpile. If we had a better understanding of what 
happens with aging----
    Ambassador Brooks. Right.
    Senator Allard [continuing]. The various elements in the 
triggers, and had a better idea of what, you know, future risks 
might be. And it seems to me that with these studies, we could 
begin to resolve some of these questions, and maybe even have 
an opportunity to reduce that nuclear stockpile even more; 
particularly in the fact that our ability to target precisely 
is out there. And so, I'd like to hear you respond to that.
    Ambassador Brooks. Yes, sir. I believe, right now, that 
there are--first of all, the President has made it very clear, 
throughout his term in office, and even before, that he seeks 
the lowest nuclear weapons stockpile that's consistent with our 
national security. And he's demonstrated that through the 
actions that he took last year.
    I believe that a more responsive infrastructure and a 
series of weapons that are easier to maintain will allow us to 
reduce further the number of spares that we keep; and, thus, 
continue to lead the world in showing nuclear restraint.

                           ADVANCED CONCEPTS

    Senator Allard. And I think it's something that we can be 
proud of, but I also think that somehow or the other we have to 
be sure that we're able to maintain some sort of defensive 
structure, some deterrence that goes with that, where----
    Ambassador Brooks. Yes, sir.
    Senator Allard [continuing]. Where we don't--we don't have 
our missile defense system in a posture yet where it's 
reliable. And so, we still have to rely, to a certain degree, 
on mutual-assured-destruction approach in order to prevent some 
of our adversaries from overstepping, I think, in many cases.
    And is it fair to say that all you want to do at this point 
is to study concepts on what is actually feasible?
    Ambassador Brooks. Yes, sir.
    Senator Allard. And nothing more?
    Ambassador Brooks. That's correct.
    Senator Allard. And it's pretty clear, as I think we've 
mentioned time and time again, that our legislation there is 
set, we don't provide dollars for anything more than just a 
study.
    Ambassador Brooks. Yes, sir, that's absolutely correct.
    Senator Allard. And so, I think it's pretty clear.
    How much money is in your 5-year plan for this study?
    Ambassador Brooks. For the Robust Nuclear Earth Penetrator, 
$4 million in the budget that's before Congress, $14 million in 
what we project for 2007, and that's all.
    Senator Allard. Is that enough money to complete the study?
    Ambassador Brooks. It's enough money to complete the study.
    Senator Allard. So, not only do we not have any money in 
there for any production at all, we just don't have----
    Ambassador Brooks. We don't have any money for engineering 
development, either.
    Senator Allard. We don't have enough money to complete the 
study.
    Ambassador Brooks. We'd have to come back to you twice more 
before you could get----
    Senator Allard. Before you could have development.
    Ambassador Brooks [continuing]. To have the debate on 
production.
    Senator Allard. Very, very good point.
    Senator Domenici. Senator, would you yield on that?
    Senator Allard. Yes, I'll be glad to yield.

                      RELIABLE REPLACEMENT WARHEAD

    Senator Domenici. Senator, while you're on that question, 
we should follow up with a Reliable Replacement Warhead, which 
is right on line with what you're talking about, which is not 
the big penetrator.
    Ambassador Brooks. That's correct.
    Senator Allard. That's correct. That's correct.
    Senator Domenici. And that's a small amount of money, too.
    Senator Allard. That's correct.
    Senator Domenici. But it's also evaluating--and could you 
tell us how much money is in that?
    Ambassador Brooks. $9.4 million.
    Senator Domenici. So anybody who thinks that's building 
warheads--I mean, you know, you can't even get the team hired 
if you're talking about that.
    Senator Allard. I agree with you, Mr. Chairman.
    And I'd like to address this--you know, we do have support 
from the Pentagon, and we've had--earlier this year, General 
Cartwright, Commander of U.S. Strategic Command, testified 
before the Senate Armed Services Committee that he strongly 
supports a study of the capabilities of a Robust Nuclear Earth 
Penetrator for the purpose of determining whether it can hold 
certain high value and deeply buried targets at risk. And, as I 
understand what his comments were, it's not--the result would 
not be a new nuclear weapon.
    Ambassador Brooks. That's correct.
    Senator Allard [continuing]. And----
    Ambassador Brooks. But----
    Senator Allard [continuing]. And you can----
    Ambassador Brooks. The result of this will just be a study.
    Senator Allard. Yes. That is very important. And if the 
military needs to better understand the capabilities of any of 
these new technologies, it seems to me that you've got to do 
some studying. To do anything else seems to me totally 
irresponsible if you're concerned about the defense of this 
country.
    Once the study is complete, and if the military asks you to 
further investigate, will you come back to the Congress for 
permission?
    Ambassador Brooks. Yes, sir. Not only because that's 
sensible, but because I'm not allowed to do anything else. I 
can't go beyond the study stage without a separate act of 
Congress, and if I go into engineering development, then I 
can't go to production without a third act of Congress, and 
each of those has to be preceded by a decision by the 
President. So, we are a long way from actually having a debate 
over fielding anything, if we ever get there. And I don't have 
any idea what will happen after the results of the study. It 
will depend, in part, I suspect, on our progress at holding 
these targets at risk conventionally, which is everybody's 
preferred method.

            POTENTIAL ADVERSARIES NUCLEAR WEAPONS ACTIVITIES

    Senator Allard. And, to kind of wrap up behind my starting 
comments, have you seen any evidence that would suggest that 
our potential adversaries have ceased their nuclear weapons 
activities in the last 20 years? Of course, Libya--I think 
maybe that would be the only example, but, other than for 
that----
    Ambassador Brooks. Well, yes----
    Senator Allard [continuing]. Have you seen any evidence?
    Ambassador Brooks [continuing]. Of potential adversaries, 
Libya's probably the only example. South Africa is the other 
example of a country that clearly went the nuclear route, and 
then appears to have walked back from it.
    There is certainly evidence that the Russian Federation is 
reducing their overall deployed levels, but they continue to 
produce nuclear weapons. And I believe that to be true of all 
of the nuclear powers, both the recognized ones--with the 
caveat that our knowledge of what's actually happening in North 
Korea is not as detailed, your comment is correct, they have 
stated they have nuclear weapons, they have shown things to 
visitors, which the visitors say looked like nuclear weapons, 
but it's not hard to make something that looks like nuclear 
weapons. I don't know if they have nuclear weapons. The general 
assessment of almost everybody is, they do; but numbers are----
    Senator Allard. Hard to come by.
    Ambassador Brooks [continuing]. Very difficult to----
    Senator Allard. Yeah.
    Ambassador Brooks [continuing]. To ascertain.

                     WEAPONS LABORATORIES STAFFING

    Senator Allard. And, you know, from a manpower standpoint 
in our laboratories, would you comment on the manpower 
shortage--I'd call a critical manpower shortage--on the know-
how of how to manage these weapons with our physicists and 
scientists?
    Ambassador Brooks. I want to distinguish two things. 
Particularly in the aftermath of 9/11, the combination--what 
always attracts people to the weapons laboratories is a 
combination of very great science and the opportunity to serve 
the country, from a security standpoint. I think there are many 
more young scientists now for whom national security is a 
motivator in the aftermath of 9/11. And so, I think, in terms 
of the new Ph.D. at the beginning of his or her career, we're 
not doing too badly.
    The area where we're very worried is the people who have 
had the experience of facing tough design challenges. And those 
people are disproportionately, almost exclusively, in their 
late 50's and older, and they will be retiring. One of the 
things that we will get from the RRW program, which requires 
the same kind of intellectual skill of understanding in these 
very complex entities--if you change this, if you take out this 
material that you put in, after all, for a reason, if you 
replace this with a simpler component, what happens? And 
exercising those skills by the older generation will provide a 
way to mentor the younger generation and to kind of pass on 
some of that hard-won knowledge. It's also true that, because 
of the success of science-based stockpile stewardship, we are 
gaining greater technical and conceptual understanding. And so, 
the new generation will be able to learn, by looking at 
analysis, things that the older generation had to learn by 
going out and doing underground testing.
    So, I think it's important to worry. I am not panicked 
about this. I mean, you know, some of these people, they're 
national treasures, and when they leave it's going to be very 
tough to replace them. I refer to my colleague on my left.

                    SECURITY AT WEAPONS LABORATORIES

    Senator Allard. Mr. Chairman, one final point. You have 
referred, in your comments, about the security at the 
laboratories. The Ambassador's referred to the security of the 
laboratories. And I remember a comment by Senator Simpson one 
time, who says, ``How soon they forget.'' And it seems to me we 
have forgotten about some of our security issues at our labs 
and some of the problems we've had in the past, and how we're 
trying to correct those. And when we have the reductions in 
spending, one of the first things that come to my mind, how are 
we going to maintain the proper security environment that we 
need around those labs?
    And I'll conclude with that. Thank you.
    Ambassador Brooks. Yes, sir.
    Senator Domenici. Senator Feinstein.
    Senator Feinstein. Thank you very much----
    Senator Domenici. Thank you very much, Mr. Ambassador.

                     RELIABLE REPLACEMENT WARHEADS

    Senator Feinstein [continuing]. Thank you very much, Mr. 
Chairman.
    I would like, if I might, if you would approve, place in 
the record some letters on the RRW, my letter of February 9 to 
Secretary Bodman, his response of March 4, and my subsequent 
letter of April 12.
    Senator Domenici. They're part of the record, if that's 
what you desire.
    Senator Feinstein. Thank you very much.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Senator Feinstein. In the Secretary's March 4 response to 
me, to the question, ``Could this program lead to the 
introduction of new nuclear weapons?'', here is his response, 
``The focus of the RRW program is to extend the life of those 
military capabilities provided by existing warheads, not 
develop warheads for new or different military missions. 
``If''--there's always an ``if'' or a ``but''--``If, in the 
future, the DOD identifies requirements for new or different 
military capabilities, it is conceivable that certain of the 
concepts identified in the RRW program could be applied in the 
development of warheads to meet those new requirements.''
    Now, how does that not open the door to new nuclear 
weapons?
    Ambassador Brooks. Let me try, Senator. And let me--and I--
we have a problem. I mean, we, on my end of the street. And our 
problem is, we want to be as complete and accurate as possible 
so we can't be accused of misleading the Congress. Knowledge is 
fungible. Everything I learn doing anything associated with a 
nuclear weapon potentially will help me if the Department of 
Defense ever decides they want something fundamentally new. We 
just gave an example. We're going to get people who are going 
to learn to think a little bit about, ``What does it mean you 
do this or that to change component of a weapon?'' And so, what 
the Secretary meant when he wrote that was to simply make it 
clear that we acknowledge the inevitable, inescapable fact that 
if you learn more things you can use that knowledge in a 
variety of ways. We wanted to recognize that fact, then make it 
clear that's not why we're doing this program. We don't 
envision this program as leading to new weapons.
    I think, as the Secretary's letter says, it's not the 
purpose of the RRW program, and I think he also, if I remember 
his letter correctly, acknowledged--I mean, he'd have to remind 
you; you know, but he wanted to make sure you knew that he 
knows that we couldn't go forward on anything without the 
Congress.
    Senator Feinstein. Oh, I understand that. And you--I saw 
the twinkle in your eye, because you know that we fenced the 
program. I think it's at 6.3. And----
    Ambassador Brooks. Yes, ma'am.
    Senator Feinstein [continuing]. So, my next question was 
going to be--I would assume, then, that 2007 takes you up to 
6.3.
    Ambassador Brooks. Are we talking about the----
    Senator Feinstein. We're talking about the bunker buster.
    Ambassador Brooks [continuing]. Going beyond 2007 would 
take you--2007 is 6.2----
    Senator Feinstein. 2007 is----
    Ambassador Brooks [continuing]. 6.2.
    Senator Feinstein [continuing]. 6.2?
    Ambassador Brooks. Yes, the same as 2005. 2006-2007 are the 
same thing, in terms of that classic definition of the steps 
you go. To go beyond would require, (a) money we haven't 
programmed, and, (b) approval you haven't given.
    Senator Feinstein. Right. And that's when--to go into 6.3--
--
    Ambassador Brooks. Yes, ma'am.
    Senator Feinstein [continuing]. Which is the more active 
engineering----
    Ambassador Brooks. Engineering development.
    Senator Feinstein [continuing]. You would have to come back 
to us for----
    Ambassador Brooks. Yes, ma'am.

                     RELIABLE REPLACEMENT WARHEADS

    Senator Feinstein [continuing]. Permission. Yes, I think 
that's good.
    Now, back to the RRW. You don't plan on testing these new 
warheads?
    Ambassador Brooks. No. No. In fact, as we go to the 
laboratories and ask them to start thinking about what approach 
they might use, technically, to this component replacement, one 
of the constraints we're going to put is, they have to be able 
to say they believe that they'll be able to certify--that is, 
if they--whatever we choose to replace, whether it's the 
explosive or remove certain materials, we're actually going to 
be able to certify that without nuclear testing. There's 
absolutely no intent that this program be----
    Senator Feinstein. See, that's another thing. I find it 
hard to believe that you would actually develop a new warhead 
as a replacement that would go into a military situation 
without actually testing it before. I find it difficult to 
believe that a President wouldn't want it tested.
    Ambassador Brooks. Well--and I would have found it 
difficult to believe 15 years ago. That's why we've come to you 
for the last decade to get all this money for science-based 
stockpile stewardship, because what we will do is constrain the 
changes that we make to those that we don't need to use 
underground testing. And because we have a better 
understanding, both of subcritical experiments, things that 
aren't nuclear testing, as you're using the term, because we 
have better computation, that'll still let us do modification. 
I mean, that's not new. When we do the life-extension programs, 
I say we rebuild them just the way they were built, and that's 
not actually----

                             TEST READINESS

    Senator Feinstein. And then why move up time-to-test to 18 
months? Why is that----
    Ambassador Brooks. A completely different reason, unrelated 
to RRW. The--and here's how we got to 18 months. We believe 
that there is no need to test now. We don't foresee any need to 
test. But if our surveillance program reveals a serious problem 
with a warhead that is crucial to the stockpile, I certainly, 
and I expect the professional military, would go to the 
President and say, ``We may need to test, either to confirm the 
problem or to make sure of the fix.'' Now, if you look back in 
history when we were testing, and when we did see problems, and 
you say, ``About how long did it take us from the 
identification of the problem to when we were ready to do an 
experiment and design it?''--and a lot of this stuff you can't 
do in advance, because you don't know what the problem is--18 
months seemed to be a roughly appropriate number. Shorter than 
that, and you were paying money for readiness you couldn't use, 
because the experiment wouldn't be ready. Longer than that, and 
you were running the risk of being ready to test to find out 
whether you had corrected an important problem, but the test 
site wasn't ready. That's 18 months.
    Is 18 the right number? Well, 17 or 20. I mean, nobody can 
tell you that. That's--18 is certainly better than 3 years. Is 
it a big deal between the 24 months and--I don't--that's how we 
got to 18, and there's not a whole lot more science to it than 
that.
    Senator Domenici. You can go ahead, sir.

                     RELIABLE REPLACEMENT WARHEADS

    Dr. Beckner. Yes, could I? Let me return to the question of 
RRW and whether that inevitably might lead you to the need to 
test. The fact is that the designs that will be worked on 
within that concept will go back in time to earlier designs, 
which were heavier, in some cases larger, but for which we do 
have a database. It's fairly old, but, as you know, weapons 
have been tested now for many, many years, over 1,000 of them. 
So, the intent is, when they work on these ideas, is to utilize 
data that does tie back to----
    Senator Feinstein. The test.
    Dr. Beckner [continuing]. Former tests. So, we're not going 
to go out into completely new territory with any of these 
ideas.

                                  PITS

    Senator Feinstein. Okay. Now, two I-can't-understand-for-
the-life-of-me questions. The first I-can't-understand-for-the-
life-of-me question is why you need 450 pits, why you've been 
so persistent on 450 pits, when everything I read says you 
don't need 450 pits to modernize your present fleet. And the 
report on the----
    Ambassador Brooks. Says we don't need it.
    Senator Feinstein [continuing]. Quality isn't due until 
2006. So why are you moving so aggressively, and have been for 
the last couple of sessions, toward 450 pits?
    Ambassador Brooks. Senator, with the greatest respect, 
nobody who works for me, or nobody for whom I have worked for, 
has ever said 450. What we did was, when we did the 
environmental impact statement for NEPA, we took the broadest 
possible range. I've forgotten how they got the upper limit, 
but they said we had to analyze within the broadest possible 
range. I have said before, and I will say now, I think it is 
very difficult to imagine anything like 450. I believe the 
report we submitted to Congress said that we thought it would 
probably be in the range of 150.
    Let me explain to you what--the reason for the fuzziness. 
Let's say that the Congress lifts the restriction, I get the 
site, and we build this thing, and it starts producing pits 
around 2020. At that point, the newest pit in the stockpile 
will be 30 years old, because we stopped making them. We don't 
talk about specific numbers of the stockpile, but let's just 
say that you had 3,000 weapons deployed, spare, pits that 
aren't in there. Let's just say you had 3,000. I made the 
number up. All right? If, in fact, it turns out that the 
lifetime of plutonium is 45 years, then we have 25 years left 
on that lifetime to get through all 3,000 of those. So, you 
say, okay, and you do a simple division, and you get about 150.
    If, on the other hand, you delay the modern pit facility 
and nothing else changes, but you delay it 5 years, now all of 
a sudden you've got a shorter time to get through that same 
number of pits. And so, the number you have to put through each 
year goes up. If the number is greater than 3,000, then, 
obviously, you have more.
    So we've got a number of variables we don't know. The way 
you make--so the way you hedge against that is, you say, well, 
with most plausible stockpiles, you can convince yourself 
you're going to need about 150, and then you have the 
capability sometime in the next decade, if that turns out to 
the wrong number, because, in fact, plutonium lifetime is much 
shorter than we now expect, then you expand it.
    The reason you don't want to wait and say, ``Well, let's do 
all of the analysis that will let us narrow down the lifetime 
of plutonium'': two reasons. First, the way science really 
works is, we won't have a clear answer that everybody will 
agree on; we'll just have a technical scientific disagreement 
with more data. I mean, I predict that's what will happen. But, 
secondly, suppose we do have a consensus and it turns out that 
we're really near the short end of the thing. Then, in order to 
get through turning over the stockpile, I have to build this 
bigger than I need. If it turns out that we erred and that the 
lifetime of pits is much longer than we expected, then sometime 
in the next decade this committee or its successor will be able 
to crank back on some ongoing funding. The first one could put 
the program at risk; the second one does not.
    So, it is my view that the right thing to do is to go 
forward with the design, keeping as many options as possible 
open, but the reason you can't understand why we'd want 450 
pits a year is, there is no reason we want 450 pits a year. I 
think that's just way too high, unless we hold off this thing 
so long that you've got to turn the whole stockpile over in a 
very short time.
    Senator Feinstein. I thank you. Now I have to go home and 
do my homework on the actual fleet, and do those numbers----
    Ambassador Brooks. Yes, ma'am.
    Senator Feinstein [continuing]. And on the expected 
lifetime----
    Ambassador Brooks. Yes, ma'am.
    Senator Feinstein [continuing]. And do those numbers----
    Ambassador Brooks. And I----
    Senator Feinstein [continuing]. Which we will do.
    Ambassador Brooks. At least to save you the math, I commend 
you the report on pit lifetime, which I will make sure your 
staff has a copy, which looks at this parametrically. It looks 
at all the conceivable lifetimes, and it will--you know, you 
pick what you believe is likely to be true, and then it'll give 
you the answer. It's--

                    ROBUST NUCLEAR EARTH PENETRATOR

    Senator Feinstein. Thank you.
    Now, the second I-can't-believe-for-the-life-of-me 
question. And this is----
    Senator Domenici. Is it ``believe it or not?''
    Senator Feinstein [continuing]. This is the big one. This 
is one that confounds me, because the Ambassador has been very 
up-front. And I had the quote from the March 2 House Armed 
Services Strategic Forces Subcommittee when you answered a 
question that Congresswoman Tauscher asked you about the bunker 
buster, and she asked, ``I just want to know if there's any way 
a bunker buster of any size that we would drop will not produce 
a huge amount of radioactive debris.'' And you said, as you 
said here today, ``No, there is not.'' And then the question 
was, ``How deep could it go?'' And the same thing, you said, 
``A couple of tens of meters, maybe--I mean, certainly. I 
really must apologize for my lack of precision if we, in the 
administration, have suggested that it was possible to have a 
bomb that penetrated far enough to trap all fallout. I don't 
believe that. I don't believe the laws of physics will ever let 
that be true.''
    And I believe that's a really correct statement, because 
I've talked to a number of nuclear physicists. They say the 
same thing. So my question is, why are we doing this? We won't 
spew radiation, in terms of millions of cubic feet. I hope to 
God we won't. So why are we doing this?
    Ambassador Brooks. For the same reason, Senator, that we're 
doing any of the nuclear weapons programs. We face a very 
serious philosophical, moral, technical issue with nuclear 
weapons. And that is, for deterrents to work, we have to 
threaten to destroy something that is valuable to an adversary; 
notwithstanding the fact that the act of destroying that would 
be, in many ways, an unimaginable act. You and I have spent our 
whole life, and for much of that life, we've faced off against 
the Soviet Union at a time when at least I thought we might 
really go to war with those guys, and we deterred an attack on 
the United States by the notion of doing something back that 
would cause huge devastation.
    May I, ma'am? Because I'm actually going somewhere; it just 
doesn't look that way.
    Senator Feinstein. Okay. I want to do this.
    Ambassador Brooks. The concern that we have now is that the 
kind of what I call ``generic dictator,'' because I don't want 
to get arguing about any specific country, but if you look at 
generic dictators that we have dealt with recently, you will 
find they don't care about their people. They care about their 
power, and they care about their weapons, and they tend to put 
those things in places they don't think we can get to. And I 
don't believe that it is in our interest for a dictator to 
believe that there's nothing we could do. What we would do, who 
knows? That's the argument that says one might want a future 
President to have the option of such a weapon. All we're trying 
to do now is decide whether he can have it if he wants it, by 
figuring out if it's technically feasible.
    Senator Feinstein. I appreciate that. And I appreciate your 
directness. I really do.
    Where I have a hard time with this answer is reading the 
Nuclear Posture Review and seeing the position that's taken in 
that review. Whereas, we all know we've never had a no-first-
use policy, this review says that there are certain instances 
and certain countries against we would countenance a first use 
of nuclear weapons. All of those countries, the seven that are 
mentioned, know that. So, what are they going to do, sit back 
while we develop this, or are they going to go out and develop 
something even more, or at least as much? And this is where, 
when we have adequate conventional weapons, highly 
sophisticated conventional weapons, and, where combined with 
intelligence on air holes and exits and entries and those kinds 
of things, can be just as effective, I don't know why we want 
to risk the escalation, which, to me, seems to overwhelm the 
argument of deterrence.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Ambassador Brooks. Yes, ma'am. And the answer is, in my 
view, in the premise you make. You make the premise that we can 
adequately hold these targets at risk through conventional 
means, that we have the conventional capability and the 
precision intelligence. And if that were true, I don't know why 
anybody would want to develop a nuclear capability, either. The 
point is that I think the actual ability to do this 
conventionally is not quite as good--and I'm getting in areas 
that, (a) are not my formal responsibility, and, (b) shouldn't 
be discussed in an open hearing. But let me just say, for the 
sake of argument, if you believed that we might not have that 
capability, then you might want to at least think about, well, 
if the choice is nothing or a threat--or threatening an 
individual with nuclear weapons, which enhances deterrence? You 
correctly point out that countries are aware of what we might 
do. As long as we can't do things, then they don't have to 
worry about what a future President would do.
    I believe, and there is a formal requirement from the 
Department of Defense, that we need to be able to threaten, 
militarily, hardened and deeply buried targets. Everybody that 
I know would much rather do that conventionally. And if your 
analysis that our intelligence and our conventional 
capabilities are right, then, (a) it doesn't matter whether you 
fund the study or not, because we'll certainly never go on with 
it, because it would make no sense. All I'm asking you to think 
through is, if it turns out that you're wrong, which is better, 
to accept the risks that you correctly describe by having a 
capability, or to accept the risks that I've described of 
having something that's a sanctuary beyond the reach of U.S. 
power?
    I think that's a hard decision. I think we ought to have 
that discussion in the knowledge of whether we could do it with 
nuclear weapons if we wanted to. And that's why the 
administration proposes to spend some money to find out.
    Senator Feinstein. Yeah, and I appreciate your 
forbearance--yeah, I know, wrap it up--but one last thing and 
I'm done. We have an intellectual, an antiseptic discussion. 
And I go back, and I pull out my pictures of Nagasaki and 
Hiroshima. And I looked at what 15 kilotons can do. And I look 
at the wind patterns in various places, and I see what a 100-
kiloton bunker buster will do. I mean, we would have to be mad 
to ever use it. And it--so, for me, if you leave this 
antiseptic world of going back and forth over a table, and you 
look at the real world of potential use, it's entirely 
different.
    Ambassador Brooks. It's very hard to see any time when any 
nuclear weapon you would want to use. It's, nonetheless, been, 
for all my lifetime, the view that the capability is an 
effective deterrent. And we've always faced that. The dichotomy 
you point out about this huge devastation, if we ever use them, 
compared to the deterrent benefit, that's true whether they can 
penetrate a few meters into the ground or not. And I think 
that's a hard question.
    The only thing I would ask you to believe is, there's 
nobody on my end of the street who is unaware that nuclear use 
is, you know, quite literally, the most difficult and awesome 
decision a President would ever have to make. I don't think 
that we are going forward in an antiseptic way. We certainly 
don't intend to be, and I certainly don't think of it that way.
    Senator Feinstein. Thank you very much. Thank you, I 
appreciate your forbearance.
    Thank you very much.

                    RETIREMENT OF DR. EVERET BECKNER

    Senator Domenici. Thank you.
    Now, let me ask--Dr. Beckner, this is your last day, and, 
you know, we would have, perhaps, asked you questions, but we 
chose to do it another way. You still had something good to 
contribute. Do you want to say anything here, on your last day, 
about what's gone on or anything you'd like to?
    Dr. Beckner. Well, since you've given me the opportunity, I 
certainly wouldn't turn it down.
    This has been a marvelous experience for me. It comes 
toward the end of my career, which extended back to 25-plus 
years at Sandia and then finally culminating in this position. 
It's the finest job I've had, mainly because of the importance 
to the country. It's not one that I was eager to leave, but it 
seemed to be time. And so, I now look forward to the 
retirement. But I'll think about it a lot in the future. So, I 
appreciate the opportunity I've had, and I want to be sure I'm 
on the record for that.
    Senator Domenici. Well, you stay--you keep your suitcase 
packed, because there's probably a lot of things we're going to 
ask you to do that won't infringe upon the notion that you're 
in retirement.
    Dr. Beckner. Yeah, I'd be pleased to do that.

                       NUCLEAR WEAPONS RELEVANCE

    Senator Domenici. We'll permit you to be constructive.
    Senator, while you're still here, let me first say to you 
that I clearly understand the concern that you've expressed on 
all the issues. And I wish that we never had a nuclear weapon 
around, which I sense you do, also. And I even hear people, 
believe it or not, in commissions and council at the local 
levels, passing resolutions that we should get rid of our 
nuclear weapons. I hope, at least, when they say that, they 
mean ``our,'' not just ours, but----
    Senator Feinstein. Everyone's.
    Senator Domenici [continuing]. Everyone's. But I think 
they're--some of them aren't even saying that, just that they 
don't want them around America. But, you know, they were put 
upon us by ourselves, in a sense, and then we got in this mess 
that we had them and somebody else had them.
    It is interesting that these devastating, terribly damaging 
weapons that nobody would fathom using kept peace for a long 
time. I mean, actually, I've seen some studies that there are 
probably less people killed in wars, during the 50 years that 
we were at bay, than any comparable 50 years in modern times. 
Interesting. Maybe it's not true, but I hear it's true.
    Now it's getting worse; not because of that group of 
weapons laid over against ours, but because others have found 
it, right? Now it's--but, you know, I tend to operate off the 
premise, which apparently some people, even that built our 
bombs, didn't agree upon, because some of them wanted to share 
the fact that we had weapons, because they weren't quite sure 
we would be right all the time. You know that. Some of them 
excused--have written later and excused themselves from perhaps 
leaking secrets, that they weren't too sure we ought to have a 
monopoly. But let me say, I tend to believe our people, in 
government, when they tell us what they're going to do and what 
they're not going to do. And I don't have any such confidence 
that others are--even if they're our friends in the world--are 
going to tell us that about nuclear weapons and activities that 
they're undertaking. We could have a nice debate about that, 
but that's my feeling.
    I also don't think that American people have to believe 
that. They, consequently think--they always tell me that I am 
absolutely wrong, we are building new weapons, and they know we 
are, ``Every day, you're building a new bomb.'' I tell them, 
``I don't know where you get it. I only can believe what I've 
heard.'' But they believe it.
    The truth of the matter is that I believe that none of 
these things that they're asking us to do in this field are 
done with the idea of enhancing or encouraging, in any way, our 
unilateral use of nuclear weapons, in any way, against another 
country, enemy or would-be enemy. I think they're all being 
developed because there is an apparent need so long as the 
world is what I've just described. And if it isn't that way, 
then we ought to--you know.

                                  PITS

    And I want to talk about pits for a minute, then I'll 
close. It is not correct to say that, ``Here we are, rushing 
ahead to build pits.'' I mean, I have, for 10 years, been 
pressured by the Defense people that we're making fools of 
ourselves by not having any pit substitutes for our nuclear 
weapons; to the point where I was able to say, for 5 
consecutive years, we're the only nuclear power that has no 
inventory of pits around. And we're trying to do it, right? And 
we finally ended up building them at Los Alamos, which is not 
supposed to be the place. You know, they're up there doing it. 
I've looked at it. And it sure as hell doesn't look like a 
manufacturing plant to me. And I know, Doctor, you've seen it. 
You've seen it, Mr. Ambassador. I mean, it's a pretty shaky 
looking place to be manufacturing pits. Safe, I acknowledge. 
And nobody's scared, so they must be safe. But--I'm not sure--
but, sooner or later, we have to either decide that we are or 
we aren't. And sometime we've got to build a place.
    And just think of this. Here's an administration, this one 
or the next one, that has to decide on a location and a 
building. I don't think you're saying they don't have to, ever. 
You're just questioning whether they're exaggerating, whether--
but it's a terrific undertaking to site a building and decide 
upon it with the anti--and the way people can insist you jump 
through hoops before you do it, if you ever do it. And so, I 
don't think it's--I think the explanation that, while you're 
going through the impact evaluation, which takes forever and--
go ahead and put in a number that makes sure that when Congress 
gets around to approving it, we're not going to have to do 
anything over again. Now, it may be too high, and it may be 
that before you go on even considering her concern and what 
I've said and you've said, you might want to cut it in half. 
You might want to go down to 150 or something, because, you 
know, I say, thank God if we ever got there, in terms of 
getting it done--I don't mean building them, but at least we'd 
be rid of the problem that we can't make a decision.

                            NUCLEAR WEAPONS

    So that's how I see it. And I never want you to think that 
because I'm not going to agree with you on some of these 
things--I do respect, greatly, you; but, not only that, you've 
worked hard on these issues. I just hope you know that what to 
you are believe-it-or-nots, to some of us are believable. And 
that's where we are on about five or six issues, and we'll 
debate them out thoroughly. And I think the committee--
subcommittee will have a good time this year.
    Senator Feinstein. I think so, too.
    Senator Domenici. We won't take so long to debate them. You 
can do that on the floor, but we'll get something done.
    Senator Feinstein. Thank you.

                             NAVAL REACTORS

    Senator Domenici. Any of you--Admiral, do you have anything 
to say?
    Admiral Donald. No, sir. It's a pleasure to be here.
    Senator Domenici. Are your boats at sea still safe?
    Admiral Donald. Yes, sir, absolutely.
    Senator Domenici. Are they still landing in ports 
everywhere?
    Admiral Donald. Yes, sir. Yes, sir. We're welcome in any 
ports.
    Senator Domenici. Except Australia.
    Admiral Donald. New Zealand.
    Senator Domenici. New Zealand. That's an old-time 
arrangement, right?
    Admiral Donald. Yes, sir, it is.
    Senator Domenici. Yeah. And when you go into ports in 
Europe, they don't move all their boats out of there----
    Admiral Donald. Absolutely not.
    Senator Domenici [continuing]. Because they're scared of 
you, do they?
    Admiral Donald. No, sir, they do not.
    Senator Domenici. That's amazing. You do that, but, over 
here, if we try to move a spent fuel rod, they want to clear 
out the countryside, right? And you've gone over there in 
water, where, if it leaked there, it would go everywhere. 
Anyway.
    And, Mr. Baker, how about you. Do you have anything to 
comment?

                     ADDITIONAL COMMITTEE QUESTIONS

    Mr. Baker. No, I just want to thank you, Senator Domenici, 
over the years, for supporting our program. The threat has been 
reduced. It's getting tougher and tougher working with Russia, 
but, through your support, we have succeeded, and I want to 
thank you for it.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                         PLUTONIUM DISPOSITION

    Question. It appears that the liability proposal for plutonium 
disposition program continues to make slow progress. I was disappointed 
with the failure of the parties to reach an agreement before the 
Bratislava Summit between President Bush and President Putin.
    As I noted in my statement, I fear opponents will seize on the 
opportunity to cut the budget request of $336 million and the $300 
million in unobligated funds. I suspect our G-8 partners, who have 
committed $800 million toward this project, are also watching U.S. 
progress very carefully.
    Why are we alone among the major participants in the Global 
Partnership not to be able to reach a liability agreement with Russia? 
Can you assure the committee that the administration is committed to 
pushing this agreement through in the near future?
    Answer. The United States has many agreements with the Russian 
Federation for which it is essential to have appropriate liability 
protection for the United States, its personnel, its contractors and 
their personnel. The effects on these agreements need to be taken into 
account as we proceed with resolving liability issues in the context of 
the plutonium disposition program. The administration remains strongly 
committed to achieving a satisfactory resolution of the liability 
issues in the near future, which will enable the United States and 
Russia to proceed with plans to dispose of surplus weapon-grade 
plutonium.

  U.S./RUSSIAN WORKING GROUP ON NUCLEAR SECURITY--BRATISLAVA STATEMENT

    Question. It seems to me that the only way we can succeed in 
completing the security upgrades in Russia in 2008, in building an 
effective security culture there, and in getting the Russians to 
sustain high security with their own resources after our help phases 
out, is to convince the Russians that this is an urgent threat to their 
own security. The same goes for similar work with other countries. What 
more can we do to build understanding of the urgency of the treat--in 
Russia, and in countries around the world? President Bush and President 
Putin announced a commitment to increase efforts on ``Loose Nukes'' 
during the President's recent visit to Europe. What is the dimension of 
the new announcement, in terms of acceleration, reordering priorities?
    Answer. At their meeting in Bratislava, President Bush and 
President Putin agreed to enhance cooperation between our two countries 
to better counter nuclear terrorism. Stressing that ``while the 
security of nuclear facilities in the United States and Russia meet 
current requirements, these requirements must be constantly enhanced to 
counter the evolving terrorist threats.'' As such, the President's 
announced an expansion of cooperation on nuclear security and 
identified five areas for further cooperation: (1) Emergency Response; 
(2) Best Practices for security at nuclear facilities; (3) Security 
Culture; (4) Research Reactors; and (5) Nuclear Security.
    The Bratislava statements have energized an evolving partnership in 
U.S.-Russia relations focused on the prevention of nuclear terrorism. 
While progress was being made in many of these areas prior to 
Bratislava, the process launched at Bratislava has focused increased 
attention on a number of critical U.S. nuclear security goals. 
Specifically as a result of Bratislava, we have expanded dialogue into 
new potential areas of cooperation: emergency response, best practices, 
and security culture, and have established concrete milestones for 
targeted areas of ongoing cooperation: including the conversion of 
research reactors to low enriched uranium fuel, the repatriation of 
both spent and fresh high enriched uranium fuel back to Russia and the 
United States, and completing joint action plans for nuclear site 
security upgrades at Rosatom and Ministry of Defense facilities.
    Question. What are the key things we need to do to follow up on the 
Bratislava summit?
    Answer. To continue the momentum achieved by Bratislava, the United 
States and Russia will need to follow through on continued 
implementation and established milestones for repatriation of fresh and 
spent highly-enriched uranium (HEU) fuel, site security upgrades at 
Russian nuclear facilities, and conversion of Russian and U.S.-supplied 
research reactors in third countries currently using HEU fuel. The 
United States and Russia have also agreed to a number of joint 
workshops and exercises planned for Fall 2005, in best practices, 
security culture, and emergency management. As emergency response 
cooperation expands from traditional consequence management cooperation 
to prevention of nuclear terrorism, the United States and Russia will 
need to consider a new intergovernmental agreement on Emergency 
Response.

                    RUSSIAN SECURITY SUSTAINABILITY

    Question. As you complete upgrades at more and more sites, the 
sustainability work becomes ever more important, and presumably will 
become an increasing share of the effort. Why does the budget request 
reduce funds to support sustainability by $11 million?
    Answer. Sustainability will indeed increasingly consume a larger 
portion of the budget for each of our nuclear security programs. The 
budget request reduction was a result of the National Infrastructure 
and Sustainability program's accelerated procurement of 10 new railcars 
for the Rosatom Weapons Complex in fiscal year 2005. The railcars will 
enable Rosatom to securely move nuclear material between sites. 
However, the budget request for the sustainability portion of all other 
nuclear security activities was not reduced.
    Question. The Russians have done very little to reduce the number 
of sites with nuclear weapons and materials. It seems to me if [we] 
want high security there at an affordable price, in a way they can 
sustain, we have to be guarding a smaller number of places. What can we 
do to convince them to consolidate?
    Answer. DOE/NNSA has engaged Rosatom officials on the importance of 
consolidation on numerous occasions and the Material Consolidation and 
Conversion Project is a vehicle whereby DOE/NNSA can support the 
consolidation of HEU to fewer sites. The joint DOE-Rosatom MCC Working 
Group provides a forum for continuing this engagement. It is necessary 
to consider financial incentives and other assistance for Rosatom and 
the nuclear sites that offset the impact of removing material from 
operational sites.

                          U.N. RESOLUTION 1540

    Question. I was very pleased by the administration's success in 
pushing through U.N. Security Council Resolution 1540, which legally 
obligates every U.N. member country to put in place criminal laws 
banning any WMD activities with terrorists, effective export controls 
and border controls, and effective security and accounting for WMD 
stockpiles, including nuclear materials. I think this is a key tool to 
prevent future A.Q. Khan networks, and to keep nuclear bomb materials 
out of terrorist hands. But I've seen surprisingly little follow-
through on implementing this resolution so far. Our export control 
support programs, for example, were working with 30-40 targeted 
countries before the resolution and they're still working with 30-40 
targeted countries now--but under the resolution there are 191 
countries that have a legal requirement to put good export controls in 
place, and probably well over 100 of them that are going to need help 
to do so. What role does the Department of Energy play in supporting 
the enforcement of these controls and in monitoring compliance?
    Answer. Alongside the Department of State's Export Control and 
Related Border Security (EXBS) Program, DOE's International 
Nonproliferation Export Control Program (INECP) supports export control 
assistance overseas. Through this program, INECP serves to meet 
pressing export control system improvement requirements as outlined in 
U.N. Security Council Resolution 1540 and the President's 
nonproliferation policy in the 30-40 countries it currently engages. 
INECP uses national laboratory specialists to train foreign technical 
counterparts in the methods required to ``staff'' their own national 
export control systems, and thus supports elements necessary for 
effective national export control systems.
    Specifically, INECP's training enables foreign technical 
specialists to:
  --Conduct analyses of items proposed for export to prevent the 
        diversion of WMD-related commodities to State proliferators or 
        terrorist organizations;
  --Provide training in high risk property management and internal 
        compliance to their nuclear and dual-use industries that help 
        industry officials understand the proliferation threat posed by 
        legitimate technologies; and,
  --Adapt INECP-modeled curricula to national customs training academy 
        needs. This ``Commodity Identification Training'' is designed 
        to familiarize frontline customs officers with the visually 
        distinctive aspects of dual-use commodities needed to 
        manufacture WMD, so that they can seek additional advice when 
        necessary from their own national technical experts.
    Question. What more should be done to prevent the proliferation of 
nuclear material, scientific expertise and equipment?
    Answer. DOE's nonproliferation programs focus on these core aspects 
of the proliferation threat. Our programs cover a wide range of efforts 
from securing nuclear material at the source, to increasing overseas 
border security, to implementing and monitoring export controls, to 
disposing of fissile material and to scientific engagement of former 
weapons scientists. The administration continues to make these programs 
a top priority and the continued support of Congress for our 
multifaceted efforts would be greatly appreciated as we work as quickly 
as possible to reduce the threat posed by nuclear proliferation.

                DOE RELATIONSHIP WITH HOMELAND SECURITY

    Question. The Department is providing valuable technological 
expertise in its laboratories to the missions of Homeland Security. Can 
you provide for the committee the contributions that have been made 
thus far by the laboratories to the Department of Homeland Security, by 
each laboratory or other entity?
    Answer. Over the past 2\1/2\ years, the National Nuclear Security 
Administration (NNSA) and the other elements of the Department have 
worked with the Department of Homeland Security (DHS) to identify and 
provide critically needed technology, equipment, and expertise. We have 
been engaged in more than 233 programs and projects across the complex 
that were supported by more than $582.9 million from DHS since its 
inception.
    NNSA and its Laboratories have made significant contributions to 
the Department of Homeland Security (DHS). For instance, the core DHS 
Science and Technology (S&T) program, including the biological research 
program, started as a transfer of programs, funds and personnel from 
the NNSA Office of Nonproliferation Research and Engineering. Further, 
DHS and DOE have actively used a Calendar Year 2003 Memorandum of 
Agreement (MOA) to provide DHS direct access to the DOE and NNSA 
laboratories. This interaction has included providing expert technical 
staff from the national laboratories to staff key positions within the 
DHS S&T Undersecretariate, to a large number of DHS-funded technology 
programs and projects at the national laboratories, to an active 
programmatic engagement between offices in NNSA and DHS.
    I am enclosing for the record, a summary of the number of projects, 
and associated costs, for the efforts at NNSA sites. While most of 
these efforts are on-going, the summary also lists some of the 
significant NNSA accomplishments and deliverables that have contributed 
to meeting the DHS mission.

Attachment.--DOE Relationship with Homeland Security
            Sandia National Laboratories (SNL)
    Programs/Projects.--74.
    Funding.--$104.9 million.
    Contributions: Radiological and Nuclear Countermeasures.--Sensor 
for Measurement and Analysis of Radiation Transients (SMART) technology 
uses sodium iodide detectors and Sandia developed software to 
distinguish between various naturally occurring isotopes and special 
nuclear material.
    Sandia National Laboratories was responsible for the maritime venue 
at the RNC surge deployment of the DHS CounterMeasures Test Beds as 
well as providing staff and redeploying equipment to other venues such 
as bridges, tunnels and commuter rail.
    The Sandia analysis team has responded to rapid turnaround requests 
during national Orange Alerts and provided specific information to 
local, State, and Federal law enforcement on the deployment and use of 
radiation detectors.
    Infrastructure Protection Program.--Sandia's National 
Infrastructure Simulation & Analysis Center (NISAC) and Critical 
Infrastructure Protection/Decision Support System (CIP/DSS) Program 
have developed specific skill sets and capabilities requested by DHS to 
support infrastructure protection requirements issued by the DHS 
directorates.
    Chem/Bio Countermeasures Program.--SNL is developing fully self-
contained, portable, hand-held chemical analysis systems incorporating 
``lab on a chip'' technologies. The micro-ChemLab systems utilize micro 
fabricated substrates to provide sensitive devices with fast response 
times in a low power, compact package.
    A BioBriefcase project is being undertaken as a joint collaboration 
between Sandia and Lawrence Livermore National Laboratories for the 
DHS. This project calls for a broad-spectrum bioagent detector that is 
briefcase-sized and features dramatically reduced reagent consumption, 
improved sensitivity and rapid response time.
    Under the Transit Facility Protection effort, a chemical sensor 
test bed and emergency response plan developed by Sandia and Argonne 
National Laboratory in 1997 to demonstrate an early warning system at 
the Washington, DC Metro recently went online as part of the subway's 
ongoing emergency preparedness operations.
    Chemical detectors and prototype biological detectors have been 
fielded at a major U.S. airport as components of a future integrated 
monitoring system.
    Decontamination and Restoration.--A Domestic Demonstration and 
Application Program (DDAP) begun in 2003, in collaboration with 
Lawrence Livermore National Laboratory, is intended to create an 
optimal model for restoring a vulnerable facility, such as an airport, 
after a biological agent attack. The envisioned model is known as BROOM 
for Building Restoration Operations Optimization Model. The researchers 
are partnering in this effort with San Francisco Bay Area airports.
    They developed a single decontamination foam that has rendered all 
typical chemical and biological agents harmless. It was used to help 
eliminate anthrax in the Hart, Dirksen, and Ford buildings on Capitol 
Hill, and at contaminated sites in New York and in the Postal Service.
    Explosives Detection Technology.--Sandia has developed a 
preconcentrator for explosives detectors that is 1,000 times more 
sensitive, 200 times smaller, 13 times less costly, and 4 times faster 
than previous technologies.
    Operation Safe Commerce.--They support the Ports of Los Angeles and 
Long Beach as part of the DHS Operation Safe Commerce Program.
            Los Alamos National Laboratory (LANL)
    Programs/Projects.--85.
    Funding.--$109.3 million.
    Contributions: Nuclear and Radiological Threat Reduction.--Los 
Alamos has played a key role in testing radiation detection portal 
monitors, installing radiation detection equipment in the NYC test 
beds, in testing and improving equipment used to identify the radiation 
source material, and advancing our capabilities to actively interrogate 
containers that might contain threat materials or devices.
    Los Alamos also plays a key role in designing systems of radiation 
detectors and in assessing the performance of such systems.
    DHS funds preparations for responding to terrorist attacks, 
including a forensics and attribution program and an effort focused on 
providing first responders with a ``playbook'' detailing the 
appropriate scientifically correct response to a dirty bomb attack, and 
LANL plays a major role in both areas.
    Chemical and Biological Threat Reduction.--The established projects 
from DOE's Chemical and Biological National Security Program (CBNP-NP-
20) provided DHS's early successes in applied research and operational 
systems. Foremost among these was the project that became the BioWatch 
system that is now a 24/7 operational environmental surveillance system 
for biothreats in tens of cities.
    Under DHS, LANL in partnership with EPA and CDC, quickly prototyped 
and implemented a national surveillance system by maturing the previous 
BASIS system. Los Alamos provided the system analysis of optimization, 
the sample management system, and tools to support local and Federal 
agencies in relocating and optimizing sensor placement.
    For bioforensics efforts they provided unique analysis of biothreat 
agents from national and international incidences.
    LANL performed genomic sequencing of pathogens that supported the 
development of new detection systems and bioforensics and established 
environmental microbial backgrounds that increase reliability of 
environmental surveillance systems.
    They developed and demonstrated a bio-risk assessment methodology 
to guide the Nation's investment in biothreat reduction, both for 
intentional and naturally occurring threat agents.
    Infrastructure, Threat and Risk Analysis.--LANL integrates programs 
in threat analysis, vulnerability assessments, and consequence analysis 
to provide a risk-informed decision making capability to senior level 
officials in the DHS, as well as other U.S. government officials. The 
Critical Infrastructure Decision Support System has been used to model 
all 17 infrastructures/key assets and their critical interdependencies 
for the first time.
    The National Infrastructure Simulation and Analysis Center (NISAC) 
has performed critical infrastructure asset identification and ranking 
for major metropolitan areas of Portland, Houston, Chicago and Los 
Angeles.
    The All-WMD Terrorist Threat Capability Assessment project has 
produced assessments of Tier 0 and 1 groups for the Intelligence 
Community including the interests and capabilities of these groups for 
attacking infrastructures using WMD.
            Lawrence Livermore National Laboratory (LLNL)
    Programs/Projects.--50.
    Funding.--$264 million.
    Contributions: Assessments and System Integration.--LLNL worked 
with the DHS since its inception to develop cutting-edge technologies 
in order to make America safer. LLNL's greatest contribution to this 
effort has been its ability to integrate threat-informed risk 
assessments into systems definition which identifies where research and 
development can most effectively improve operational capabilities and 
deploy them.
    Biodefense.--They developed new assays for improved bioagent 
detection, the creation of improved biodetection techniques and the 
deployment of these techniques into operational capabilities (BioWatch) 
and created the Biodefense Knowledge Center (BKC).
    Radiation Detection.--LLNL is also developing new detection 
technologies and supporting the creation of national standards on these 
(and existing) technologies, while working with operational entities 
(Port Authority of New York and New Jersey) on the integration of 
technology into mission critical activities.
    Forensics.--LLNL has always provided its singular expertise 
regarding nuclear incidents and is continuing to work with the domestic 
and international community (in coordination with other Federal 
agencies, including DHS) to improve the methods and protocols of 
nuclear forensics and attribution.
    Their Forensic Science Center has been assisting the law 
enforcement community in analyzing forensic samples of interest. DHS, 
in coordination with the FBI, is leveraging this capability by 
establishing nationally available contaminated evidence receival 
facilities at NNSA sites (including LLNL) because of the Laboratory's 
special expertise with WMD materials, international accreditation and 
long standing relationship with the law enforcement community.
    Intelligence Support.--LLNL provided scientific and technical 
expertise for the analysis of all source intelligence information, 
primarily regarding the foreign nuclear threat. They have expanded 
their analytic capabilities to all threats and are a key part of DHS's 
intelligence team. Part of this expansion has been the development of 
advanced knowledge management tools, which have been further leveraged 
by DHS into the ADVISE architecture.
            Nevada Test Site (NTS)
    Programs/Projects.--11.
    Funding.--$98.5 million.
    Contributions: WMD Training.--Over 24 thousand students have been 
trained to date. Training is being provided at the Nevada Test Site and 
across the United States and territories in Weapons of Mass Destruction 
radiological/nuclear response. Training covers the spectrum from the 
All-Hazards Awareness level up through scenario-based, hot-zone, hands-
on Hazardous Material Technician level.
    Radiological/Nuclear Test and Evaluation Complex.--This facility is 
currently under construction and scheduled to be operational in the 
fall of 2006. DHS has identified a critical need to develop a facility 
to test and evaluate sensors and detection systems for the detection of 
the clandestine movement of radiological materials across our Nation's 
borders. When complete, this DHS-funded Nuclear Hazard Category 2 
facility will have the capability to test prototype detectors in 
simulated real-world conditions with a variety of radionuclides 
including Special Nuclear Materials.
            Savannah River National Laboratory (SRNL)
    Programs/Projects.--13.
    Funding.--$6.2 million.
    Contributions: Forensics and Attribution.--SRNL developed 
analytical capabilities to more quickly and accurately determine the 
source of origin for captured nuclear materials. New equipment and 
techniques are being developed along with cataloging existing source 
data.
    They are modifying existing facilities to expand our capabilities 
for handling and analyzing forensic evidence contaminated with nuclear 
materials.
    Training.--Training for U.S. Coast Guard personnel on radiation 
detection general search techniques that includes training in the 
general orientation and USCG rad detection equipment operations is 
being provided.
    SRNL is also providing training for Customs and Border Patrol 
personnel on radiation detection general search techniques in support 
of counter-smuggling efforts.
    Test and Evaluation.--They have conducted testing and evaluation of 
Commercial Off-The-Shelf (COTS) radiation detection equipment in a 
maritime environment for the U.S. Coast Guard to support their 
selection process for purchasing.
    The laboratory tested and evaluated radiation detection hardware in 
conjunction with Sandia National Lab at the DHS Test Bed at the Port of 
New York/New Jersey. COTS portal monitors were installed and tested in 
a marine port environment.
    All of the laboratories have provided specialized expertise in 
various technologies as needed by the Department of Homeland Security. 
This level of support has been made available since the inception of 
the DHS.

    Besides the National Nuclear Security Administration (NNSA), other 
offices in the Department of Energy (DOE) work closely with the 
Department of Homeland Security (DHS) to ensure DHS can use the special 
capabilities and expertise of the DOE laboratories to support DHS 
mission activities. DOE and DHS have signed a Memorandum of Agreement 
for this purpose and DOE has developed a streamlined reimbursable 
process for allowing DHS access to the DOE laboratories. DOE also 
provides an annual report to Congress on the homeland security related 
activities conducted by the DOE laboratories and facilities which 
includes DHS funded work.
    I understand the Office of Science (SC) laboratories continue to 
conduct research and development activities that have the potential to 
provide new technologies for homeland security applications, as well as 
broaden the science base in areas of interest to DHS. These activities 
are primarily funded by DHS, but can also be supported by other 
sponsors of the laboratories. In fiscal year 2005, the SC laboratories 
are expected to receive approximately $230 million directly from DHS 
for a wide variety of research and development efforts. Below are a few 
specific examples of the contributions made thus far to DHS by the SC 
laboratories.
    Argonne National Laboratory, working with several other DOE 
laboratories, has developed the PROTECT program which provides an early 
warning crisis management system aimed at mitigating the impacts of 
chemical attacks on critical infrastructure such as high-threat subway 
systems, intermodal transportation facilities, large buildings, and 
airports. The system employs chemical detectors supported with video 
verification of patron distress to identify actual attacks from 
detector false alarms. The system also includes an advanced command and 
control system that combines detector, video, train, and facility 
ventilation data, and produces output for situation awareness for 
facility managers and responders. The PROTECT system is now being used 
in Washington, DC; New York, NY; and Boston, MA. In each case, the 
system is run by facility managers, and maintenance costs are paid for 
by the facilities themselves. The system is expected to be deployed in 
other major cities across the country.
    Brookhaven National Laboratory has developed and constructed a 
``test-bed'' facility, called the Radiation Detector Testing and 
Evaluation Facility (RADTEC), for assembling, operating, and testing 
commercial and government ``off-the-shelf'' technologies targeted for 
various homeland security applications, providing unbiased baseline 
data for comparison purposes. RADTEC includes a secure indoor facility, 
allowing equipment to be assembled and tested in a protected 
environment before being placed in a nearby outdoor test environment. 
The outdoor facility consists of an isolated stretch of road, allowing 
the appropriate security and health and safety protocols needed for 
testing with radioactive sources of national security concern. The 
facility is expected to become an important resource for local, county, 
State, and Federal officials, allowing researchers to define the 
strengths and limitations of various detectors, providing a 
quantitative and qualitative method for comparison. This comparison is 
necessary to provide the most comprehensive security screening 
deployment for the busy ports and access points in the New York 
metropolitan area.
    Oak Ridge National Laboratory (ORNL) and Pacific Northwest National 
Laboratory (PNNL) have been chosen to help facilitate the transition of 
innovative technologies and organizational concepts to regional, State, 
and local jurisdictions under the Regional Technology Integration 
initiative. The initiative will serve as the principal mechanism for 
aligning science and technology assessments and expertise with the real 
needs of first responders. The program recognizes the real and 
important variables of the environment of individual communities, 
including population, leadership structure, geography and physical 
layout, level of threat, and available resources. It is expected to be 
a building block on which cities can improve emergency response efforts 
by taking advantage of what the Nation has to offer in terms of 
scientific and technological advances and learning from others' 
experiences.
    Oak Ridge National Laboratory has also developed a transportable 
radiation portal monitoring system (TRMS). The system consists of a 
two-detector, commercially available vehicle monitor that detects gamma 
and neutron radiation. Each detector is mounted on a custom designed, 
commercially manufactured trailer that can operate as a single unit or 
a dual-sided unit. The system was developed as a result of the 
implementation of a gamma-only system designed and built for use at 
ORNL. This initial system was designed to detect increases in measured 
gamma radiation levels as vehicles containing scrap and waste passed 
through the detection area. The advantages of a radiation detection 
system that is easy to setup, operate, then breakdown indicated that 
this technique may be valuable for homeland security applications. The 
TRMS was provided to the Port Authority of New York/New Jersey test bed 
where it was deployed for use. Field observations were made which 
resulted in an action plan to revise the design making the unit more 
roadworthy. During the deployment, the radiological performance was 
excellent and the ability to setup the system quickly was seen as a 
great advantage and to be very desirable by the user community.
    Pacific Northwest National Laboratory is improving the 
understanding of how contaminants disperse in an urban environment in 
the event of a terrorist attack. PNNL and other partners are releasing 
a safe inert tracer gas into downtown Manhattan and then measuring wind 
patterns using portable wind-sampling instruments placed around the 
area. Data collected from the study will help improve computer model 
simulations of the transport and deposition of urban atmospheric 
contaminants. It also will be shared with the surrounding emergency 
response community to enable officials to factor the results into 
response techniques. The data collected during the New York campaign 
will improve the reliability of computer models. The models are 
important for local and Federal officials to train and prepare in the 
event of an airborne disaster. The ability to track dispersal of 
contaminants through the air in the metropolitan New York area is a top 
priority for local and national emergency management officials.
    Additionally the Idaho National Laboratory (INL), managed by the 
DOE Office of Nuclear Energy, Science and Technology (NE), performs 
work for the Department of Homeland Security (DHS) in several areas 
including improving cyber security technologies for Supervisory Control 
and Data Acquisition (SCADA) and Process Control Systems, trace 
explosives detection and testing, nuclear materials detection, and 
biological countermeasures.
    The INL's Control Systems Security Center is a multi-year program 
to perform risk and vulnerability assessments, and develop tools and 
solutions against known cyber vulnerabilities, as well as increasing 
industry's awareness of cyber security for control systems. The program 
works cooperatively with the Department's National SCADA Test Bed 
allowing industry and vendors to place their equipment in a specialized 
facility where it is analyzed by cyber and control systems researchers. 
INL's independent infrastructure systems allows SCADA and control 
systems testing to be performed in a more realistic environment than 
computer simulation. INL also performs SCADA and communications 
modeling work for the National Communications System, assists utilities 
by conducting site assist visits, and provides support to the U.S. 
Computer Emergency Readiness Team.
    INL has also developed an active interrogation system for the 
detection of shielded nuclear materials smuggled in large commercial 
cargo containers, teaming with a commercial company to adapt this 
system for deployment at the Nation's ports of entry. The system can 
detect the presence of weapons grade nuclear material and can 
differentiate between highly enriched uranium, depleted uranium, or 
thorium.
    Laboratory scientists are conducting research and performing 
testing on trace explosives detection systems for DHS and other Federal 
agencies. They perform explosive forensic analysis, design improved 
sensors, and develop detection testing protocols and standards.
    Finally, INL performs work in chemical and biological 
countermeasures by developing and validating a suite of DNA signatures 
for rapid detection of certain biological agents and have developed a 
quick, safe, accurate method to detect this agent in the field.
    Question. It is my understanding that DHS will establish a Domestic 
Nuclear Detection Office (DNDO) with primary responsibilities to 
improve the deployment of nuclear detectors here in the United States. 
DHS claims they will work to coordinate Federal efforts in this area 
and the development of new detection technology. It is my understanding 
that the Department has agreed to provide staffing for this Office. 
What role will DOE play in this partnership and which agency will pay 
the staffing costs for the DOE employees? NNSA's role and strategic 
objectives relative to nuclear proliferation are well understood, but 
what do you see as NNSA's role relative to the proliferation of other 
Weapons of Mass Destruction, particularly biological weapons?
    Answer. The Domestic Nuclear Detection Office (DNDO) was 
established to bolster the ability to detect and interdict illicit 
nuclear and radiological materials that threaten the homeland. As the 
Nation's technical resource for nuclear and radiological matters, DOE 
is committed to working collaboratively with the DNDO in the use and 
development of technologies and resources. At the same time, DOE 
retains the responsibility for managing those programs that support DOE 
missions.
    With the establishment of the DNDO, DOE has agreed to provide 
staffing in key areas on a rotational basis to ensure there is 
continuity and connectivity between the Departments for this key 
Presidential Initiative. For fiscal year 2006, NNSA will provide up to 
11 staff members to provide connectivity across research and 
development, operational and procurement related interactions of the 
Departments. DHS has stated their intention to request fiscal year 2007 
funding to reimburse interagency rotational assignments to DNDO.
    In terms of the NNSA role relative to the proliferation of other 
Weapons of Mass Destruction (WMD), particularly biological weapons, 
NNSA's mission statement includes all WMD as global areas of emphasis. 
While, noting that NNSA's primary focus is on the nuclear aspect of 
WMD, there is considerable talent and research that has been, and can 
be, brought to bear on biological weapons R&D, especially in a 
nonproliferation context. The NNSA Laboratories are well situated to 
provide leading edge R&D to further the capability for the Nation to 
detect, characterize and locate biological threats to the Nation. This 
capability is, and should be, integrated with other ongoing biological 
detection R&D work in DHS, the Defense Department and other Federal 
agencies.

                                 TA-18

    Question. Ambassador Brooks, Secretary Abraham made a decision to 
begin moving the Category 1 Special Nuclear Material out of TA-18 at 
Los Alamos to the Nevada Test Site for security purposes. Unfortunately 
the NNSA never budgeted for this activity in fiscal year 2005, nor was 
it requested in the Emergency Supplemental Appropriations bill. Instead 
you have decided to ``tax'' specific RTBF projects to pay of this 
activity. New Mexico projects would lose $10 million as a result. 
Congress did not prioritize funding for these RTBF projects so you 
could pay for your unbudgeted priorities. Senator Reid and I have 
included a provision within the Senate Supplemental that will provide 
$26 million for the TA-18 move. Are there any other emergency items of 
which you are aware but that have not been requested--such as $30 
million needed for security upgrades in Nevada? If so what are they?
    Answer. There are no other emergency items, but we are in the 
process of submitting a reprogramming of $17.4 million for Safeguards 
and Security to support emergent requirements associated with the 
implementation of the May 2003 Design Basis Threat.
    Question. Why did you decide to cut Congressional priorities to 
fund the TA-18 project instead of requesting funding as part of the 
Emergency Supplemental?
    Answer. The decision to begin moving the Category I Special Nuclear 
Material out of TA-18 at Los Alamos National Laboratory to the Nevada 
Test Site for security purposes (National Nuclear Security 
Administration (NNSA) Press Release NA-04-10, dated March 31, 2004) 
occurred after formulation of the fiscal year 2005 Budget and therefore 
was not included. Nevertheless, as our understanding of the security 
risk evolved, so did NNSA's sense of urgency to move these materials as 
soon as possible. Funding the early move of materials fits within the 
definition of the Readiness in Technical Base and Facilities account 
and was viewed as the most expeditious means to address this security 
concern.

              NUCLEAR WEAPONS COMPLEX INFRASTRUCTURE STUDY

    Question. Ambassador Brooks, I understand that the Department has 
convened a team under the Secretary of Energy Advisory Board to visit 
each of the NNSA facilities, meet with lab personnel and Department of 
Defense officials. This group is expected to make a proposal in May 
regarding the future size and scope of the NNSA weapons complex.
    I have been informed by constituents who spoke with Ed Wilmot, the 
DoE site manager at Los Alamos, who was quoted as saying that Los 
Alamos will lose 25 percent of their capability as result of this 
proposal. That is a frightening thought, and I would appreciate it if 
you could set the record straight since you have been briefed on this 
study. Do you support a 25 percent reduction of capability at Los 
Alamos?
    Answer. I do not foresee any circumstances that would lead to a 25 
percent reduction of capability at Los Alamos.
    Question. Was the statement made by Ed Wilmot accurate, and will 
this study propose such a drastic reduction in capability at Los 
Alamos?
    Answer. Unfortunately, the information you received regarding Ed 
Wilmot's comments at a session of the Los Alamos Medical Center Board 
of Director's meeting were taken out of context by someone who was not 
present at the meeting. The fact is Mr. Wilmot used a 25 percent 
reduction as an arbitrary number during a strategy planning session of 
the Board that was unrelated to the ongoing Complex Study required by 
Congress. I should note that during this planning session a wide 
spectrum of other scenarios were discussed including significant growth 
at Los Alamos.
    The Nuclear Weapons Complex Infrastructure Study task force is an 
independent study on behalf of the Secretary of Energy's Advisory 
Board. The study is advisory only and is now underway. The board has 
not published its recommendations and neither the Secretary of Energy 
nor I have made any decisions about the study.

                        FIVE-YEAR BUDGET OUTLOOK

    Question. Ambassador Brooks, the fiscal year 2006 budget proposes a 
net reduction to the NNSA budget by $500 million over the next 5 years 
as compared to fiscal year 2005. The budget proposes reducing Defense 
Programs by $3 billion and the FIRP program is to be cut by $750 
million. I don't believe that you will be able to support the vision 
you have laid out in your testimony before the Senate Armed Services 
Committee to maintain the existing stockpile while you restore the 
design and production capability for a new weapon by 2015. Can you 
please explain where you intend to cut the $3 billion and how you 
intend to support this new capability?
    Answer. The reductions in the nuclear weapon stockpile from the 
Treaty of Moscow, and a changed approach to Stockpile Stewardship will 
enable NNSA to make a funding reduction of this magnitude and still 
support this mission. During the next 5 to 10 years, we gain the 
efficiencies of investments made in advanced computing and simulation. 
The large capital expenditures in the past 5 years associated with 
supercomputing, the National Ignition Facility, and restoring tritium 
production capability are already winding down. The recent steep growth 
in funding for Safeguards and Security will taper off as infrastructure 
and technology improvements are implemented.
    The key planning parameters for our future new capabilities are 
embodied in the ``responsive infrastructure'' and ``reliable 
replacement warhead'' concepts. Both of these are designed to support 
the continuing stewardship of the Nation's nuclear deterrent more 
efficiently and effectively, in terms of both products and facilities. 
Program implementation for these approaches is just beginning. The 
Nuclear Weapons Complex Infrastructure Study requested by the Congress 
is expected to support and expand upon this new approach.
    Question. How will you ensure that we meet our stockpile 
stewardship obligations if you continue to make deep cuts to the 
Science Campaign (-5 percent) the Engineering Campaign (-12 percent), 
Readiness (-16 percent) over the next several years?
    Answer. A reduction in funding for a campaign does not necessarily 
indicate a lack of support or retreat from program obligations. Funding 
for these campaigns, and all NNSA programs, is a function of multi year 
planning to meet stockpile stewardship obligations and long term goals, 
not a ``level of effort''. In the case of these and all campaigns, 
achievement of research objectives, completion of major construction 
projects, and future objectives all factor in to determine NNSA's 
overall priorities and funding levels.
    Question. In your testimony before the Senate Armed Services 
Committee you referred to a major change in the fiscal year 2007 
budget. Can you please elaborate on that proposal?
    Answer. We knew when we submitted the fiscal year 2006-2010 
President's Budget that we would likely rebalance the outyears for a 
number of our programs during our fiscal year 2007 PPBE process. That 
will take place this spring and summer in light of some ``fact of 
life'' changes for a few major programs, and in view of congressional 
direction we receive with the fiscal year 2006 actions.
    The Nuclear Weapons Complex Infrastructure Study requested by the 
Congress is also expected later this spring. Although we do not expect 
that the study recommendations will have a major impact on the fiscal 
year 2007-2011 budget proposal, the fiscal year 2007 budget process 
will provide a forum for dialogue between the administration and the 
Congress that will set the path to a different, more efficient and less 
expensive approach to the nuclear weapons complex in the future.

                    NATIONAL IGNITION FACILITY (NIF)

    Question. It appears that with constraints imposed by NIF 
construction, the budget for High Energy Density Physics research at 
Los Alamos and Livermore has been dropped to zero in fiscal year 2006 
and fiscal year 2007 and Sandia's budget for the operation of the ``Z'' 
machine has been drastically cut. How does this large cut in this 
science activity affect the viability of the NIF ignition plan and the 
long term health of this critical aspect of stockpile stewardship?
    Answer. Over the next 5 to 10 years NNSA will need to make the 
nuclear weapon complex more agile and responsive and will have to 
respond to a number of weapon design challenges. To effectively support 
the stockpile, previously planned major advanced scientific 
capabilities, such as validated simulation tools, radiography, and NIF 
ignition experiments, must be put in place as soon as feasible. For 
this reason, the fiscal year 2006 submission reoriented the Inertial 
Confinement Fusion and High Yield Campaign towards the completion of 
NIF. Execution of the first ignition experiment in fiscal year 2010 
appears credible, despite the reductions to the high energy density 
physics program. Near term experiments in support of the ignition 
campaign will be executed at OMEGA and Z. Clearly adjustments are being 
made and we are accepting greater, though manageable, programmatic 
risk.
    OMEGA and Z are essential for near term work in high-energy-density 
weapon physics and the ignition campaign, and these facilities will be 
adequately supported in fiscal year 2006. With respect to Z, we have 
maintained a reasonable program at Z, including full funding for the Z-
refurbishment project. Because of constrained budgets, we are planning 
to operate the Z Facility at 90 percent of the full single shift rate 
through April 2006. At that time, the Z-Facility will be shut down for 
refurbishment. Overall, we will reduce the number of shots on Z by a 
modest amount while still keeping the Z-refurbishment project on 
schedule. The amount of experiments supported at OMEGA in fiscal year 
2006 will also be slightly less than fiscal year 2005. In short, the 
NIF ignition plan, and this aspect of stockpile stewardship remains 
viable.
    Question. The ICF budget for fiscal years 2006, 2007 and 2008 
appears marginal, at best, to meet needs of the expected ignition 
campaign on NIF in 2010. No shots at all are expected on NIF in the 
years leading up to this campaign. With such total concentration on NIF 
construction, the research needed to build up to a credible program for 
utilization of the NIF to support the Stockpile cannot be done. On what 
basis does NNSA believe that they can maintain a robust stockpile 
stewardship effort in High Energy Density Physics prior to crucial 
experiments on NIF in light of this prioritization?
    Answer. As discussed in the question above, experimental programs 
are being maintained at Z and OMEGA, in addition to supporting NIF 
construction. Funds and plans are in place for a high energy density 
physics program that is required to support current stockpile 
applications. Some of this support is captured in other campaigns and 
directed stockpile work. Full details will be made available as part of 
the fiscal year 2007 request.
    Question. With reduction of science budgets at the NNSA labs, there 
is clear risk of atrophy of science expertise in high energy density 
physics. What steps is NNSA taking, and what additional steps should be 
taken, to develop science programs that can aid in the development of 
High Energy Density Physics experiments on the NIF and other NNSA 
facilities (such as the Omega laser and ZR at Sandia)?
    Answer. The NNSA has aggressively rebalanced the High Energy 
Density Physics (HEDP) program and is accepting greater programmatic 
risk in response to budgetary pressures. Nevertheless, we have a viable 
program that maintains a sufficient level of scientific expertise in 
HEDP, and will obtain relevant data from HEDP facilities to support 
near-term stockpile stewardship deliverables.

                       SMALL BUSINESS CONTRACTING

    Question. I understand that DOE is last among Federal agencies in 
terms of compliance with the small business contracting goals set by 
the administration. I also recognize this is a result of policy that 
prohibits the Department from counting small business sub contracts let 
by the M&O contractors.
    Both Sandia and Los Alamos place at least 45 percent of their 
subcontracts with small business--well over the SBA required level of 
23 percent. DOE wide, small business procurements make up 52 percent of 
all M&O subcontracts. Despite this strong track record, DOE is only 
scored for prime contracts (only 4 percent of primes go to small 
business).
    To address this shortfall NNSA has initiated two efforts to improve 
its small business score. The first has been to sign contracts with 
Alaska Native Corporations. Since October 2004, the NNSA has signed 
$500 million in contracts with ANCs.
    The second initiative, known as the Tri-lab Initiative, would take 
$100 million in procurements from each of the three NNSA labs and 
bundle them to be offered by either the Albuquerque Service Center or 
Headquarters. NNSA's decision to pull these contracts back to 
Headquarters is also likely to impact the labs through a reduction in 
LDRD funding and will reduce NNSA's mandated small business goals 
negotiated by each lab.
    This program is ill conceived and poorly executed as the 
procurement targets have varied widely as have the goals and terms 
proposed by NNSA. Can you please explain why you have insisted that the 
NNSA proceed with this proposal despite strong objection by the labs 
and small businesses?
    Answer. As a result of the Emergency Supplemental Appropriations 
Act for Defense, the Global War on Terror, and Tsunami Relief, 2005, 
section 6022, NNSA has tabled the Tri-lab Initiative indefinitely 
pending the outcome of the joint study directed by the legislation. The 
expectation that NNSA can award 23 percent of the NNSA budget to small 
businesses when more than 80 percent of the departmental budget is 
obligated to Management and Operating contracts presents a real 
challenge. Nevertheless NNSA continues to strive for increases in the 
amount of prime contracting dollars awarded to the Small Business 
community, as we work to support Federal-wide goals.
    Question. The GAO is currently reviewing DOE subcontracting rules 
for a report later this year, and I have proposed language to fix this 
matter. Would you agree to put off execution of the tri-lab bundling 
proposal until the GAO completes their work and submits its 
recommendations?
    Answer. The GAO has completed its work on DOE oversight of small 
business subcontracting and the Department has begun the process of 
implementing these recommendations through the issuance of several 
documents and directives.
    Additionally, as a result of the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror, and Tsunami 
Relief, 2005, section 6022, NNSA has tabled the Tri-lab Initiative 
indefinitely pending the outcome of the joint study directed by the 
legislation.
    Question. The GAO is currently reviewing DOE subcontracting rules 
for a report later this year, and I have proposed language to fix this 
matter. Can you please guarantee that this proposal will not impact 
current small business contracts in New Mexico and not negatively 
impact the LDRD program at each of the labs this year and the following 
years?
    Answer. Pending the findings from the joint study directed by the 
Emergency Supplemental Appropriations Act for Defense, the Global War 
on Terror, and Tsunami Relief, 2005, section 6022, NNSA has halted 
action on the Tri-lab proposal. NNSA looks forward to working with the 
Small Business Administration in developing an appropriate methodology 
for measuring the achievement of the Department of Energy with respect 
to awarding contracts to small businesses.

                     ADVANCED SIMULATION COMPUTING

    Question. Ambassador Brooks, NNSA is holding a significant funding 
reserve at Headquarters for the Advanced Simulation and Computing 
program and it is unclear how the money will be spent. I believe that 
we need to get this funding into the field. I also recognize that 
within the NNSA there is a debate regarding whether you should build 
computing capacity by purchasing existing technology to increase 
capacity quickly and cheaply or continue the current practice of buying 
expensive leadership-class machines. Do you have concerns that our 
weapons design computing needs are outstripping their access to 
computing capacity?
    Answer. The funds identified in the fiscal year 2006 National 
Nuclear Security Administration (NNSA) budget request under 
Headquarters includes hardware and contract dollars that will be 
distributed to the laboratories at the beginning of the fiscal year. In 
the future, most of these funds will be distributed prior to the budget 
request submission and therefore the Headquarters numbers in future 
submissions should be significantly lower than the current one.
    Currently, our computing needs do exceed our access to computing 
capacity. Sustained support for computing is essential to support 
national security. At NNSA and at the weapons Laboratories, we know 
that to address both current stockpile issues and emerging needs, 
computer systems that stretch the capabilities of the technology are 
required. Our current systems are oversubscribed, both in terms of 
capacity (high-volume, smaller-size) and capability (low-volume, 
largest-size). With the current generation of leadership-class 
machines, simulating the behavior of a system in the current stockpile 
with a full three-dimensional calculation is taking a year or more to 
complete--whereas a timely analysis should take less than a month. 
Further, the developing weapons' certification methodology, which 
includes compute-intensive sensitivity analysis, is driving a growing 
demand for capacity systems. Our current shortfall in computing is 
exacerbated by urgent situations that arise in the stockpile that 
displace other time-critical work. A case in point is a current 
Significant Finding Investigation that required us to supplant 
important work on the W76 Life Extension Program so that critical 
computations could be completed. Our continuing challenge is to reduce 
the time-to-solution of these problems while acquiring the most cost-
effective systems that make it possible for weapons scientists and 
engineers to keep pace with the demands of the stockpile stewardship 
program.
    Question. Is it possible to address capacity needs at a lower cost 
through multiple systems than buying a single cutting-edge machine?
    Answer. We are addressing the capacity computing needs of the 
program by acquiring computer systems that are based on available, 
commodity products (such as processors, memories, and interconnection 
networks, and the Linux operating system). These systems can be 
acquired and deployed very rapidly to address a significant subset, but 
not all, of our problems. The Advanced Simulation and Computing program 
procured some early Linux-based systems in 2002 and found them to be 
effective for a significant fraction of our weapons simulations. We 
recognize that the weapons program can't make use of capability (now 
referred to as leadership-class) computers until it provides sufficient 
capacity systems to alleviate its oversubscription problems. However, 
Linux clusters cannot fulfill our most demanding capability needs, so 
the program will continue to rely on a balance of commodity clusters 
and cutting-edge machines for those applications that require them.

                             CYBER SECURITY

    Question. The Integrated Cyber Security Initiative work to 
provision and secure NNSA systems has been moving along successfully 
with installations at several DOE Labs (most notably Sandia). Based 
upon this experience, should this infrastructure be promoted as ``the'' 
enterprise approach to secure and provision and authenticate all of DOE 
users? If so, why?
    Answer. The Integrated Cyber Security Initiative is implementing an 
enterprise secure network for all sites in NNSA. The DOE Diskless 
Workstation Tiger team has recommended that the NNSA enterprise secure 
network be extended to include all DOE sites processing classified 
data. Because much of the work performed by the non-NNSA laboratories 
in DOE is unclassified it would inappropriate to connect these 
laboratories to the NNSA enterprise secure network. NNSA laboratories 
and production facilities are evaluating the NSNA enterprise secure 
network architecture for possible deployment in their sensitive and 
unclassified computing environments.
    Question. Right now DOE labs seem to operate with a multitude of 
approaches to secure messaging and have developed a standardized manner 
in which to ensure that important communications are provided with the 
necessary level of security. Although there is a Federal Bridge 
Certificate Authority (FBCA) PKI infrastructure that is being used by 
many across DOE to send secure messages, there are many instances where 
individuals send information (apparently using their own discretion) 
without using this infrastructure, clearly not in compliance with DOE 
policy. What efforts are being made to standardize DOE with a common 
secure messaging solution by offering PKI credentials to all DOE 
employees and contractors and ensure that solution is being utilized at 
all appropriate times?
    Answer. The DOE and NNSA are currently working to develop the plans 
for implementing the Homeland Security Presidential Directive-12. This 
directive requires that all Federal employees and Federal contractors 
use a common, standard credential to access all government and 
government contractor information systems. A key element in the 
implementation of this directive is a Department-wide PKI 
infrastructure. Completion of the implementation of the directive, now 
mandated by the Office of Management and Budget for September 2006, 
will provide a common PKI infrastructure across all DOE and NNSA sites 
and enable the use of a common secure messaging solution.
    Question. Sensitive data may reside within a database, on a 
computer or laptop, within an email or other communication, among other 
places. What procedures and system does the Department use to ensure 
that: (1) individuals accessing internal information are who they claim 
to be; (2) the system allows individuals to only view the material they 
are authorized to view and no more; and (3) ensures that ``authorized'' 
users are not deliberately or inadvertently able to share this 
information with unauthorized users? If no such program is in place, 
why is there not a program in place to ensure such safeguards in the 
storage, use, and communication of such data exists for the entire 
Department? Would such a program have prevented some, any, or all of 
the security lapses that we have seen in within the Department?
    Answer. The Integrated Cyber Security Initiative is implementing 
hardware, software, and procedures that will ensure that only 
authorized users may access and share data with other authorized users. 
Authorization will be strictly based on management approval of the 
``need-to-know.'' Deployment of this architecture into the NNSA 
unclassified and sensitive computing environments, coupled with the DOE 
implementation of HSPD-12 and FIPS 201, will extend these controls to 
cover all NNSA data. These controls will reduce the number of incidents 
involving inadvertent disclosure of information through inappropriate 
email and file transfers. However, these controls cannot address the 
incidents where users mis-handle data outside the computing 
environment, such as misplacing classified removable electronic media 
(CREM).

    Senator Domenici. I do want to close by saying, Senator, 
that--Feinstein--there is another thing about ournuclear 
weapons, versus Russia, which I think we are being very honest 
about. And they're not being dishonest. I mean, they may be, 
but I don't know about it. But they have different nuclear 
weapons.
    Senator Feinstein. Yes, I know.

                         CONCLUSION OF HEARINGS

    Senator Domenici. You know that. And they replace them 
regularly, and that's not considered new ones. They build them 
all the time, because they never built them to last very long. 
So, here we are, every time we move a--we wiggle a little 
pinky, somebody's running around saying--not you--but that 
we're building a new weapon, when there is a constant new set 
of weapons that you big scientists know they're going to have 
that work right. They don't have the same situation we do. They 
may have some other problems--manpower, all the rest of it.
    With that, we're in recess.
    [Whereupon, at 3:40 p.m., Thursday, April 14, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
